<html>
<title> - COMPREHENSIVE CHILDREN'S PRODUCT SAFETY COMMISSION REFORM LEGISLATION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 COMPREHENSIVE CHILDREN'S PRODUCT SAFETY COMMISSION REFORM LEGISLATION 

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON COMMERCE, TRADE,
                        AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 6, 2007

                               __________

                           Serial No. 110-75


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

45-181 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 






















                    COMMITTEE ON ENERGY AND COMMERCE

                  JOHN D. DINGELL, Michigan, Chairman

HENRY A. WAXMAN, California          JOE BARTON, Texas
EDWARD J. MARKEY, Massachusetts          Ranking Member
RICK BOUCHER, Virginia               RALPH M. HALL, Texas
EDOLPHUS TOWNS, New York             J. DENNIS HASTERT, Illinois
FRANK PALLONE, Jr., New Jersey       FRED UPTON, Michigan
BART GORDON, Tennessee               CLIFF STEARNS, Florida
BOBBY L. RUSH, Illinois              NATHAN DEAL, Georgia
ANNA G. ESHOO, California            ED WHITFIELD, Kentucky
BART STUPAK, Michigan                BARBARA CUBIN, Wyoming
ELIOT L. ENGEL, New York             JOHN SHIMKUS, Illinois
ALBERT R. WYNN, Maryland             HEATHER WILSON, New Mexico
GENE GREEN, Texas                    JOHN B. SHADEGG, Arizona
DIANA DeGETTE, Colorado              CHARLES W. ``CHIP'' PICKERING, 
    Vice Chairman                    Mississippi
LOIS CAPPS, California               VITO FOSSELLA, New York
MIKE DOYLE, Pennsylvania             STEVE BUYER, Indiana
JANE HARMAN, California              GEORGE RADANOVICH, California
TOM ALLEN, Maine                     JOSEPH R. PITTS, Pennsylvania
JAN SCHAKOWSKY, Illinois             MARY BONO, California
HILDA L. SOLIS, California           GREG WALDEN, Oregon
CHARLES A. GONZALEZ, Texas           LEE TERRY, Nebraska
JAY INSLEE, Washington               MIKE FERGUSON, New Jersey
TAMMY BALDWIN, Wisconsin             MIKE ROGERS, Michigan
MIKE ROSS, Arkansas                  SUE WILKINS MYRICK, North Carolina
DARLENE HOOLEY, Oregon               JOHN SULLIVAN, Oklahoma
ANTHONY D. WEINER, New York          TIM MURPHY, Pennsylvania
JIM MATHESON, Utah                   MICHAEL C. BURGESS, Texas
G.K. BUTTERFIELD, North Carolina     MARSHA BLACKBURN, Tennessee
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana

                                 ______

                 Dennis B. Fitzgibbons, Chief of Staff

                   Gregg A. Rothschild, Chief Counsel

                      Sharon E. Davis, Chief Clerk

                 Bud Albright, Minority Staff Director

                                  (ii)
        Subcommittee on Commerce, Trade, and Consumer Protection

                   BOBBY L. RUSH, Illinois, Chairman
JAN SCHAKOWSKY, Illinois             CLIFF STEARNS, Florida,
G.K. BUTTERFIELD, Georgia                 Ranking Member
JOHN BARROW, Georgia                 J. DENNIS HASTERT, Illinois
BARON P. HILL, Indiana               ED WHITFIELD, Kentucky
EDWARD J. MARKEY, Massachusetts      CHARLES W. ``CHIP'' PICKERING, 
RICK BOUCHER, Virginia                   Mississippi
EDOLPHUS TOWNS, New York             VITO FOSSELLA, New York
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
CHARLES A. GONZALEZ, Texas           JOSEPH R. PITTS, Pennsylvania
MIKE ROSS, Arkansas                  MARY BONO, California
DARLENE HOOLEY, Oregon               LEE TERRY, Nebraska
ANTHONY D. WEINER, New York          SUE WILKINS MYRICK, North Carolina
JIM MATHESON, Utah                   MICHAEL C. BURGESS, Texas
CHARLIE MELANCON, Louisiana          MARSHA BLACKBURN, Tennessee
  



















                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
 Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................     3
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................     4
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     6
Hon. Jan Schakowsky, a Representative in Congress from the State 
  of Illinois, opening statement.................................     8
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................     9
Hon. John Barrow, a Representative in Congress from the State of 
  Georgia, opening statement.....................................    11
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................    13
Hon. Edward J. Markey, a Representative in Congress from the 
  State of Massachusetts, opening statement......................    14
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................    15
Hon. Darlene Hooley, a Representative in Congress from the State 
  of Oregon, opening statement...................................    17
Hon. Vito Fossella, a Representative in Congress from the State 
  of New York, submitted statement...............................    18

                               Witnesses

Nancy Nord, Acting Chairman, Consumer Product Safety Commission..    19
    Prepared statement...........................................    21
    Answers to submitted questions...............................   109
Thomas H. Moore, Commissioner, Consumer Product Safety Commission    23
    Prepared statement...........................................    24
    Letter of November 12, 2007 to Messrs. Dingell and Barton....   114
Kathrin Belliveau, director, product safety and regulatory 
  affairs, Hasbro, Incorporated..................................    51
    Prepared statement...........................................    52
Dana Best, M.D., American Academy of Pediatrics..................    54
    Prepared statement...........................................    55
Lane Hallenbeck, vice president, accreditation services, American 
  National Standards Institute...................................    56
    Prepared statement...........................................    58
Alan Korn, director, public policy, and general counsel, Safe 
  Kids Worldwide.................................................    63
    Prepared statement...........................................    66
Joseph McGuire, president, Association of Home Appliance 
  Manufacturers..................................................    75
    Prepared statement...........................................    77
Rachel Weintraub, director, product safety, and senior counsel, 
  Consumer Federation of America.................................    82
    Prepared statement...........................................    84


 COMPREHENSIVE CHILDREN'S PRODUCT SAFETY COMMISSION REFORM LEGISLATION

                              ----------                              


                       TUESDAY, NOVEMBER 6, 2007

              House of Representatives,    
            Subcommittee on Commerce, Trade
                           and Consumer Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:15 a.m., in 
room 2123, Rayburn House Office Building, Hon. Bobby L. Rush 
(chairman) presiding.
    Present: Representatives Schakowsky, Barrow, Markey, 
DeGette, Gonzalez, Ross, Hooley, Matheson, Dingell, Stearns, 
Radnovich, Pitts, Burgess, Blackburn, and Barton.
    Staff present: Consuela Washington, Christian Fjeld, Judith 
Bailey, Andrew Woelfling, Valerie Baron, Brian McCullough 
Shannon Weinberg, Will Carty, and Chad Grant.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. The subcommittee will come to order.
    The Chair recognizes himself for 5 minutes of opening 
statements.
    On May 15 of this year, before the numerous high-profile 
summer recalls of millions of lead-tainted toys, this committee 
held its first hearing on children's safety and the Consumer 
Product Safety Commission. At the conclusion of that May 
hearing, I publicly made a pledge, as chairman of the 
subcommittee of jurisdiction, to reauthorize the beleaguered 
Commission by authorizing more resources and reforming the 
underlying organic statute. I also pledged to do so in a 
bipartisan manner.
    The bill that is the subject of our legislative hearing 
today is the product of that pledge that I made almost 6 months 
ago. H.R. 4040, the Consumer Product Safety Modernization Act 
of 2007, was introduced by Chairman Dingell, Ranking Member 
Barton, Ranking Member Stearns and myself.
     It is a bipartisan piece of legislation that authorizes 
desperately needed resources to the Commission and dramatically 
reforms the Consumer Product Safety Act. After decades of 
neglect, this bill restores the CPSC to its rightful place of 
prominence and gives it the necessary tools to grapple with the 
global marketplace and protect American consumers, particularly 
our children, from dangerous and defective products.
    The bill has two titles. Title 1 specifically addresses 
children's products. It bans lead in toys beyond a trace amount 
and significantly lowers the antiquated lead paint standard. 
Moreover, it requires independent, third-party testing for lead 
in children's products for ages 12 and younger. For products 
geared toward children 6 and under, the bill requires 
independent testing for all mandatory standards.
    In addition, title 1 incorporates the provisions of H.R. 
1699, the Danny Keysar Child Product Safety Notification Act, 
introduced by the vice chair of the subcommittee, Ms. Jan 
Schakowsky of Illinois, and further requires a directed 
rulemaking for mandatory safety standards for 12 specified 
durable nursery products, thus subjecting those products to the 
independent, third-party testing requirement.
    Title 2 of H.R. 4040 overhauls the CPSC itself. In addition 
to authorizing significantly more resources, our bipartisan 
bill restores the agency to its full panel of five 
commissioners within 3 years. Title 2 also accelerates and 
strengthens the CPSC's reporting requirements to the public and 
streamlines its rulemaking process in order to facilitate quick 
regulatory action.
    Title 2 declares a flat prohibition on the sale of recalled 
products and expedites corrective action plans while 
maintaining the Commission as the ultimate authority to veto 
any corporate remedy that is not in the best interest of the 
consumers.
    Moreover, title 2 effectively prohibits the export of 
defective products from our own country and authorizes the 
Commission to share and receive information from foreign 
governments in order to coordinate our global consumer-
protection efforts.
    Lastly, the bipartisan bill also raises the penalty cap in 
order to punish wrongdoers who flout the law, a provision that 
has already passed the full House of Representatives as a 
stand-alone bill.
    I want to emphasize to the members of the subcommittee that 
this bill represents the beginning of the process--I said the 
beginning of the process--and not the end. Today's legislative 
hearing will allow each member of the subcommittee to evaluate 
the bill's strengths as well as areas for improvements.
    Chairman Dingell and I fully intend to move this bill and 
proceed by regular order from subcommittee to full committee to 
the floor, in order to give every member of the committee an 
opportunity to make his or her mark on the final version of the 
legislative product.
    In short, this is a work in progress, and we value the 
input from all members of the committee.
    Having said that, it is my sincere hope that all members 
and all stakeholders' groups will recognize and respect the 
bipartisan nature of the bill. It is obvious that we are not 
all going to agree on every provision that is in or not in this 
piece of legislation. However, I am convinced that if we all 
continue to work together in good faith and in full bipartisan 
cooperation, if both sides strive to compromise and find common 
ground, we will produce a final legislative package of which we 
can all be proud.
    With that, I want to welcome all of our witnesses who have 
agreed to appear before us today. Many of them are familiar 
faces. And I look forward to their testimony and our 
deliberation.
    And I yield back the balance of my time.
    The Chair now recognizes the ranking member of the 
subcommittee, Mr. Stearns, for 5 minutes.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Good morning. And thank you, Mr. Chairman, and 
thank you for your leadership on this, and Mr. Barton of Texas 
and Mr. Dingell.
    This bill represents what we can do together. It is a 
strong piece of legislation, and that is why we are here today. 
I am certain there is, obviously, as you pointed out, some room 
for improvement, but we can do that in the regular legislative 
process, which is what we are trying to do here.
    We want to receive inputs from all people, comments on the 
impact of this legislation on stakeholders and those who will 
have to operate under the new burdens we place on them, 
including the Consumer Product Safety Commission and the 
industry. Although we have had input from their staff while we 
were drafting this legislation, I look forward to their 
comments after seeing the final bill as it is introduced, and 
whether they think the provisions that we sort of brought to 
optimum level, and provided increased language, accurately and 
efficiently reflect and address the safety issues of concern by 
all of us.
    My colleagues, 6 months ago we sat in this hearing room and 
began our discussions of children's product safety. The four 
bills we passed out of this committee have already passed the 
House. While we agreed to address those specific issues, a 
piecemeal approach is really just a Band-Aid.
    Neither Congress and, more importantly, the Commission is 
equipped to legislate and mandate rules on every consumer 
product. This is an impossible and counterproductive exercise. 
With a few exceptions, H.R. 4040 provides all of the components 
necessary to improve product safety, and children's product 
safety in particular, without having to mandate standards on a 
product-by-product basis.
    The bill updates the lead safety standards for paint and 
effectively bans children's products containing lead. Second, 
it receives independent testing to make sure that all 
applicable safety standards are met for children's products. It 
directs the CPSC to either establish an accreditation process 
for labs or recognize an accreditation process that provides 
for lab integrity and standardized testing procedures.
    Given the testing requirements many retail organizations 
and manufacturers have imposed, I have questions how these new 
mandates will affect those efforts, as well as the efficiency 
of such a testing requirement.
    The Commission has performed admirably in response to the 
record number of recalls for fiscal year 2007 with its current 
staff and budget. We are about to ask a lot more of them. 
Therefore, the bill also authorizes a funding boost for CPSC 
and additional money for much-needed laboratory upgrade.
    The bill also preserves the cooperative spirit with which 
the Commission and industry work together. This is important. 
Thousands and thousands of consumer products are launched in 
the market every year. The Commission absolutely could not 
perform its duties without industry's voluntary cooperation. We 
must ensure that companies continue to notify the CPSC in 
advance of even a potential problem, so that we can catch and 
remove dangerous products from the market as quick as possible.
    We must also ensure that the Commission's resources are 
spent where they are most effective, in pursuing its mission of 
product safety, and not in a courtroom.
    As I mentioned a moment ago, this bill is a product of 
excellent bipartisan cooperation, but it also is a product of 
cooperation with industry, consumer stakeholders and the 
Commission itself. And that is important.
    I wanted to commend the commissioners and their staff for 
their help in this process.
    And I believe Chairwoman Nord's statements regarding the 
Senate measure have been misconstrued in the media. I have the 
five-page letter in front of me. And, Mr. Chairman, when you 
look through, in detail, some of the very careful suggestions 
she made--whether it was product certification; talking about 
resources; lead in children's products; information disclosure; 
relying upon standards; State attorney general parens patriae, 
in which somebody goes forward to sue on behalf of 
constituents; all these very abstruse comments; whistleblower 
protection; penalty cap increase; criminal penalties--all of 
this is in her letter. So I call the attention of my colleagues 
to read it in its totality.
    Her involvement in this process is evident by her 
commitment at the Commission and its mission. Through our work 
with her, we know that she does not take this mission lightly--
rather, she takes it very seriously--the matter of ensuring 
both that the agency receives additional resources and that 
those resources will be used where they are most necessary and 
most effective.
    So, Mr. Chairman, I reiterate my opening remark. This is a 
strong bill. And I commend your leadership, and I appreciate 
your willingness to work with this side of the aisle so that we 
can have an opportunity to participate and get involved.
    And I thank you, Mr. Chairman.
    Mr. Rush. The Chair now recognizes the chairman of the full 
committee for 5 minutes of opening statements, Mr. Dingell.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Mr. Chairman, I commend you for your vigorous 
leadership in this matter. I commend you and thank you for this 
hearing. And I note that it is a valuable hearing on a very 
important question, H.R. 4040, the Consumer Product Safety 
Modernization Act.
    This is a bipartisan bill which has been worked out 
carefully by yourself, by the distinguished ranking minority 
member Mr. Stearns, and by our good friend Mr. Barton, the 
ranking member of the full committee, and I. And I want to 
commend you, my dear friends, for your collective efforts in 
writing this important piece of legislation.
    I would point out that this is probably the first major 
review legislatively of the CPSC since the original legislation 
was written by our good friend John Moss of California way back 
and when I had the privilege of working with him to move that 
legislation forward.
    It has been established in the hearing records of this 
subcommittee that the Consumer Product Safety Commission is 
hampered both by lack of authority and by lack of resources to 
address critical and crucial consumer-protection issues faced 
by our citizens. They also face shortage of funds and, very 
frankly, a peculiar situation where they are limited to two 
members by a legislative process that appears to have served 
the Nation poorly.
    I believe that H.R. 4040 will go far to alleviate the 
problems that we see, as well as to strengthen the CPSC to meet 
the responsibilities under its jurisdiction, particularly those 
flowing from globalization of trade and some of the 
irresponsible trading activities of some of our trading 
partners.
    I want to welcome our witnesses today, and I look forward 
to their testimony. With the larger goal of protecting 
consumers and their children in mind, I am interested in the 
views of our witnesses on both the implementation of H.R. 4040 
and how effective its provisions will be in addressing our 
goals for consumer protection.
    I will also be interested in hearing about steps other than 
these needed to see to it that CPSC can carry forward its high 
and important responsibilities. In particular, I hope that our 
witnesses will share their insights in certain areas of H.R. 
4040, such as: one, the adequacy of the reauthorization for 
CPSC and the implications of restoring that agency to a five-
member governing body; two, the advantages of permitting CPSC 
to engage in expedited rulemaking; three, whether the proposed 
lead standard for products will sufficiently protect children; 
four, the feasibility and benefits of mandatory third-party 
testing for certain children's products; and five, any 
suggestions for means by which the Congress might fund the 
reforms put forth by this legislation.
    And I would observe that one of the problems at CPSC, Food 
and Drug, and other consumer-protection organizations have had 
on a continuing basis has been the inadequacy of funding and 
the inadequacy of the ability of the agencies to draw the 
necessary resources to enable them to carry out their high 
statutory responsibilities.
    I remain committed to ensuring that the Committee on Energy 
and Commerce produces a thoughtful, well-intentioned and 
effective bill that will make crucial improvements to the CPSC 
and strengthen its ability to protect our Nation's consumers.
    I want to observe that we have here before us a bipartisan 
bill, which is, I think, very important in terms of ensuring 
enactment of the legislation before us. And I am very hopeful 
that we will be able to continue on the course on which we have 
begun in this regard.
    I want to thank my witnesses, and I want to thank my 
colleagues who have contributed to the development of H.R. 
4040.
    And I want to particularly commend you, Mr. Chairman, as I 
look forward to its expeditious passage in this legislation 
this year under your leadership.
    I thank you, and I yield back the balance of my time.
    Mr. Rush. The Chair thanks the gentleman.
    The Chair now recognizes the gentleman from Texas, Mr. 
Burgess.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. Thank you, Mr. Chairman. I want to thank you 
and Ranking Member Stearns and commend you both for holding the 
hearing today and for the bipartisan nature in the way our 
subcommittee has worked on this legislation that is before us 
today.
    Mr. Chairman, you have heard me say before this committee 
has some of the brightest minds, some of the greatest amount of 
intellectual firepower in the United States Congress, on both 
sides of the dais. When this committee acts in a true 
bipartisan spirit, we are able to write meaningful legislation 
that will have a significant impact and a positive impact on 
the country, not just today but in the decades to come.
    Under the leadership of this committee, we have been able 
to pass effective bipartisan bills, such as the Melanie Stokes 
Postpartum Depression Act, and now hopefully we will have a 
similar result with the legislation before us today.
    Mr. Chairman, I want to be very clear, I have no quarrel 
with the leadership of this committee, either at the 
subcommittee or full committee level. But, unfortunately, the 
leadership of the House of Representatives has been trying to 
run the show in the Energy and Commerce Committee, and that is 
wrong. As we all know, the system works best and we have the 
most effective legislation when bills are allowed to follow the 
regular committee process. And then we all saw what happened on 
the State Children's Health Insurance Program. It was not 
allowed to go through the normal process, and as a consequence, 
the issue of children's health care was turned into a partisan 
game. We focused on a year from now, rather than a near-term, 
mid-term and long-term strategy, and everyone lost. And, most 
tragically, America's children lost in that exchange. And now 
all the queen's horses and all the queen's men are trying to 
put Humpty Dumpty back together again. And, quite frankly, the 
process has become unnecessarily messy.
    Mr. Chairman, I understand that while leadership wanted to 
rush this essential piece of legislation through, we have the 
commitment of you and this committee to hold both a 
subcommittee and full committee markup. And I thank you for 
that. I also understand that you are welcoming members' 
amendments, and I thank you for your commitment to this process 
and making this good bill an even better bill. I am an original 
cosponsor of the bill, and I look forward to working with you 
on some of the amendments affecting recalls and nonprofits.
    I would also like to thank Chairwoman Nord for coming here 
today. I know it is not easy.
    Ms. Nord, you and your staff have provided crucial 
technical assistance and constructive criticism to this 
legislation, and I thank you for your honesty. Because you are 
not afraid to speak your mind about your agency's needs, we 
have been able to craft legislation that will give the 
commission tools to keep Americans safe from unreasonable 
dangers in consumer products. Unlike some Members in this 
chamber and Members of the other body, I appreciate and I 
welcome your honesty.
    I thought the Speaker's press conference of last Thursday 
was a disgrace to the body and an embarrassment to the 
legislative process. I often feel that we have an imperial 
speakership that likes to govern by edict. And I thank you for 
standing strong in the eye of the storm.
    Unfortunately, because you didn't provide the other body 
the answers that they wanted, they subsequently attacked you. 
And, Ms. Nord, for the record, I have never doubted your 
commitment to the safety and welfare of America's families. And 
I am thankful you are doing everything you can to seek true 
reform for your agency. Thank you for your service. Thank you 
for your dedication, and thank you for your commitment to our 
country.
    Tony Blair once said, the art of leadership is sometimes 
saying no; it is too easy to say yes. Ms. Nord, thank you for 
being a true leader and for saying no to legislation that you 
knew would ultimately be harmful to the country.
    Mr. Chairman, I want to simply add that, during the process 
of working on this bill and, in fact, working on a bill through 
the Oversight and Investigations Subcommittee, I had an 
opportunity to introduce stand-alone legislation that would 
have allowed the Food and Drug Administration the ability to 
stop the importation of a food from a country if the country 
were shown to be a serial violator of our country's standards.
    And we all know the country we are talking about. We are 
talking about the People's Republic of China. It doesn't matter 
whether it is food, it doesn't matter whether it is active 
ingredients in pharmaceuticals or lead in toys, it all seems to 
come from the same place. And I think the Consumer Product 
Safety Commission needs that same type of stop button on the 
conveyor belt.
    We heard from the CEO of a major toy company that they are 
continuing to accumulate lead-based toys in their warehouses 
because we don't have a stop button on the conveyor belt, 
because the orders are in, the product is being shipped, the 
recalls are up there, so they can't sell it--I hope. I hope 
they can't sell it on eBay; I hope they can't sell it to 
bargain houses. And perhaps we ought to investigate that some, 
Mr. Chairman.
    But nevertheless, Americans would be better served if we 
could just simply punch that stop button, halt the conveyor 
belt for 30, 60, 90 days, whatever we decide is fair, comply 
with all of the World Trade Organization restrictions that we 
have to comply with. But let's stop the flow of contaminated 
products into this country immediately and then get back to 
sorting out where the problems are.
    Mr. Chairman, I am going to submit my full statement for 
the record. I thank you for your indulgence, and I will yield 
back the balance of my time.
    Mr. Rush. The Chair now recognizes the gentlelady from 
Illinois, Ms. Schakowsky.

 OPENING STATEMENT OF HON. JAN SCHAKOWSKY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman.
    First, I would like to say to the gentleman from Texas, it 
is one thing when we all work together to resolve a problem of 
the now millions and millions of products that have been 
recalled and been found dangerous to our children in the face 
of their death and injury. It is another thing when the 
chairman of the Commission designated to take care of those 
responds to legislation by saying that it would be too 
cumbersome to actually adopt the reforms that were suggested, 
that whistleblowers--it would provide too much problem for the 
agency to take care of, that the penalties would somehow 
alienate the industry. And the ones who really came to the 
defense of the chairman were the National Association of 
Manufacturers, Juvenile Product Manufacturers Association, 
National Retail Federation--the very people who have been 
selling or making these products that have been hurting our 
children.
    And so, I think that the Speaker of the House took a 
responsible position in saying what she did, that if we are 
going to protect our children, then we need to have the kind of 
leadership that will embrace the kind of reforms that we need 
and not raise excuses for not accepting them.
    I want to thank you, Mr. Chairman and Ranking Member 
Stearns, for your leadership on this issue and for holding this 
hearing.
    About 6 months ago, the subcommittee began a series of 
hearings on how to protect our children from the recent scourge 
of tainted and imported toys and how to address other 
shortcomings and issues in the consumer product safety system. 
Today we have begun to draft what I hope will be a broad and 
far-reaching and comprehensive reauthorization of the Consumer 
Product Safety Act, perhaps our Nation's most important piece 
of consumer-protection legislation.
    Yesterday, the White House told us that the President said 
the American people expect their Government to work tirelessly 
to make sure consumer products are safe. I couldn't agree more. 
Families across the country should not have to worry that the 
toys that their children play with are poisoning them or that 
their cribs are killing their babies in the middle of the night 
due to a design flaw.
    Most Americans assume that the Government is already doing 
that work. Seventy five percent of people believe that the 
Government conducts premarket testing on children's products, 
for example. Just like they trust the Government when a package 
of eggs or chicken is marked ``USDA inspected and approved,'' 
Americans should be able to trust the Government to do more 
than outline voluntary standards for an industry that profits 
on children, those who are most vulnerable.
    I was pleased when the chairman announced that H.R. 4040, 
the Consumer Product Safety Modernization Act, would be drafted 
in a bipartisan fashion, because there is nothing partisan 
about children's safety. I believe that the bill includes a 
number of extremely important provisions and that it is time 
that we do this. I was glad to see that H.R. 4040 contains an 
improved lead prohibition as well as a mandatory third-party 
testing and tracking labels for children's products. I was 
happy that it includes the Danny Keysar Product Safety 
Notification Act, which I had sponsored, requiring 
manufacturers to provide consumers with registration cards to 
assist in product recalls.
    I am glad that 4040 contains similar language to that which 
I wrote in H.R. 1698, requiring a broad range of infant and 
toddler durable products to be tested and certified according 
to specific safety standards before they can be put on the 
market. Right now, only full- and half-sized cribs, rattles and 
bottles are the only infant and toddler products that require 
safety standards.
    By requiring the CPSC to establish mandatory standards and 
requiring that testing and certification be performed by an 
independent third party, this bill goes a long way toward 
assuring parents that the products that their infants use are, 
indeed, safe.
    I hope we will act to strengthen this provision by 
including the Infant and Toddler Product Review Panel that H.R. 
1698 would have created to advise the Commission regarding 
existing guidelines and promulgating new standards. And it 
would include representatives of the manufacturers, consumers 
groups, independent child product engineers and experts and the 
Consumer Product Safety Commission engineers.
    I hope we can look at other improvements. We have a long 
way to go to strengthen the Consumer Product Safety Act section 
6(b) provisions, which still leave far too much power in the 
hands of industry to regulate itself. It is essential that we 
also address the preemption issue. The health and safety 
standards that the CPSC develop should strengthen those States 
with weaker laws but should not weaken those with stronger 
laws. And finally, I want to make sure we include effective 
whistleblower provisions.
    Thank you.
    Mr. Rush. The Chair recognizes the ranking member of the 
full committee, Mr. Barton of Texas.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Thank you, Chairman Rush. I am going to put my 
formal statement in the record, but I am going to speak from 
the heart and from personal experience about why we are here 
today.
    I think everybody on the subcommittee knows that I have a 
2-year-old son, Jack Kevin Barton. And there are millions of 
little Jack Kevin Bartons in the United States, and each of 
them is precious to their parents and to their family, just 
like Jack is precious to me and my family. And these little 
tikes are so inquisitive and they are so adventuresome that you 
really have to be smart to keep them safe.
    I will give you an example. It is not a toy, but it is the 
same principle. Last weekend, my wife had to go run some 
errands, and so, while she wasn't sure I was capable of taking 
care of Jack by myself, I was given that opportunity, since we 
couldn't get a babysitter. And he brought me a bag of microwave 
popcorn that had he gotten out of the cupboard. And I was 
watching a football game, and so I said, ``No, Jack, your 
mother doesn't want to you to have popcorn. Put it back up.'' 
and he toddles off.
    And I am watching the game, and all of a sudden I hear this 
``beep, beep, beep'' coming from the kitchen. He had taken the 
popcorn back into the kitchen, got a chair, pulled the chair 
over to the built-in microwave, which is about 6 feet above the 
floor, climbed up on the chair, opened the microwave, put the 
popcorn in in the cellophane bag, figured out how to hit the 
popcorn button, and pushed the darn button. Now, it was in the 
cellophane, and the cellophane started popping and burning. So 
I rushed in, and of course he was just proud as punch that he 
had figured out how to do microwave popcorn, even though he 
didn't know he was supposed to undo the cellophane.
    That is what we are up against, is 20 million or 30 million 
Jack Kevin Bartons. If they can get a hold of it, they are 
going to try to figure out. Now, he has also brought me a 
child-proof medicine bottle that he has taken the cap off in 
the last 2 weeks, and he was pretty proud that he was able to 
do that.
    So, whatever we can do to reauthorize the Consumer Product 
Safety Commission, which hasn't been done since 1990--and I 
want to thank Mr. Rush and Mr. Dingell for making that a 
priority, getting the five-member commission, getting them a 
new laboratory, setting some new standards for lead, all the 
things that Congresswoman Schakowsky talked about, that is a 
good thing. That is a good thing, not a bad thing, because we 
are protecting youngsters who don't know enough to protect 
themselves.
    Now, we can't make it a perfect world, and you have to have 
parental supervision and we have to have some common sense. But 
this bill is a good start. And it is good that we are doing it 
in a bipartisan fashion. It is good that we are doing it by 
having a legislative hearing at the subcommittee. It is good 
that we are going to have a subcommittee markup. It is good 
that we are going to have are a full committee markup. By the 
time this bill gets to the floor, it will be a better bill. It 
is good that we are having all the stakeholders here on the 
second panel to give us their comments.
    The President of the United States is going to sign 
something very similar to this bill. And he is going to do it 
because we are working together. We are not bickering; we are 
not pointing fingers at each other. And we are all doing it 
because each and every one of us has either a son or a daughter 
just like Jack Kevin, has a grandson, a granddaughter, a niece, 
a nephew, and we care about them.
    And this is one of the things that this Congress can take 
real pride in when it is done. And I am proud to be an original 
cosponsor, and I am proud to be working with every member of 
this subcommittee and, ultimately, the full committee to do 
this. This is what Congress is all about.
    And so, Mr. Chairman, thank you for your leadership. I 
thank Mr. Dingell and Mr. Stearns. And I look forward to 
hearing our two commissioners and then our stakeholders, and 
then we will decide what we need to do to improve the bill.
    Mr. Rush. The Chair thanks the gentleman.

  OPENING STATEMENT OF HON. JOHN BARROW, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    The Chair now recognizes the gentleman from Georgia, Mr. 
Barrow.
    Mr. Barrow. I thank the Chair and the ranking member for 
you all's relentless pursuit of this issue and your willingness 
to put behind us the years that the locust have eaten and to 
get down to trying to address this problem.
    Lincoln said that, ``As our case is new, we have to think 
anew.'' and I think we ought to consider a little bit just how 
much our case has changed since the Consumer Product Safety 
Commission was launched way back in 1973.
    Back then, I guess it was probably safe to say that our toy 
market was a domestic market. We consumed the toys that we 
made. But against that backdrop of putting the CPSC in the 
picture, there was a whole regime of compliance in this country 
that we kind of took for granted. We didn't think of it much, 
because it worked silently through the invisible hand of self-
interest.
    We had a regime of compliance in which people could 
actually make manufacturers pay for the consequences of the 
harm that they do. Granted, that was a reactive approach; the 
civil justice system making you pay the damages that you cause 
is a reactive approach, not a proactive approach. But if there 
is a regime of compliance in which folks can make manufacturers 
compensate folks for real harm when they commit real harm, you 
at least are making sure they are not subsidizing people who 
want to harm people by letting them throw out the consequences 
of their harm on the consumer.
    Now, we had that in this country. And when the CPSC was 
added to the picture, it was a new cop on the beat. It did not 
supplant the civil justice system, it supplemented the civil 
justice system. And the country largely incorporated a culture 
of compliance, which we had incorporated in the cost of doing 
business in this country.
    Now, fast-forward 20-, 30-some-odd years. We are getting 
most of our toys in this country from China; 80 percent of our 
toys are coming from China. And last month alone, we have 
recalled more products that were manufactured in that country 
than we have had in any calendar year before.
    We have a whole new case now where most of our toys are 
coming from countries where they don't have a culture of 
compliance. It might have been hard in the pre-1973 days to go 
all the way from Georgia to Michigan to sue somebody for the 
consequences of what they did. But in Georgia, we had the reach 
of long-arm statutes, and we could hold folks accountable for 
the consequences of their harm where that harm occurred. We 
can't do that today. It is virtually impossible to hold a 
manufacturer in a foreign country accountable for the 
consequences of the harm that they do in our marketplace as a 
result of the stuff, the pollution they put into the stream of 
commerce.
    So it seems to me what we have to do is we have to figure 
out some way to outsource a regime and a culture of compliance, 
just as we have outsourced all the jobs that make the toys that 
we consume in this country.
    If we can't figure out how to do that, nothing we are going 
to be able to do with the CPSC is going to work. Because, right 
now, that is virtually the only cop we have on the beat, when 
all of the bad guys are now overseas, abroad and beyond the 
reach of the civil justice system, as a check on the impulse to 
cut corners and to hurt people for profit.
    So we have to figure out some way of exporting a culture of 
compliance into the places so that we can interdict this stuff 
and stop polluting the stream of commerce at the source of the 
pollution. We have to have a point-source pollution mentality 
about this and go at the source of the pollution, because we 
can't deal with a flood of products when they arrive on our 
shores or when they have gotten into our marketplace and try to 
recall. The costs of doing that are just too high.
    We no longer have the other systems to fall back on. We 
have to realize that the CPSC, which was never designed to be 
the only cop on the beat when we were making our own stuff, is 
now the only cop on the beat with respect to all the stuff we 
consume, because we ain't making it anymore. We are importing 
it from someplace else. We have to try to figure out how to 
export that culture. I don't know how to do it.
    I know this, though: The issues we need to face are, who 
ought to pay for it? And the American consumers should not have 
to pay for making folks in other countries comply with the law. 
We should figure out a way of making them comply with the law. 
I am all for the people who are causing the problem bearing the 
burden of cleaning up the problem. And the American consumer 
ain't the problem, and the American industry and the American 
manufacturers ain't the problem, because that is not where the 
stuff is coming from anymore.
    Maybe we ought to take a cue from the USDA, which takes a 
proactive approach toward meat inspection that we don't have 
from the FDA when it comes to importing crops that are imported 
in this country. Go to the foreign country, go to the place 
where it is made, and inspect what they are doing there, before 
it gets offloaded from the plant and fed into the stream of 
commerce.
    Maybe we need to take a cue from financial responsibility 
laws, where we had to post a bond or some source of insurance 
money as a condition for engaging in certain businesses, so 
when we extend the reach of the civil justice system in this 
country to make sure that the people who are getting into the 
commerce in this country are going to be financially 
responsible for what they do in a way that is reasonable and 
accessible to the victims of injury here in this country.
    We need to think anew. Our case is new. We have a cop that 
we have added to the beat that was never intended to be the 
only cop on the beat. And it is the only cop now, and the 
problem has gotten much bigger for that cop to do. We have to 
figure out how to export the culture of compliance we take for 
granted in this country.
    With that, Mr. Chairman, I yield back the few seconds of my 
time.
    Mr. Rush. The Chair thanks the gentleman.
    The Chair now recognizes the gentlelady from Tennessee, 
Mrs. Blackburn.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman. I thank you and 
the committee staff for the excellent work on this bill.
     You know, having worked in retail and marketing and with 
consumer products, and sitting on this side of the aisle, I 
have a tendency to kind of take Reagan's view about the nine 
most feared words in the Government speak, ``I'm from the 
Government, and I'm here to help.'' but as we look at consumer 
products, we do know that that is supposed to be the job of 
this Commission.
    And we have always been very slow to move forward. And, Mr. 
Chairman, I thank you for the way the subcommittee has worked 
and has looked into the shortcomings of consumer health and 
safety laws. And this has been illuminating for many of us.
    And I appreciate the efforts that have gone into looking at 
the Consumer Product Safety Council, looking at the testing 
problems that exist, the transition in the flow of goods from 
manufacturer to market and how they are assessed, and the 
manner--and in the timely manner, I will say--in which they are 
assessed; looking at the bureaucracy that exists within your 
walls and how that needs to be reformed and reshaped; 
addressing jurisdiction in the scope of your work and how that 
plays forward; communication or lack thereof; practices and 
best, or lack thereof, practices in how we work with you.
    And, Chairman Nord, we thank you and your team for being 
willing to talk with us, as we try to address these problems 
that our constituents and many of our constituent companies 
bring to us. So we thank you for your willingness to work on 
that.
    And we do know that the legislation under review today is a 
product of an effort to shine the light on what has caused some 
misgivings and some questions in the marketplace. The CPSC, as 
we all know in the private sector, are partners. They are, 
indeed, partners and should continue to be partners in ensuring 
a safe and healthy marketplace for all consumer goods. That is 
a big part of your scope of work.
    And the incidents that we have reviewed by the subcommittee 
over the past 10 months have truly shown us that there is a 
breakdown in this system. And, as we know, it amounts to being 
basically a breach of the public trust, not only for consumers 
but also for retailers who are accepting those products into 
their flow of goods into the marketplace.
    Now, our bill--and I understand the number on it is H.R. 
4040. I looked at the number, and I thought, Mr. Chairman, we 
maybe should have had it be H.R. 2020, if that one is 
available, because we hope it will sharpen the vision and will 
give a clearer view of what is happening in the stream of 
moving forward with items in the marketplace.
    The legislation mandates third-party testing and 
certification of all products intended for children aged 6 or 
under. I think it is critical. Leading American retailers and 
manufacturers are already employing this practice in the 
international market, and it is high time to institutionalize 
this now voluntary standard.
    The legislation also authorized $20 million between fiscal 
year 2009 and 2011 for the renovation of the CPSC's beleaguered 
test lab. And I have not personally visited the facility. 
However, from the witness testimony that we have had from 
public interest groups and also from Chairman Nord, it is 
suggested the labs cannot meet the needs of the American 
consumers in the current state. So it is time to reinvest, 
update and to add new technologies and protocols that will aid 
the professionals that are working on this.
    We thank the Commission.
    Mr. Chairman, I thank you, the subcommittee staff, Ranking 
Member Stearns and the staff.
    And I yield the balance of my time.
    Mr. Rush. The Chair recognizes the gentleman from 
Massachusetts, Mr. Markey.

OPENING STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. Markey. Thank you, Mr. Chairman, very much. Thank you 
for having this hearing.
    The Consumer Product Safety Commission is an agency in 
crisis, sptarved of resources and slow to respond to a growing 
tsunami of toxic toys and other products that continue to put 
consumers at risk.
    CPSC used to stand for Consumer Product Safety Commission. 
Today it stands for Can't Protect the Safety of Children 
Commission. Eighty percent of all toys sold in the United 
States are imported from China. But even as the amount of 
imported and recalled toys has skyrocketed, and even as parents 
scrutinize every gift given by doting grandparents to make sure 
that it is not on the recall list, the reality is that being on 
that list only means that the CPSC, with its single inspector 
testing toys for compliance with outdated standards, got lucky 
and found the problem before more children were affected.
    The reality is that the CPSC has lost 15 percent of its 
workforce since 2004 and has only half the employees it had 30 
years ago. As the holidays approach, parents should not have to 
play toy box roulette, unsure of whether the toys they choose 
could harm their children. This must change. We must upgrade 
our safety standards to reflect scientific reality, and we must 
upgrade the CPSC to reflect the realities of globalization.
    I commend the chairman and the ranking member of the 
subcommittee for taking up legislation to respond to the 
current mess over at the Consumer Product Safety Commission. 
And I look forward to working with them and with Mr. Dingell 
and Mr. Barton and the other members of the committee to 
further refine the legislation as we move forward toward 
markup.
    Specifically, we need to close the roller-coaster loophole, 
which currently prevents the CPSC from investigating accidents 
at so-called fixed-site amusement parks. Some of these thrill 
rides hurl children at speeds approaching 100 miles per hour. 
But when accidents occur, the CPSC lacks the authority to even 
conduct an investigation or compel the sharing of information 
about the accident with operators of the same ride in other 
States. It is time to close this loophole. Children are at risk 
all across the country when their parents take them to a fixed-
site amusement park, and the CPSC is actually prohibited from 
investigating. Children should not be put at that risk.
    We need to improve the public's awareness of potential 
hazards. Currently, when the CPSC wants to warn the public 
about a hazard, it actually has to negotiate with the companies 
in order to do so. Companies even have the right to sue the 
CPSC to prevent the disclosures from being made. This is 
outrageous, and I intend to make an amendment in order to make 
sure that we change that once and for all.
    I believe that the ban on lead in children's products in 
this legislation needs to be strengthened and accelerated so 
that it conforms with the 90-parts-per-million standard already 
adopted by the European Union. I also think that instead of the 
CPSC's current practice of only looking at the amount of 
accessible lead on the surface of a toy, legislation should 
apply the standard to the entire product, because we all know 
that children put things in their mouths and sometimes they 
swallow them.
    And we need to expand the use of screening technologies 
that can identify the highest-risk children's products at ports 
of entry to the U.S. for further screening. If we could screen 
these toys as they come into the country, we should be able to 
find Thomas the Toxic Train and other dangerous toys before 
they show up on store shelves and under the Christmas tree.
    And I also believe that this legislation should include 
whistleblower protections for CPSC and private-sector employees 
who are retaliated against for warning Americans about 
dangerous products that can affect the safety and health of 
American families.
    I look forward to working with you, Mr. Chairman, and the 
other members of the committee toward the goal of putting 
together, once and for all, a comprehensive approach to how the 
Consumer Product Safety Commission works out there and actually 
protecting the American people.
    I yield back the balance of my time.
    Mr. Rush. The Chair recognizes the gentlelady from 
Colorado, Ms. DeGette.

 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you, Mr. Chairman.
    Parents are under a tremendous amount of stress in America 
today, and who can blame them? One day they hear on television 
that the spinach that they bought yesterday at the grocery 
store is contaminated with E. coli. The next day they read in 
the newspaper that the Thomas the Tank Engine toy they bought 
their young son is contaminated with excessive amounts of lead. 
It is enough to make any parent terrified that they could be 
harming their child simply by putting food on the table or toys 
in the yard.
    Today's hearing is before the Subcommittee on Consumer 
Protection, but, frankly, I don't think consumers are feeling 
very protected today. They are feeling particularly unprotected 
when it comes to the safety of children's products, and for 
good reason.
    So far this year, we have had over 150 recall notices 
issued for children's products and toys. That is up from about 
90 during all of last year, and 60 going back to all of 2002. 
Almost half the products recalled this year were due to 
excessive lead, a dangerous contaminant for children.
    Some, like current Consumer Product Safety Commission 
Chairman Nord, have argued that the high recall number shows 
the system is working. I disagree. First, a very small 
percentage of toys are actually returned once they are 
recalled. Once these products get into people's homes, they are 
hard to remove.
    And here is a good example. I have these Thomas the Tank 
Engine toys from my chief of staff's home. My chief of staff is 
incredibly diligent, and she works on these issues, so she 
should know. These were recalled in June, and she found them 
last night in her son's bedroom. They have been sitting there 
since they were recalled.
    So, while recalls are important to get dangerous products 
out of the hands of children, they are not the sole answer to 
the crisis of deadly toys. We need to do a better job of 
testing beforehand, so that the toys that cause harm are never 
sold to the public to begin with. That is going to take a 
combined effort from industry and government.
    Unfortunately, I don't think that the agency in charge of 
protecting consumers, the Consumer Product Safety Commission, 
has the resources and the staffing it needs to do the kind of 
job that the American people expect and, frankly, have thought, 
until now, it was doing.
    Despite the fact that our economy has grown tremendously 
since the CPSC was founded in the early 1970's, it has less 
than half the employees now than it did in 1974 when it was 
founded, only about 400. According to CPSC Commissioner Thomas 
Moore, it only has 90 field investigators, about 15 of whom are 
responsible for guarding against the millions of products that 
come in through dozens of ports of entry. And as we have heard 
from other members, the market has shifted, so now 83 percent 
of our toys are coming in from China.
    Inexplicably, President Bush's budget would have caused the 
CPSC to have cut 19 more staff. That is the wrong approach.
    The CPSC is also hamstrung by statutory constraints. Just a 
few examples: There is no bright-line limit on lead levels in 
children's products. The CPSC is limited to imposing fines of 
$1.83 million, and the CPSC has to use a cumbersome 
administrative process or, in some situations, go to Federal 
court to order a mandatory recall.
    That is why, back in September, Congresswoman Rosa DeLauro 
and I introduced legislation, H.R. 3691, the Safety Assurance 
for Every Consumer Product Act, to address these and other 
problems as well as make additional statutory improvements. 
Among other things, our bill would increase the budget of the 
CPSC by 88 percent over this year's level by fiscal year 2012; 
impose an absolute standard for lead in children's products of 
40 parts per million; eliminate the cap on civil penalties; 
strengthen the CPSC's mandatory recall powers by eliminating 
the need for a hearing before a recall is ordered; require 
independent, third-party testing to make sure products meet 
safety standards; and prevent the CPSC from issuing rules which 
preempt State law.
    Mr. Chairman, I was very happy to see that the bill you 
introduced last week, H.R. 4040, contains many similar 
provisions. I am an original cosponsor of H.R. 4040, and I 
think it goes a long way.
    I look forward to this hearing. I also look forward, Mr. 
Chairman, to working with you and your staff to see if some of 
the provisions of Congresswoman DeLauro's and my bill can be 
incorporated in this legislation as we move forward.
    I just want to talk briefly--well, maybe I won't. I will 
yield back. I will ask it in the questions. I am very concerned 
about the CPSC travel, and I know that the manager's amendment 
we are going to do to the bill will address that. It is more 
than an appearance of impropriety, Mr. Chairman.
    And I thank you for your indulgence.
    Mr. Rush. The Chair now recognizes the gentleman from 
Texas, Mr. Gonzalez.
    Mr. Gonzalez. Waive an opening, Mr. Chairman.
    Mr. Rush. The Chair thanks the gentleman.
    The Chair now recognizes the gentlelady from Oregon, Ms. 
Hooley.

 OPENING STATEMENT OF HON. DARLENE HOOLEY, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Ms. Hooley. Thank you for holding this important hearing.
    And thank you, Chairman Nord and Commissioner Moore, for 
being here today and providing your testimony.
    I commend the enormous amount of work that has gone into 
crafting H.R. 4040. And although I think there are some pieces 
of the bills that can be improved, this comprehensive and 
bipartisan legislation is a huge step in the right direction.
    I am also pleased that H.R. 4040 includes very similar 
language to a bill I introduced requiring that children's 
products are certified safe. My legislation called for toys 
intended for children 5 and under be certified, and I commend 
the subcommittee for raising that age to 6.
    At this critical time before the holiday gift-giving 
season, it is vital that Americans can trust and know that 
products they purchase for children are safe. There have been 
over 21 million children's products recalled this year. I wish 
I could say that things were getting better, less dangerous 
toys were reaching our shelves, and that the CPSC was achieving 
its mission. Unfortunately, I cannot. Dangerous toys are still 
reaching our shelves, and the CPSC is still unequipped to 
handle its enormous task.
    Hopefully, this hearing will serve as an opportunity for 
Chairman Nord to more emphatically convey what is clear to me: 
The CPSC is an agency in distress and not meeting its mission. 
I believe it is due to several things, one of which is too few 
resources and not enough regulatory authority.
    Chairman Nord, as head of the CPSC, should be the one who 
is in the best position to see the shortcomings with her 
distressed agency, but unfortunately this has not been the 
case. In a Senate hearing, Chairman Nord was pressed on what 
resources the CPSC needed to function properly, and she was 
noncommittal, saying the job could be done by the President's 
budget. I flatly disagree.
    According to internal records obtained by The Washington 
Post, Chairman Nord, as well as her predecessor, traveled at 
the expense of the toy, appliance and children's furniture 
industries and others that her agency is charged with 
regulating. This includes trips sponsored by lobbying groups 
and lawyers representing the makers of products linked to 
consumer hazards. Chairman Nord has pointed out that this falls 
within the Federal guidelines. These guidelines that she cites 
also state that agencies must avoid the appearance of 
impropriety. In my mind, travel paid by the very companies an 
agency is charged with regulating does not meet this standard.
    A great deal needs to be done to make sure that what goes 
on our store shelves are safe and that Americans can trust that 
the toys they bring home for their children to play with are 
safe. I applaud this committee's work on this issue and look 
forward to a markup as soon as possible on this important bill.
    And I yield back the remainder of my time.
    Mr. Rush. The Chair thanks the gentlelady.
    Any other statements for the record will be accepted at 
this time.
    [The prepared statement of Mr. Fossella follows:]

Prepared Statement of Hon. Vito Fossella, a Representative in Congress 
                       from the State of New York

     Today's hearing provides an important opportunity for 
Congress to examine the health-related impacts on children who 
are exposed to excessive levels of lead as well as recently 
introduced bipartisan legislation from the chairman and ranking 
members of both the full and subcommittee. As we have all read 
in various news publications over the last several months, 
children's products, typically toys and jewelry imported from 
China, have contained unsafe levels of lead or lead paint, 
putting our children at great risk.
     I would like to thank Chairman Rush and Ranking Member 
Stearns for the opportunity to speak at this hearing this 
morning. I would also like to thank each of the panelists who 
have agreed to testify before the subcommittee this morning. I 
believe the safety of our children is one the highest 
priorities Congress must adhere to. I personally have three 
young children and being a parent, I want to know that the toys 
my children are playing with and the jewelry my 4-year old 
daughter is wearing is going to be safe and not contain unsafe 
levels of lead. It is my firm belief that parents should feel 
safe when purchasing toys and jewelry for their children, yet I 
come to this hearing today wondering if they can be assured of 
just that. I ask each of you this one question today: How can 
we assure parents that the products they are purchasing for 
their children are safe?
     In testimony before this subcommittee in early June, the 
acting chairman of the Consumer Product Safety Commission 
detailed her recent meeting with Chinese officials to discuss 
the safety of consumer products imported from their country. 
Recommendations were made regarding initiatives the Chinese 
could take independently and in conjunction with the CPSC. 
However, with the alarmingly high rate of recalls of such 
products from China, coupled with the recent headlines, the 
public has a right to know in greater detail the nature and 
depth of the problem as well as potential risks of other 
consumer products imported from China.
     The recent headlines about the safety of Chinese 
manufactured products hit home in Staten Island in early June 
when two of my constituents were hospitalized after using 
contaminated toothpaste made in China. The toothpaste, 
manufactured under a counterfeit Colgate label, contained a 
harmful chemical commonly used in antifreeze. This instance, 
coupled with the toy recall, raises continued red flags as to 
the safety of the products we are importing from our second 
largest trading partner. These two instances highlight a 
possible pattern and warrant a full and comprehensive 
examination by the U.S. Congress.
     There have been several pieces of legislation introduced 
in both the House and Senate. I am happy the recent House 
introduced version that we will be discussing in great detail 
today is bipartisan. I remain hopeful that the testimony and 
questions today will provide us with additional opportunities 
and ideas on how to potentially improve this legislation even 
further.
     While the CPSC may be a small agency, its size should not 
diminish how important their role is in protecting the American 
people. The staff at the CPSC are dedicated to providing this 
service in the most efficient and effective approach. If an 
opportunity to improve upon their effectiveness is available, 
Congress should pursue these opportunities with an open mind 
and with one main goal in mind: protecting the American people 
in the best possible manner.
     I look forward to working with this committee, the CPSC 
and manufacturers from across the spectrum to pursue the kind 
of reforms that will direct the focus on what matters most and 
that is the safety of our children. Again, I would like to 
thank the Chairman and Ranking Member for this opportunity 
today and I look forward to hearing the testimony of our 
panelists.
                              ----------                              

    Mr. Rush. Now the Chair and the committee welcomes panel 
No. 1.
    Panel No. 1 is composed of the Honorable Nancy A. Nord, the 
Acting Chairman of the Consumer Product Safety Commission. 
Chairman Nord was appointed as a Republican member to the 
Consumer Product Safety Commission in 2005 to a term that 
expires in 2012. She has served as CPSC's Acting Chairman since 
July 2006.
    The committee also welcomes the Honorable Thomas H. Moore, 
the Commissioner of the Consumer Product Safety Commission. 
Commissioner Moore began service on the CPSC in 1995 as a 
Democratic appointee. He is currently serving his third term, 
which expires in 2010.
    The Chair welcomes our witnesses today.
    And you are recognized, beginning with Chairman Nord, for 5 
minutes for opening statements.

 STATEMENT OF NANCY A. NORD, ACTING CHAIRMAN, CONSUMER PRODUCT 
                       SAFETY COMMISSION

    Ms. Nord. Thank you, Mr. Chairman, Congressman Stearns and 
members of the subcommittee.
    Mr. Chairman, you have requested that I appear here today 
to give you my views on H.R. 4040, and I want to be very clear, 
and I will only state my views, because I certainly do not want 
to get in trouble with you.
    You and your staff, as well as Congressman Stearns, 
Chairman Dingell, Ranking Member Barton and 45 other co-
sponsors of the bill, have worked hard to draft and introduce a 
thoughtful bill that takes into account both the enforcement 
needs of the agency and the realities of the modern consumer 
marketplace. On balance, I believe the bill will be a win for 
consumers and should give us the additional enforcement tools 
we need to expand our ability to keep unsafe products out of 
the stream of commerce.
    With respect to the specifics of the bill, I very much 
appreciate the fact that H.R. 4040 has adopted in whole or in 
large measure several of my legislative recommendations from 
this past July when I submitted to you my PRISM proposal. Of 
particular importance to enhancing the mission of the agency 
are an overdue prohibition on the sale of recalled products----
    Mr. Rush. Would you pull the mike closer to you, please?
    Ms. Nord. Of course--an increase in our statutory penalty 
cap, asset forfeiture as a criminal enforcement option, among 
other things.
    There are other provisions in the bill, notably the section 
dealing with lead and children's products, and I understand 
that these may be evolving. And I have directed the CPSC staff 
to continue to provide technical expertise and input on that 
and any other section of the bill that you would like.
    But, as I said, this bill represents a significant, 
positive step forward for consumer product safety; and I 
appreciate all the leaders in this committee who have brought 
it forward on a bipartisan basis.
    Mr. Chairman, with my remaining time and with your 
indulgence, I would like to clear the air about a few things 
that have been the focus of a good deal of media attention of 
late.
    First, with respect to toys, the number of toy recalls has 
not in fact skyrocketed, as I have seen reported in the media. 
For the fiscal year ending September 30, we had 61 recalls of 
toys, 19 of which were for violations of the statutory ban on 
lead paint. The year before, we had 40 recalls, three of which 
were for violations of the lead paint ban. The increase in lead 
recalls has been driven by this agency insisting that the laws 
be enforced. We all take toy safety issues very seriously, 
especially with respect to lead, and toy companies at our 
insistence have searched their existing inventories for even 
the slightest evidence of a violation. But I believe that we 
are starting to turn the corner on the lead paint issue. Does 
that mean we will never find a violation again? Probably not. 
But our enforcement activities and the media attention to this 
issue have made the number of violations that we expect to see 
far less likely.
    Second, let me please lay to rest once and for all the myth 
that has been perpetuated by the media that we have only one 
toy tester. We do not. In fact, we have a number of staff in 
our laboratory who are charged as a primary or significant part 
of their responsibilities with the testing of toys for small 
parts, for lead and for the other elements of our toy 
standards. We have at least another 60 field personnel who as a 
part of their routine responsibilities test toys for 
violations.
    And, finally, because Representative DeGette and 
Representative Hooley have raised the issue of travel, I do 
want to address it.
    I have taken three trips that have been called into 
question by the Washington Post. Two are to toy industry 
conferences where I and CPSC staff educated toy manufacturers 
and importers about our various toy standards in an effort to 
increase compliance with those standards. Our direct travel 
expenses were paid by the Toy Industry Association. This 
practice, while it has not been common for me, is a legal and 
common practice throughout the Federal Government and one that 
has been in place at the CPSC for the last 20 years, long 
before I came to the Commission.
    I, my colleague, CPSC staff members, including those on 
Chairman Brown's staff, have done such travel for two simple 
reasons, first, to further the mission of the CPSC to reduce 
the likelihood that unsafe products will enter the marketplace. 
The second reason, quite frankly, is that, faced by limited 
enforcement dollars, Mr. Chairman, I would much rather spend 
$900 on paying for more testing of toys and more resources at 
our laboratory than I would on airfare and a hotel to go to 
present our toy standards at an industry conference. If others 
disagree with that position, then I respect their opinion, but 
they are not necessarily in the same position as I am of having 
to make these kinds of resource allocation calls.
    I have asked for both an internal and external 
investigation of our practice in accordance with Federal law 
and regulations, and I wait and will abide by the 
determinations that come out of that review. And I will, of 
course, adhere to any change in Federal law that Congress sees 
fit to make.
    In conclusion, those of us at the CPSC are working hard 
every day to find and remove unsafe products from the 
marketplace, to respond to consumer complaints, to establish 
product safety standards and to educate the public. The product 
that Congress came up with----
    Mr. Rush. Madam Chairwoman, would you please bring your 
remarks to a conclusion?
    Ms. Nord. I would be happy to conclude by saying to you, 
sir, that the product that you came up with in 1972 is 
essentially sound, but it could work better. I appreciate and 
welcome your efforts to make it work better, and I look forward 
to working with this committee. Thank you.
    Mr. Rush. Thank you.
    [The prepared statement of Ms. Nord follows:]

                       Statement of Nancy A. Nord

    Good Morning Mr. Chairman, Congressman Stearns, and members 
of the committee.
    Thank you for inviting me to testify this morning on H.R. 
4040, the Consumer Product Safety Modernization Act of 2007, 
which was introduced last week to modernize the governing 
statutes of the U.S. Consumer Product Safety Commission (CPSC).
    I want to begin by congratulating the Committee on the open 
and bipartisan deliberative process that has resulted in a bill 
that is focused on CPSC's core mission of improving the safety 
of consumer products for American families.
    As Acting Chairman of the CPSC, I have appreciated your 
staff's engagement of the professional staff at my agency in 
developing this legislation, as well as previous consumer 
product legislation that was reported from this Committee and 
subsequently approved by the full House of Representatives last 
month. Though the CPSC is a small agency, we are fortunate to 
have a staff of dedicated career civil servants who are skilled 
in an impressive array of legal, technical and scientific 
disciplines. They are doing an outstanding job for the American 
people, and I am pleased to see their expertise reflected in 
your legislation.
    I also want to thank the committee for including in this 
bill a number of the proposals that I submitted to Congress 
earlier this year to strengthen the CPSC's ability to reduce 
hazards associated with consumer products. I note, for example, 
that Section 204 of your bill includes my proposal to speed 
agency rulemaking by giving the CPSC the option to employ 
either two-part or three-part rulemaking under all of our 
statutes. This change will make our regulatory process more 
streamlined, efficient and effective, and I thank the Committee 
for accepting it.
    Additionally, section 208 includes my proposals to clarify 
that the Commission is the final arbiter in deciding whether a 
company's recall remedy should be a refund, a repair or a 
replacement and to empower the Commission to take further 
corrective actions if consumers are not protected by the 
original plan. I also appreciate that the Committee has 
included in the bill my proposals to prohibit the sale of 
recalled products and prohibit stockpiling under all of the 
statutes that the CPSC enforces.
    The legislation also includes a more than five-fold 
increase in the cap on CPSC's civil penalties. That provision 
passed the House of Representatives by voice vote last month, 
and I am pleased to see it included in this comprehensive bill. 
This is a reasoned approach to increasing the agency's civil 
penalties and strengthening the agency's hand, without forcing 
the CPSC to respond to a flood of new litigation and drain our 
limited resources that could otherwise be used to hire more 
scientists and more safety inspectors.
    With regard to the lead provision, I appreciate that the 
Committee is moving toward a stronger standard, and I look 
forward to continuing discussions on that provision between 
your staff and technical experts here at the CPSC to assist you 
in achieving that goal.
    As you well know, CPSC's statutes have not been updated by 
Congress since 1990. Clearly, the dynamics of the marketplace 
have changed dramatically over these years. New technologies 
have emerged, and continue to emerge, in creating and 
manufacturing products. Electronic technologies have changed 
the way that consumers shop and purchase goods and the way that 
the public receives information. Perhaps the most significant 
change is that most of America's consumer products now come 
from overseas.
    So it is important that the Committee is moving forward to 
modernize this agency, but it is also important to recognize 
that the legislative foundation on which the CPSC was built is 
a fundamentally strong one. No small amount of work went into 
the crafting of the original legislation that created the CPSC 
in 1972. The National Commission on Product Safety worked for 
three years before presenting its findings to the Congress in 
1970, and the Interstate and Foreign Commerce Committee, as 
this committee was then known, held thirteen days of hearings 
and ten executive sessions, including joint sessions by the 
conference committee.
    I would note Chairman Dingell's key role in authoring and 
enacting this legislation that established an agency that has 
served the public well. We are proud of our thirty-four year 
record of achievement of reducing deaths and injuries and 
helping to protect the American public from consumer product 
hazards--a successful record that I have outlined on numerous 
previous occasions this year in testimony before your 
Committee.
    The core mission of the CPSC is to protect the public from 
unreasonable risks of injury and death associated with more 
than 15,000 types of consumer products under the agency's 
jurisdiction. We fulfill this mission by enforcing our 
governing statutes, including the Consumer Product Safety Act 
(CPSA), the Federal Hazardous Substances Act (FHSA), the 
Flammable Fabrics Act (FFA), and the Poison Prevention 
Packaging Act (PPPA).
    Since being appointed to the Commission two years ago, and 
subsequently becoming Acting Chairman last year, I have closely 
studied, enforced and directed the implementation of these 
statutes. Based on my study of our statutes and this working 
experience, earlier this year I submitted to Congress a 
comprehensive list of legislative proposals known as the 
Product Recall, Information and Safety Modernization Act, or 
PRISM.
    As Acting Chairman, I believed that it was important for me 
to be proactive and come forward to Congress with my ideas to 
strengthen the Commission's hand in enforcing our laws and 
protecting the American public from unsafe products. As 
mentioned earlier, I am pleased to see that a number of the 
proposals I advocated at that time are included in your bill.
    In that spirit of being pro-active and advocating change, I 
would like to take advantage of this opportunity to ask the 
Committee for additional powers that were included in PRISM but 
are not included in the legislation at this point.
    First of all, I proposed in PRISM that the CPSC be granted 
authority to promulgate regulations for the efficient 
enforcement of any statute it administers, just as we can now 
do under the FHSA. This would clarify that the Commission can 
issue enforcement regulations in addition to consumer product 
safety standards under any of our statutes where warranted to 
carry out our mission.
    Another proposal that I would encourage the Committee to 
consider further is to extend the existing certification 
requirement under Section 14 of the CPSA to all statutes 
administered by the Commission. This would avoid confusion 
among the disparate certification and labeling provisions of 
the CPSA, FHSA, FFA and PPPA.
    I believe that these changes would strengthen the 
Commission's hand, and I hope that the Committee will take a 
close look at them as we move forward.
    Mr. Chairman and Mr. Stearns, I again want to commend your 
leadership in crafting legislation that recognizes the 
importance of CPSC's core safety mission and strengthens our 
ability to achieve that mission. It is clear that much hard 
work went into developing this important legislation. It 
respects the important foundations of the CPSC while at the 
same time addressing the challenges of the 21st Century 
marketplace that our aggressive enforcement activities have 
exposed, especially this year.
    I look forward to continuing to work cooperatively with the 
Committee as your bill proceeds through the legislative 
process, and I am pleased to answer your questions.
                              ----------                              

    Mr. Rush. Commissioner Moore, welcome again and, please, 
you have 5 minutes for an opening statement.

 STATEMENT OF THOMAS H. MOORE, COMMISSIONER, CONSUMER PRODUCT 
                       SAFETY COMMISSION

    Mr. Moore. Thank you very much. Mr. Chairman, Mr. Ranking 
Member and members of the subcommittee, I appreciate the 
opportunity to appear before you today to provide testimony on 
H.R. 4040, legislation to establish consumer product safety 
standards and other safety requirements for children's products 
and to reauthorize and modernize the Consumer Product Safety 
Commission.
    As the members of this subcommittee know, the U.S. Consumer 
Product Safety Commission needs help. It needs additional 
resources, more staff and greater authority to protect 
consumers from potential product hazards. And you have 
responded positively. I am extremely gratified by the 
authorization levels in the bill and by the bill's clear 
acknowledgement that consumer product safety must remain an 
important Federal Government function.
    This bill recognizes that it will take time for the agency 
to rebuild. We cannot do it overnight. The downsizing and 
dismantling of the agency has been going on for a while, so I 
ask you to be patient with all of us at the agency as we 
rebuild our staff expertise and, with your strong support, 
refocus our efforts on providing a greater level of product 
safety with the increased capabilities this bill would give us.
    We have lost many experienced and talented people in the 
last few years, people who knew instinctively when they saw a 
product whether it was badly designed or if it was just a plain 
bad idea from a safety standpoint. We have increased our 
information technology spending as a way to compensate for the 
reduction in the size of our staff, but no computer that I am 
aware of can look at a product and know that it should be 
removed from the marketplace. Only experienced, trained people 
can do that.
    The real backbone of the agency is its staff, our 
toxicologists, our pharmacologists, our mechanical engineers, 
our human factors specialists, our chemists, our investigators 
and, yes, even our lawyers. We need to retain our current 
employees and recruit additional staff. They are the key to the 
agency fulfilling its role as protector and enforcer. This bill 
will allow us to rebuild our staff and should send a signal to 
current employees that the agency will be around for a long 
time and that they should stay and rebuild with us.
    There has been much attention paid lately to recalls of 
important products, and rightly so. The Commission currently 
has no full-time presence at any port and little or no presence 
at several of the major ports. We currently inspect less than 1 
percent, less than 1 percent, of the products under our 
jurisdiction that come into this country. This is not quite as 
bad as it sounds because we do targeted surveillance. That is, 
we look for specific products and for specific importers that 
we know from past experience to be problematic.
    I do not know what percentage of all potentially 
problematic products we inspect, but it is still probably a 
fairly small number. We will, I am afraid, always be at a 
disadvantage in policing this huge import market. But with more 
people at the ports, more people scrutinizing products at 
retail outlets and the manufacturing plants and with more 
people at headquarters and in our laboratory analyzing products 
and employing stronger enforcement tools to require recalls in 
a more timely fashion, we can do a better job of keeping 
hazardous products out of the marketplace before they cause 
injuries, than our current resources and authority permit us to 
do so.
    We tend to take the safety of our products, and the 
Commission's role in that, for granted until a tragedy occurs. 
The real tragedy would be not to take advantage of the 
opportunity we now have to make the Commission stronger.
    I understand that this legislation will go through changes 
as it moves through the legislative process, but it is a very 
good foundation on which to build. Your bill sends the message 
that the American public wants to hear, that you will not 
permit the Commission to wither on the vine. You will reverse 
the downsizing trend of recent years, and you will give the 
agency the enforcement tools it needs to aggressively fight to 
protect America's consumers.
    Thank you for providing me with this opportunity to appear 
before you, and I will address questions you may have. Thank 
you.
    [The prepared statement of Mr. Moore follows:]

                      Statement of Thomas H. Moore

     Mr. Chairman, Mr. Ranking Member, and members of the 
subcommittee, I appreciate the opportunity to appear before you 
today to provide testimony on H.R. 4040, legislation to 
establish consumer product safety standards and other safety 
requirements for children's products and to reauthorize and 
modernize the Consumer Product Safety Commission.
     As the members of this subcommittee know, the U.S. 
Consumer Product Safety Commission needs help. It needs 
additional resources, more staff and greater authority to 
protect consumers from potential product hazards. And you have 
responded. I am extremely gratified by the authorization levels 
in this bill and by the bill's clear acknowledgment that 
consumer product safety must remain an important Federal 
Government function.
     The bill recognizes that it will take time for the agency 
to rebuild. We cannot do it overnight. The downsizing and 
dismantling of the agency has been going on for a while, so I 
ask you to be patient with all of us at the agency as we 
rebuild our staff expertise and, with your strong support, 
refocus our efforts on providing a greater level of product 
safety with the increased capabilities this bill will give us.
     We have lost many experienced and talented people in the 
last few years--people who knew instinctively when they saw a 
product whether it was badly designed or if it was just plain a 
bad idea from a safety standpoint. We have increased our 
information technology spending as a way to compensate for the 
reduction in the size of our staff, but no computer that I am 
aware of can look at a product and know that it should be 
removed from the marketplace. Only experienced, trained people 
can do that. The real backbone of the agency is its staff: our 
toxicologists, our pharmacologists, our mechanical engineers, 
our human factors specialists, our chemists, our investigators 
and yes, even our lawyers. We need to retain our current 
employees and recruit additional staff. They are the key to the 
agency's ability to fulfill its role as protector and enforcer. 
This bill will allow us to rebuild our staff and should send a 
signal to current employees that the agency will be around for 
a long time and that they should stay and rebuild with us.
     There has been much focus on recalled imported products 
lately and rightly so. The Commission currently has no full-
time presence at any port and little or no presence at several 
of the major ports. We currently inspect less than 1% of the 
products under our jurisdiction that come into this country. 
This is not quite as bad as it sounds because we do targeted 
surveillance; that is, we look for specific products and for 
specific importers that we know from past experience to be 
problematic. I do not know what percentage of all problematic 
products we inspect, but it is still probably a fairly small 
number. We will, I am afraid, always be at a disadvantage in 
policing this huge import market. But with more people: at the 
ports; more people scrutinizing products at retail outlets and 
in manufacturing plants; and with more people at headquarters 
and at our laboratory, analyzing products and employing 
stronger enforcement tools to require recalls in a more timely 
fashion, we can do a better job of keeping hazardous products 
out of the marketplace before they cause injuries, than our 
current resources and authority permit us to do.
     We tend to take the safety of our products, and the 
Commission's role in that, for granted until a tragedy occurs. 
The real tragedy would be not to take advantage of the 
opportunity we now have to make the Commission stronger. Your 
bill sends the message that the American public wants to hear--
that you will not permit the Commission to wither on the vine; 
you will reverse the downsizing trend of recent years and you 
will give the agency the enforcement tools it needs to 
aggressively fight to protect America's consumers.
     I understand that the legislation will go through changes 
as it moves through the legislative process, but it is a very 
good foundation on which to build. My staff and I have not had 
the opportunity to review the bill's provisions as carefully as 
I would like, thus the comments below are somewhat general in 
nature. My staff will be conferring with the subcommittee staff 
and may provide them with more detailed comments on some 
sections of the bill after we have reviewed them more 
thoroughly, including timing requirements and issues of 
prioritization.

                Section by section comments of H.R.4040

    Section 101. Ban on Children's Products Containing Lead.
     I have been on record for some time as stating that I 
hoped Congress would take up the issue of lead in children's 
products because the statutory constraints under which the 
Commission labors are too stringent when it comes to something 
as clearly toxic to our children as lead. Personally I do not 
think there should be any lead in children's products and I 
hope one day we are as amazed that there was ever a time that 
these products contained lead as we are now when we remember 
that water coolers were once lined with lead. This bill's aim 
is to get the amount of lead down to the lowest level possible 
and I certainly support that goal.
    Section 102. Mandatory Third-Party Testing for Certain 
Children's Products.
     I support mandatory third-party testing and certification 
of children's products, especially of products intended for 
younger children. I am inclined to agree that the laboratory 
should not be controlled by the manufacturer or private 
labeler, but would also consider a provision that would allow 
manufacturer-owned labs to do testing unless and until such 
time as we had reason to believe their test results were not 
accurate.
    Section 103. Tracking Labels for Children's Products.
     I support having identifying marks on products and product 
packaging that help manufacturers, retailers, consumers and the 
Commission to identify when and where a product was made. I 
would like eventually to see this on all products so that in 
the event of a recall, the Commission has a tool to more 
clearly identify which products should be subject to it.
    Section 104. Standards and Consumer Registration of Durable 
Nursery Products.
     We know that direct notice to consumers from a product 
manufacturer about a recall is the most effective form of 
notice; therefore, I support requiring product registration 
card notification.
    Section 105. Labeling Requirement for Certain Internet and 
Catalogue Advertising of Toys and Games.
     I support this provision. As more and more products are 
purchased through a catalogue or over the Internet without the 
buyer ever viewing the actual product, the effectiveness of our 
labeling rules becomes more and more diminished. This would 
rectify that problem.
    Section 201. Reauthorization of the Commission.
     I support substantial increases in the Commission's 
appropriations, and these authorization figures will provide 
the basis for that through 2011. I also support a congressional 
appropriation to modernize and re-equip our laboratory.
    Section 202. Structure and Quorum.
     I support both an extension of the Commission's quorum and 
the gradual increase in the number of Commissioners, back to 
the five that were originally funded.
    Section 203. Submission of Copy of Certain Documents to 
Congress.
     I support Congress receiving a copy of our initial annual 
budget submission to the Office of Management and Budget. I 
believe it will provide Congress with the information it needs 
to better analyze the President's budget request.
    Section 204. Expedited Rulemaking.
     I support giving the Commission the authority to use, in 
its discretion, two-step rulemaking instead of the longer 
three-step rulemaking process. I would expect the two-step 
procedure to be used on more routine matters and not, for 
example when the Commission is taking on an issue of which it 
has little knowledge or experience.
    Section 205. Public Disclosure of Information.
     I am on record as supporting the elimination of section 
6(b) of the CPSA, which has the effect of keeping a great deal 
of product specific safety information secret. While the 
provisions of this bill do not go as far as I would like, they 
are a step in the right direction.
    Section 206. Prohibition of Stockpiling Under Other 
Commission-Enforced Statutes.
     I support extending the stockpiling provisions to our 
other statutes.
    Section 207. Notification of Noncompliance with Any 
Commission-Enforced Statute.
     I support explicitly extending the reporting requirements 
of section 15 (b) of the CPSA to the other statutes the 
Commission enforces.
    Section 208. Corrective Action Plans.
     I support giving the Commission the final say as to 
whether a proposed corrective action plan will adequately 
protect consumers.
    Section 209. Website Notice, Notice to Third Party Internet 
Sellers, and Radio and Television Notice.
     I support the enhanced recall notice provisions of this 
section.
    Section 210. Identification of Manufacturer, Importers, 
Retailers, and Distributors.
     I support requiring everyone in the product supply chain 
to know who they are dealing with and to supply that 
information to the Commission upon request.
    Section 211. Export of Recalled and Non-Conforming 
Products.
     I have urged Congress to reexamine our export policy. I 
believe a policy that recognizes that we can only expect other 
countries to protect our consumers from their exports, if we 
are willing to make the same commitment by not sending them 
products that could harm their consumers. I believe this 
section does that.
    Section 212. Prohibition on Sale of Recalled Products.
     I support prohibiting the sale of recalled products.
    Section 213. Increased Civil Penalty.
     I have long supported the removal of any upper limit on 
civil penalties because I think the types of products we 
regulate and the different and multiple types of violations 
that are possible under our statutes, as well as the 
circumstances that contribute to those violations, are so 
disparate that we need maximum flexibility to fine companies 
who violate our requirements. Our statutes list various factors 
we must take into account in determining the amount of the 
penalty and those are what we should look to in structuring 
penalty amounts not an arbitrary ceiling that has no 
relationship to the facts of the violation(s). But, if there 
must be a cap, an increase is extremely welcome, though I would 
urge a higher one.
    Section 214. Criminal penalties to include asset 
forfeiture.
     I support this provision to give us the additional penalty 
of asset forfeiture for criminal violations of our statutes.
    Section 215. Sharing of Information with Federal, State, 
Local, and Foreign Government Agencies.
     I support this information-sharing provision.
     This comprehensive legislative package introduced by 
Congressman Bobby L. Rush and Congressman Cliff Stearns, with 
Energy and Commerce Committee Chairman John Dingell and Ranking 
Member Joe Barton, is a big step in strengthening and restoring 
confidence in the U.S. Consumer Product Safety Commission.
     It is very important that in whatever we do collectively--
through efforts by the administration, by Congress and by the 
Commission--to address the most recent problems facing the 
Commission, that we send the clear, unequivocal message to 
manufacturers, importers and retailers who sell products in 
this country that present a risk of injury to consumers that 
their actions are unacceptable and that they will be held 
accountable. This legislation will give us more resources and 
additional enforcement tools. It will then be up to the 
Commission to use them to make the marketplace a safer place 
for American consumers.
                              ----------                              

    Mr. Rush. The Chair thanks both of the witnesses. The Chair 
recognizes himself for 5 minutes of questioning of witnesses.
    Commissioner Moore, if you had one overriding relevant key 
wish as it relates to this bill, what would be the one thing 
that you think that would make the most difference at the CPSC?
    Mr. Moore. At this point, the increased funding reflected 
in the authorization numbers is by far the most important 
provision. We have to stop the bleeding at the Commission and 
reverse the trend that has cost us so many valuable employees.
    Aside from funding, what are the most important provisions? 
The provision banning lead I think in children's products above 
a certain level has to be a priority. As well, the increase in 
the civil penalty cap, which is a reflection of how important 
we think product safety is in this country.
    Mr. Rush. Chairman Nord, do you agree with Commissioner 
Moore that CPSC needs the resources that this bill authorizes?
    Ms. Nord. I wholeheartedly agree and would like to see more 
resources for the agency.
    In addition to the things that Commissioner Moore listed, I 
would also add that a very, very useful addition to this 
legislation would be certification authority across the board 
for all the statutes that we implement. I think that one 
additional statutory tool would go such a long way to giving us 
an ability to more easily flag products that may be in 
violation of our standard, and I would strongly urge you to 
include that as you mark up this legislation.
    Mr. Rush. Would you explain in more detail how this 
certification process would work?
    Ms. Nord. Surely. I believe it would be a very useful tool 
to require that all product sellers certify to us that they are 
in compliance with applicable safety standards and regulations. 
That would give us a key to look at as products come into the 
country and as they are being sold throughout the marketplace.
    Mr. Rush. With the H.R. 4040's proposed changes to section 
6(b), would this CPSC be issuing more alerts more quickly about 
unsafe products? In other words, would you use it to strengthen 
health and safety exception in more circumstances if this bill 
were to become law?
    Ms. Nord. Well, I was pleased to see the way that the 
committee approached section 6(b) because it really does 
modernize it in a way that I think is very, very useful.
    With respect to safety alerts, obviously, we address these 
issues on a case-by-case basis; and I want to make sure that if 
we see a problem, that we have have the tools to respond. So I 
am pleased to see what you have done with 6(b).
    Mr. Rush. Would you address the concern that has been 
voiced by the CPSC about the fear of litigation? Why was the 
CPSC so afraid of litigation that it would inhibit getting 
information out to the public? What was the concern there?
    Ms. Nord. You mean with respect to 6(b)?
    Mr. Rush. Right.
    Ms. Nord. Section 6(b) put in place a prohibition on the 
release of information without first making an inquiry as to 
whether it is fair and accurate. And the problem is that that 
inquiry needed to be done in a 30-day time frame going back to 
the manufacturer. What you have done is cut that time frame in 
half, and you have also indicated that and make very clear----
    Mr. Rush. What I am concerned about is it would seem to me 
that there was a real deep-seated fear at the CPSC about 
court--my time is up, but I will ask you that a little later.
    Ms. Nord. Thank you.
    Mr. Rush. The Chair recognizes the ranking member, Mr. 
Stearns.
    Mr. Stearns. Thank you, Mr. Chairman.
    Chairman Nord, I guess the question is that the press, most 
notably the New York Times, have claimed that you oppose new 
authority for the CPSC. I think it is true, and I would like 
you to confirm this, that you actually had proposed new 
authorities for the Commission?
    Ms. Nord. Yes, I have. Back in July of this year I sent to 
both bodies a legislative proposal that contained no fewer than 
40 different suggestions for changes in our statute.
    Mr. Stearns. So that clears up the New York Times saying 
that you actually oppose new authority. You have 40 new ones 
that you have proposed.
    I would like you to also talk about this letter that I 
mention in my opening statement, these 5 pages. You are an 
attorney. You have the opportunity to respond to a Senate bill 
that is being proposed, not voted on. You are just saying, as 
an attorney, as chairwoman of the CPSC, I would like to make 
known to you some of my comments; and these are very detailed 
comments you have in this 5 pages of letter. I thought I would 
give you an opportunity to explain your thoughts about it and 
your goals in sending it, because I think it is been 
misconstrued on one side of the aisle and misconstrued in the 
press.
    Ms. Nord. Yes, thank you so much, Congressman Stearns.
    At the hearing on this legislation, the chairman made very 
clear that he welcomed input from----
    Mr. Stearns. The chairman being?
    Ms. Nord. The Senate subcommittee chairman--made very clear 
that he welcomed input from all quarters on the legislation.
    I sat down and met with the Senate majority staff for well 
over 2 hours and after that meeting indicated to them that I 
would be following up. That letter is my follow-up. I felt I 
had an obligation to state to the members of the committee my 
concerns about the legislation and where I thought improvements 
could be made.
    If you read that letter, you will see that I reference 
legislative changes that I was suggesting that were forwarded 
along with that letter. I felt that as a public official it is 
my obligation to talk to the Senate about----
    Mr. Stearns. I think it would be a dereliction of your duty 
if you didn't talk about the penalty cap increases that you 
specified in here, your criminal penalties that you went into, 
the whistleblower protection. Sometimes people would dwell on 
one sentence of this five-page, detailed, lawyerly written 
letter, but I think you have a fiduciary responsibility in your 
position to do that.
    Ms. Nord. Well, my concern, and the portrait I wanted to 
convey to the Senate, was, while there were a number of things 
that were very helpful in the Senate bill, there were some 
things that were of concern and that might take us away from 
our core safety mission.
    In addition, there were a number of new rulemaking 
requirements being imposed under a very tight time frame; and, 
frankly, we would not have had the resources to comply with the 
legislation.
    Mr. Stearns. One thing I read in the newspapers, they say 
that there is only one toy tester at CPSC. And you have cleared 
this up before this hearing, and I thought for one more time 
for the record, is there only one toy tester at CPSC?
    Ms. Nord. No, there are a number of people on our staff 
that have the responsibility to test toys.
    Mr. Stearns. Including independent testers, there are 60 
testers in the field. So let us make sure that people don't 
think that there is one person sitting there as the avalanche 
of toys come from China.
    The other thing that keeps coming up is there are more 
recalls, so that means there is more danger. You know, one way 
to think of this is that because there is more notification 
from the CPSC there is a possibility it is working, the system 
is working better. Has anyone died this year from lead 
contamination in toys?
    Ms. Nord. I am not aware of any deaths. But, of course, 
with respect to lead contamination it is cumulative, so we 
don't want to see lead in any product, and we are working very 
hard to keep it out.
    Mr. Stearns. But can we determine over the last 50 years 
any death that has been attributable to lead content in their--
I mean, where do we get this idea that--I mean, we know that it 
is an accumulation, and we know that it is bad. But the idea 
that we are notifying and we are meeting a standard, I guess is 
there a crisis like some people seem to think?
    Ms. Nord. Well, crisis or no, the statute is the statute, 
the law is the law, and I am absolutely determined that the 
lead paint ban is going to be met. And that is why we have had 
these 19 recalls over the last summer.
    Sir, with respect to the comment of why are recalls bad or 
escalating, we did 5 or 6 more recalls this year than we did 
last year.
    Mr. Stearns. That might be a possibility that the system is 
working?
    Ms. Nord. Well, we work in a system that requires us to 
respond after things have been put on the market. That is the 
regulatory structure that Congress imposed on us. So we go into 
the marketplace, and we police the marketplace. And one of our 
tools is to do recalls, and we do do them.
    Mr. Stearns. Thank you, Mr. Chairman.
    Mr. Rush. The Chair has a special request from the ranking 
member. He has got to leave, and the Chair would ask the 
indulgence of the full committee chairman to allow--he has got 
to leave, also. I want to thank the chairman.
    The Chair now recognizes the ranking member of the full 
committee, Mr. Barton, for 5 minutes.
    Mr. Barton. I want to thank you, Mr. Rush, Ms. Schakowsky 
and Mr. Dingell for letting me go out of order. I have an 
appointment that has been waiting for about 20 minutes, so I 
appreciate that.
    I am going to be very straightforward. I am going to ask 
the chairman and the commissioner the same question. I just 
want to go through the bill very quickly and make sure that you 
all are in agreement on adopting the Federal standard on lead. 
Are you all both in favor of that, that is in the bill?
    Ms. Nord. In theory. I mean, yes, in general theory, of 
course.
    Mr. Barton. And you, Mr. Moore?
    Mr. Moore. Yes.
    Mr. Barton. The requirement for mandatory independent 
third-party testing and certification, are both of you all 
supportive of that?
    Mr. Moore. I don't have any problems with it.
    Ms. Nord. I think third-party independent testing is always 
a very good practice.
    Mr. Barton. All right. What about the requirement Ms. 
Schakowsky has insisted upon that requires tracking labels for 
children's products to identify specific models and sources to 
aid recalls? Are you all supportive of that?
    Ms. Nord. As long as we have regulatory authority to make 
that work.
    Mr. Barton. And you, Mr. Moore?
    Mr. Moore. Yes.
    Mr. Barton. What about the mandatory safety warnings for 
choking and other hazards for Internet and catalogue sales for 
small balls, balloons and other small parts that currently 
require such labels?
    Ms. Nord. I think warning people who buy products in those 
alternative modes is very useful. I think, though, that we 
should be thinking a little bit more expansively about how we 
deal with Internet sales.
    Mr. Barton. What about you, Mr. Moore?
    Mr. Moore. Yes, they should be warned.
    Mr. Barton. So that is a minimum?
    Mr. Moore. Yes, at a minimum.
    Mr. Barton. That might be something you might want to 
strengthen then, is that fair to say?
    Mr. Moore. That is fair enough.
    Mr. Barton. What about the mandatory safety standards for 
the nursery products--cribs, high chairs, things like that?
    Ms. Nord. Again, we need to do it under the rulemaking 
provisions of the statute.
    Mr. Barton. And you, Commissioner Moore?
    Mr. Moore. Well, I would like to review that again in terms 
of the standards. But certainly with respect to information and 
events that have occurred in a recent period indicating that 
there are problems out there, or there can be problems out 
there with cribs, as an example. Certainly we need to find the 
best way to protect families from faulty cribs and other types 
of faulty products.
    Mr. Barton. OK. I am living proof that children are--my son 
is world class at getting out of his crib now. I mean, he can 
do it less than 30 seconds. It is amazing. As soon as my back 
is turned, and I walk out of the room--I mean, he is just like 
a little eel getting out of that crib.
    The bill authorizes a funding increase of $80 million in 
fiscal year 2009, $90 million in 2010 and $100 million in 2011. 
Are those funding increases sufficient and do the chairwoman 
and the commissioner support them?
    Ms. Nord. That is fine.
    Mr. Moore. I support them. I think it is a good start.
    Mr. Barton. A good start?
    Mr. Moore. Yes.
    Mr. Barton. All right. What about restoring to the 
Commission five full-time commissioners and repealing the 
appropriation rider of only three commissioners?
    Mr. Moore. I am not certain about that.
    Mr. Barton. Really?
    Mr. Moore. I have to think about it, because I have worked 
so long with three commissioners.
    Mr. Barton. Interesting. I thought that would be something 
you all would be very supportive of.
    Mr. Moore. I don't know yet. I would have to see how it 
might work, but I am willing to test it.
    Mr. Barton. And you Commissioner?
    Ms. Nord. I have no position on this. Again, I have never 
worked in a five-Commissioner structure. I will, however, refer 
to you to the congressional history of that particular 
provision where this committee and its counterpart in the 
Senate were very, very critical of the five-Commissioner 
structure. And so I think you might want to be mindful of those 
criticisms, and if you go that route, take them into account.
    Mr. Barton. OK. The requirement that we authorize $20 
million to modernize the CPSC testing lab?
    Mr. Moore. Absolutely.
    Ms. Nord. We need a modernized laboratory.
    Mr. Barton. And the expedited rulemaking so that the CPSC 
can respond more quickly to product safety concerns?
    Ms. Nord. I suggested that in July.
    Mr. Barton. So you are for that?
    Mr. Moore. Yes. That is an option we ought to have, yes.
    Mr. Barton. And, finally, the prohibition on the sale and 
export of recalled, banned or noncomplied products, unless the 
importing country is first notified?
    Ms. Nord. Again, that provision gives us regulatory 
authority to implement it, so I think we can work within it. 
The concern that the compliance staff of the agency has 
expressed is that, without a time certain, you don't have a 
trigger for when you can make a decision. So a time certain 
would probably make some sense, and there is such in existing 
law.
    Mr. Barton. Commissioner Moore?
    Mr. Moore. Yes. That is a provision that I did some work 
on, so certainly I do support it.
    Mr. Barton. Again, thank you, Chairman Rush and Chairman 
Dingell. We are going to move this bill fairly quickly. It is 
my understanding that we want to have a markup within the next 
week or 2?
    Mr. Rush. That's correct.
    Mr. Barton. So we need your input on these issues that we 
are going to ask the stakeholders the same questions. But we 
are preparing to move this at subcommittee and full committee. 
So your personal attention to some of these issues is very 
timely.
    Thank you again for the courtesy of letting me go out of 
order.
    Mr. Rush. The Chair thanks the ranking member.
    The Chair recognizes the gentlelady, the Vice-Chair of the 
subcommittee, Ms. Schakowsky, for 5 minutes.
    Ms. Schakowsky. Thank you.
    Chairman Nord, if I went to a conference on Medicare Part 
D, which is the pharmaceutical portion of it, that was paid for 
by the pharmaceutical companies and argued that it is because I 
have a limited budget and I want to spend the money in my 
district, do you think that my constituents would think that 
that was an appropriate thing for me to do, to take the 
pharmaceutical company money to travel to a conference where we 
were discussing things that affected them?
    Ms. Nord. I am really not going to address what your 
constituents would think.
    Ms. Schakowsky. What do you think? What do you think?
    Ms. Nord. That is a hypothetical. All I can talk to you 
about is what I did.
    Ms. Schakowsky. And I am making the case that it is very 
parallel. In fact, I want to quote from an ethics expert: It is 
never a good idea to have your expenses paid for by a party or 
parties who will be advocating on a matter before your agency. 
A Senate career ethics lawyer and another Government agency 
required anonymity because it was not clear to comment for the 
record. It is legal, but it is clearly an abuse of discretion 
and exhibited, at best, enormous insensitivity and, at worst, 
outward disdain for the ethical principles of Government 
service.
    I also note in the same article that on February you were 
asked to recruit paying attendees for a meeting of lawyers who 
defend manufacturers in product liability cases. In offering to 
pay for her trip, Defense Research Institute lawyer Steven 
Coronado wrote, I do ask that you assist in marketing by using 
the brochures you have received and getting them into the hands 
of people that you think might be interested in attending. And 
the comment of the Project on Government Oversight called the 
request ``creepy'.
    Ms. Nord. I agree.
    Ms. Schakowsky. So you didn't respond to that?
    Ms. Nord. Well, with respect to the DRI thing, I have no 
recollection of anyone asking me to go out and recruit people 
to attend their conference. I get lots of things in the mail, 
many of them I don't see, and I didn't do that.
    With respect to the bigger issue, the CPSC travel 
regulations have been in place for 20 years.
    Ms. Schakowsky. No, I heard you say that before.
    Let me ask another specific question. In February, the 
International Consumer Product Health and Safety Organization, 
a broad-based professional group, balked at the agency's 
request that it pay for 6 Commission employees to attend its 
meeting in Orlando. They said they, too, are on a tight budget, 
offered to pay for your expenses and partial expenses for one 
staff member. So is it your policy to actually recruit funding 
for trips for Commission staff?
    Ms. Nord. Of course not, and there was no such request.
    Ms. Schakowsky. Oh, well, so we just have a difference of 
opinion here?
    Ms. Nord. No, no. It is very clear. We do not solicit those 
invitations.
    Ms. Schakowsky. Well, we will have to check back with that 
agency that said that there was a request.
    Ms. Nord. We will work with you on that.
    Ms. Schakowsky. I will ask them as well.
    Is it not true that there is one full-time employee of the 
CPSC, full-time employee, who is in charge of inspecting toys, 
Bob, and he is retiring?
    Ms. Nord. There are a number of people.
    Ms. Schakowsky. I understand. Is there one full-time 
employee in charge of----
    Ms. Nord. No, there are other full-time employees who test 
toys; and, indeed, with respect to the employee that you have 
in mind, he often does other things. That is just an inaccurate 
statement. It is an urban myth that has grown up around us, and 
it is really, really time that it be put to rest because it is 
not fair to the employee and agency.
    Ms. Schakowsky. Well, if I could get a list of the full-
time employees that inspect toys, that would be extremely 
helpful.
    Ms. Nord. I would be happy to provide it.
    Ms. Schakowsky. Commissioner Moore, you have asked us for 
patience. And, right now, consumers are in the buying season 
for toys for their children and are not feeling particularly 
patient right now. In fact, I think a lot of them are deciding 
to go other than for toys, for other products. How long--and I 
agree that the downsizing has been going on for years. But I am 
just wondering how long you think it is that it would take for 
the Consumer Product Safety Commission to regain the confidence 
of Americans that they could trust the products that they find, 
particularly for their children? And do you think that our 
legislation would make a big difference in that?
    Mr. Moore. I definitely think your legislation would make a 
big difference. I wish I could tell you with some specificity 
in terms of how long it might take, but we are talking about 
the need to develop experienced people on these particular 
issues at the Commission. It may take 2 or 3 years to do that. 
But, in the meantime, we will be working on it, and we will let 
the public be aware of our work, and we will continue to look 
at potentially harmful products.
    Ms. Schakowsky. Mr. Chairman, if I could ask one final 
question.
    Yes or no, Chairman Nord--thank you, Mr. Moore. Would you 
support a travel ban of the sort paid for by companies as the 
FDA, the FCC, USDA, Congress have?
    Ms. Nord. That is totally up to Congress.
    Ms. Schakowsky. Would you support it?
    Ms. Nord. That is up to Congress.
    Ms. Schakowsky. You have commented on many provisions. It 
is an easy yes or no.
    Ms. Nord. If Congress wishes to do that and gives us the 
budget, yes, of course I would.
    Ms. Schakowsky. Thank you.
    Mr. Rush. The Chair recognizes the gentleman from Texas, 
Mr. Burgess.
    The Chair thanks the gentleman.
    The Chair now recognizes the gentlelady from Tennessee, 
Mrs. Blackburn.
    Mrs. Blackburn. Thank you so much, Mr. Chairman. I thank 
you and I thank Mr. Burgess for allowing me to go ahead so I 
can make my meeting.
    I am going to follow up on a couple of things and just get 
a little more in depth; and I thank you, Ms. Nord, for your 
patience with us today.
    We talked a little bit about the third-party testing, and I 
wanted to know if you could tell us how many companies are 
using this third-party testing, how many companies under your 
jurisdiction? Can you give us a number of the number of 
companies that are using this?
    And the other part of this question is, as we have worked 
through this process, I have wondered about the number of 
companies that import component parts and then do the assembly 
in the U.S. Are they going through this third-party testing and 
can you give us that information?
    Ms. Nord. With respect to how many companies are doing 
third-party independent testing today, it really depends on 
what kind of product we are talking about. With respect to 
toys, you have seen that grow dramatically; and, indeed, the 
toy industry, along with the American National Standards 
Institute, have put in place an industry-wide plan to deal with 
this.
    Mrs. Blackburn. Let me stop you right there then if we 
don't have a number.
    What I would like to ask you all to do--and I am not trying 
to make work on this--but you have got some working groups that 
have all worked on this legislation. If you can approach these 
groups and give us an idea of how many companies are using the 
independent testing, how many are manufacturing the component 
parts, doing the assembly here, which we know there are lots of 
toy companies that do that, and then give us an idea of their 
use of the independent testing and then be able to let us get 
an idea of how successful that has been.
    I hope they are reporting the data back to you and that you 
have access to some of this data. I think it would be helpful 
to you, and I know it would be very helpful to us. We have 
discussed this issue a lot. You have come before the committee 
quite a bit. And I wish that you had that information to tell 
us if the companies feel like they are successful. If they are 
failing to report data to you I think we need to know that. 
Once we do this legislation, knowing that that testing works is 
going to be more than a theory, it has got to be more than a 
theory.
    Ms. Nord. Of course.
    Mrs. Blackburn. So if you will work with us on that.
    Another thing, the $20 million to update the labs, I want 
you to speak for a minute, is that sufficient? And what span of 
time, what is your time line for updating these labs and 
employing some of the new technologies that should yield better 
results, quicker turnarounds, et cetera?
    Ms. Nord. I am hopeful that we will be able to do this in a 
quick time line. We have got a proposal right now with GSA to 
look at real estate solutions to our laboratory problem. If we 
stay where we are, we are going to have to basically demolish 
it.
    Mrs. Blackburn. Is $20 million sufficient? Your time line 
in your proposal, does that cover it?
    Ms. Nord. I think $20 million should do it.
    Mrs. Blackburn. And then Section 103 of the bill, the 
labels--and I think Ms. Schakowsky is the one who was talking 
about that, and you mentioned you needed--if the rulemaking 
authority was workable, that it would be practicable, I think 
was your comment to us. And what I would like to ask you is if 
you would consider this--if the Commission would consider this 
a new mandate? And then for our small business manufacturers, 
our small toy manufacturers, if you look at it as an unfunded 
mandate in that regard.
    If you would just speak to that, and if you need to get 
back to me in writing, I think that is fine, too.
    Ms. Nord. Well, I think the underlying intent of the 
provision is very good. It is very useful to be able to track 
products back to where they were manufactured. So that I am 
very pleased with.
    But, again, I think the Commission needs the rulemaking 
flexibility to deal with that issue and others that will come 
up implementing this.
    Mrs. Blackburn. So we need to put a little bit more 
attention on that one is what I am hearing you say.
    Section 209, to require a manufacturer to provide notice of 
recall products on its Web site, to make radio and TV 
announcements, including in languages other than Spanish, is 
there any other agency that has had this authority or this 
mandate and has NHTSA done this? Are you in new territory here 
or do you have something you are going to lean on for guidance?
    Ms. Nord. I am not aware of other agencies that do this to 
this extent. Of course, NHTSA is dealing with a very heavily 
regulated product, so it can talk to the companies.
    Mrs. Blackburn. My time has expired, so let me cut you off.
    Mr. Chairman, if I might, if counsel could provide us some 
guidance on that Section 209, I think that might be helpful as 
we move forward with our discussion; and I yield my time back. 
Thank you.
    Ms. Nord. Thank you.
    Mr. Rush. The Chair now recognizes the gentleman from 
Georgia, Mr. Barrow.
    Mr. Barrow. Thank you, Mr. Chairman.
    Commissioner Nord, in church, when you want to talk to the 
preacher about something delicate, you don't tell him what you 
think, you tell him what others are saying. You say, some have 
said that your sermon is a little too long or some have said 
that you're not hitting this theme or that theme or some have 
said that the CPSC ain't exercising its rulemaking authority, 
that it has got rulemaking constipation somewhere along the 
line. I don't know where it is.
    But some have even gone so far as to say the manufacturing 
community would like to have some guidance, like to have some 
standards, especially those that are complying with best 
practices, our laws, domestic laws on the subject of the 
poisons and toxins you are supposed to keep out of products. 
Some folks have said that it would be helpful.
    Now, 4040, H.R. 4040, has got a provision in there that 
proposes to streamline the process for rulemaking. This is a 
direct follow-up to the gentlelady from Tennessee's comments 
about the rulemaking authority. My question to you is, if this 
were to be adopted and the rulemaking authority for the CPSC 
were to be streamlined in the manner called for by H.R. 4040, 
would it actually result in any new rules being adopted or 
would it result in any rules being adopted in a more 
expeditious manner? Would anything change? I want to hear from 
you as to whether or not that provision would actually result 
in any change in the rulemaking activity of the Commission.
    Ms. Nord. Well, since I recommended it, I certainly hope it 
will. What I think is important is to understand how we would 
use this.
    Mr. Barrow. Can you tell me that it will make a change?
    Ms. Nord. Yes.
    Mr. Barrow. How will it make a change?
    Ms. Nord. It will allow us to operate more quickly, 
regulate more quickly with amendments.
    Mr. Barrow. I understand that as a process. What are the 
kinds of things we can expect that we haven't seen so far?
    Ms. Nord. When we are doing amendments to regulations, when 
we are doing technical, noncontroversial kinds of regulations, 
we can do two-part rulemaking, just doing notice of proposed 
rulemaking and then a final rule, as opposed to the three-step 
rulemaking which is under our statute.
    Mr. Barrow. How many instances can you think of where you 
all have been unable to get things done under the current 
three-step process you think you could get done under the 
proposed two-step process?
    Ms. Nord. Again, technical changes, amendments to rules, 
things that are noncontroversial, things where we are not 
breaking new territory, I think we can do that in two-step. But 
where we are doing complicated and new kinds of regulations, 
then we should have the option to do three-step rulemaking, 
because that allows us to develop information and refine our 
regulatory approach to problems.
    Mr. Barrow. Well, if this is incorporated in the final 
bill, I am going to look to you all to exercise that authority 
to the fullest.
    Now I want to follow up on a subject that I raised, and 
that is the subject of financial responsibility on the part of 
people who are way outside the reach of the civil justice 
system in this country, for whom you really are the only cop on 
the beat anywhere policing a market that is dominated by 
foreign importers. The Senate has a provision, a bonding 
requirement, that basically says if you have gotten into 
trouble and messed up in the past you are going to have to post 
a bond as a condition of getting back into the marketplace. 
Well, it seems to me to be pretty silly to give people who have 
a demonstrated track record of messing up, to force them to buy 
their way back into the marketplace when we have no way of 
knowing who those people will be in advance of the trouble that 
they cause.
    What do you think about the idea of trying to impose 
financial responsibility as a condition for entering the 
American marketplace in the first place? I mean, we have lost 
the ability to hold anybody accountable for what they do. And 
whenever we have stripped away that fundamental, very 
conservative underpinning of safety in the marketplace we got 
to replace it with something or basically going to start 
subsidizing, corner-cutting in hazard-producing activity in 
markets that are beyond--by suppliers who are beyond the reach 
of the folks that they harm. What do you think about something 
like that?
    Ms. Nord. I would like to understand better how that would 
work, and perhaps we can sit down and talk about that. I would 
like to see a model for where that has worked in other areas.
    Mr. Barrow. I will tell you what my words were. You can't 
get a license to drive a car in this country without complying 
with a financial responsibility to law in the State where you 
want to get your license. And it is not to protect you from 
other people, it is to protect other people from you.
    Now, why don't we apply a similar mentality to folks who 
want to not just come into a marketplace but dominate our 
marketplace? Why don't we tell the manufacturers who got 80 to 
90 percent of the market in this country that as a condition of 
you doing business in this country we are going to make sure 
that you do it right. The goal--what I am getting at is the 
goal ought to be that if it is bought and sold in the USA, it 
is going to be just as safe as if it was made in the USA.
    Ms. Nord. Well, that is a goal that I think is admirable 
and agree with.
    Mr. Barrow. How can we possibly accomplish that if you all 
are the only cop on the beat with respect to a market that has 
gone from 80 percent we make it in this country to 80 percent 
it is made someplace else and shipped into this country in 
containers in a vast stream of commerce?
    We channel to Mississippi, out of its channel and it is 
going north instead of south. I mean, it is that big a change 
in the stream of commerce, and we got nothing, nothing policing 
it except you guys, and you guys were never designed to be the 
end-all, be-all and certainly don't have the resources to do 
that.
    Ms. Nord. Well, yes. But I think practically what you are 
suggesting may have untoward or unexpected consequences, 
especially on small businesses.
    Mr. Barrow. I am sure it will, but so has the current 
process of basically outsourcing the supply of stuff without 
outsourcing any of the compliance regime that we take for 
granted.
    Mr. Rush. The gentleman's time has expired.
    The Chair recognizes the gentleman from Texas, Mr. Burgess.
    Mr. Burgess. Thank you, Mr. Chairman.
    Chairman Nord, currently within your agency what type of 
outreach do you do to notify nonprofits and other secondhand 
retailers when you have a product recall?
    Ms. Nord. Each recall, of course, is different, and each 
recall has an outreach program which is specific to that 
recall. But what we do at a minimum is we require notice on the 
Web site, we require posters, we require notification of 
consumers to the extent that the company knows the consumer, 
and then we put other requirements on as needed.
    Are you talking about older products.
    Mr. Burgess. Anything that might be available for sale at 
Goodwill, Salvation Army. I have got several--I have got 
Christian Community In Action. It is a huge resaler in my area. 
I am also concerned with things on Craigslist and eBay and 
things like that.
    Ms. Nord. I think the best example is our Neighborhood 
Safety Network, which is something we have developed, which is 
those kinds of groups. And we use them to leverage, to talk to 
other kinds of groups. So we do give notice to them and work 
with them for them to talk to their constituents.
    Mr. Burgess. So can nonprofits sign up for an e-mail alert 
through CPSC's Web site?
    Ms. Nord. Yes. We have a Drive to 1 Million program where 
people can go to CPSC dot-gov and sign up to get recall notices 
sent directly to their e-mail in-boxes.
    Mr. Burgess. And then what kind of outreach right now is 
ongoing to the nonprofits themselves?
    Ms. Nord. Again, it depends on specifics. But, for example, 
with children's products we on a very regular basis do a crib 
recall round-up. We go out and talk to daycares.
    The other thing that I think is very important here is that 
we notify all the State governors' offices and attorneys 
general's offices. A number of States have laws that prohibit 
the sale of recalled products or the use of recalled products, 
and that is another way that we can get the word out to local--
--
    Mr. Burgess. So the States have actually involved 
themselves in the lawmaking process?
    Ms. Nord. We have a number--every State has got a CPSC 
deputy, if you will, and we work with them.
    Mr. Burgess. Can this equity then be translated into, say, 
having a retailer like Craigslist or Ebay post a banner ad on 
their Web site to check the product with CPSC for recall 
information before you buy it?
    Ms. Nord. They have been reluctant to do that. But we do 
have programs with them to make sure that they do not sell 
recalled products.
    Mr. Burgess. So you do? Do you have ongoing surveillance on 
these sites?
    Ms. Nord. Yes, we do.
    Mr. Burgess. That's very good.
    Going back to the stuff I was talking about in the opening 
statement, the stuff about with the Food and Drug 
Administration, we are going to have legislation there; and I 
have added my own legislation that would allow the commissioner 
of the Food and Drug Administration just simply arrest, stop, 
and cease delivery of a product into this country if we found 
there to be a serial violation of this country's safety 
standards. And this is in regard to food products. Would such a 
system be helpful to CPSC as well?
    Ms. Nord. Well, I think--yes, I think that we should be 
looking at tools whereby we can get to repeat offenders. But I 
think in the bill the provision that makes it a crime to sell 
recalled products is going to be very helpful.
    Mr. Burgess. It is helpful, but I am not sure it is good 
enough. Because all summer we heard recall after recall. It 
sounded like a recall emergency to me. I mean, you couldn't 
even turn on Lou Dobbs without them flashing something up there 
about this is recalled today and what is going to be recalled 
tomorrow.
    And then we heard testimony in another part of one of our 
hearings where the stuff is just accumulating. And if it is 
stuff with lead in it and there is no plan to dispose of the 
stuff, it seems to me to be only reasonable to stop the stuff 
before it gets here. Once we decide that, OK, it is coming in, 
this is a repeated violation from the same country that has 
repetitively violated our laws in the past and let us just stop 
it, let us make the ships turn around in the middle of the sea 
if necessary and keep that stuff from coming into Long Beach, 
California.
    Ms. Nord. Again, I agree with the goal that you are trying 
to get to. But what we need to make sure is that we can 
identify these products, and that is going to take place in a 
number of different ways. I just mentioned one. Another one is 
that Customs and Border Protection is working with us on their 
Automated Commercial Environment system so that we have got 
those records before the ship hits the dock, and that is what 
we need.
    Mr. Burgess. Do you have it before the ship leaves the port 
from Shanghai or wherever?
    Ms. Nord. Yes.
    Mr. Burgess. So, right now, are you able to deny admission 
of an imported product from a specific country, manufacturer or 
shipper if there are repeated instances where they have 
violated our laws or they have shipped contaminated product to 
our country?
    Ms. Nord. No, we would----
    Mr. Burgess. The answer is no?
    Ms. Nord. Yes.
    Mr. Burgess. Yes, the answer is no.
    Ms. Nord. The answer is no.
    Mr. Rush. Do you want to answer the question?
    Ms. Nord. Well, we can prohibit importation if it violates 
a safety standard or if we have reason to think that it is 
going to be a dangerous product.
    Mr. Burgess. And are there any products recently where we 
have done that?
    Mr. Rush. The gentleman's time has expired.
    The Chair now recognizes the gentlelady from--Mr. Markey 
just walked in. The Chair recognizes the gentleman from 
Massachusetts, Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman, very much.
    Chairman Nord, in 1981, the Gramm-Latta bill passed, and it 
was the budget proposal of Ronald Reagan. And in it there was a 
little provision under the Phil Gramm part of the bill that 
actually took jurisdiction away from you over fixed-site 
amusement parks denying you an authority, which your agency had 
up until then.
    Ms. Nord. Yes.
    Mr. Markey. If we add language to this bill which gives you 
that authority back, will you exercise that authority to 
protect families as they go from State to State into amusement 
parks if there is an accident, to go in and investigate?
    Ms. Nord. If you give us the authority, we will enforce it. 
But I would also request that you give us the resources to 
enforce it as well.
    Mr. Markey. Well, you need more resources. There is no 
question about it. But I think you also need the authority. I 
think the resources will follow the authority, and so that 
would be my intention.
    There was a little loophole built in here, OK? And there 
were no hearings. You had the authority. It had been working 
very well. And so that is kind of still a historical disgrace 
as far as I am concerned in terms of taking the authority away 
from your agency.
    Now, let me ask this. When you get reports of potentially 
hazardous products from consumers, hospitals or companies, does 
CPSC enter them into a publicly available database so that 
people can search through them before they can buy the product?
    Ms. Nord. Gosh, we are talking about well over half a 
million reports.
    Mr. Markey. So the answer is no?
    Ms. Nord. No, we don't.
    Mr. Markey. The answer is no.
    According to the Chicago Tribune, in 2005, the CPSC 
investigated less than 1 percent of all reports it got from 
emergency rooms. But once you do investigate and decide the 
public needs to be warned, can you immediately send out a press 
release?
    Ms. Nord. If the Commission determines that there is an 
imminent hazard and we need to do that, we can.
    Mr. Markey. Under the law, don't you have to give 30 days 
so a company can sign off?
    Ms. Nord. We need to give 30 days to get comments on the 
fairness and accuracy of that. But under our imminent hazard 
provision, if we make that determination, we can proceed.
    Mr. Markey. And can a manufacturer----
    Ms. Nord. Or if we file a complaint, we can proceed.
    Mr. Markey. Can a manufacturer actually sue CPSC to prevent 
you from issuing a warning at all?
    Ms. Nord. If they can show that what we are proposing to 
put out there is inaccurate.
    Mr. Markey. What if it is not inaccurate, can they sue you?
    Ms. Nord. They can sue us. They probably wouldn't win.
    Mr. Markey. So the Commission gets injury reports that it 
almost never investigates and that it also keeps secret from 
the public. And if the Commission does want to tell the public 
about a risk, it has to ask the company's permission to do so; 
and if the company objects, the Commission can be sued. That 
is, to me, just ludicrous; and I plan in this legislation to 
ensure that the legislation we report remedies that grave 
problem.
    Commissioner Moore, could you deal with that question and 
whether or not it makes any sense to have that provision remain 
on the books?
    Mr. Moore. I know I missed your point. I'm sorry. Would you 
mind repeating the question?
    Mr. Markey. I cannot hear you, sir.
    Mr. Moore. Would you mind repeating the question? I missed 
the question.
    Mr. Markey. The question is, should we take that law off 
the books that requires the Commission to ask the company's 
permission before public information is made about a defect 
which the CPSC finds?
    Mr. Moore. I don't think it is unreasonable to let a 
company know what the charge is about to be. But, in the 
meantime, it depends on the imminence of the hazard. If it is 
something that is extremely imminent and it is very hazardous, 
we have to move forward. Companies ought to have an opportunity 
to respond to it.
    Mr. Markey. Do you support the current law allowing 
companies to sue CPSC to prevent information from being 
disclosed?
    Mr. Moore. No.
    Mr. Markey. You do not?
    Mr. Moore. No. Because I don't think that is in the 
public's interest in many cases.
    Mr. Markey. That is very helpful to me. Thank you. I 
appreciate it.
    I yield back the balance of my time, Mr. Chairman.
    Mr. Rush. The Chair recognizes the gentlelady from 
Colorado, Ms. DeGette.
    Ms. DeGette. Thank you, Mr. Chairman.
    I want to express my appreciation for both of our witnesses 
coming today, because I do think that many of your suggestions 
are very helpful in helping us draft this legislation.
    Chairman Nord, I want to talk to you briefly about this 
travel issue; and I just--I think that we can come to some kind 
of agreement on this because I have been on this committee now 
for a long time. And we have had people come in and they say, 
well, lawyers approved this and this has been the practice. But 
sometimes when that happens no one actually sat back and said, 
wait a minute, does this really pass the smell test even though 
people have been doing it?
    And mores have changed in society, too. Members of Congress 
used to fly around on the tab of private industry, and now we 
have realized that that has the appearance of impropriety. So 
really my question to you--and it follows up on what Ms. 
Schakowsky----
    Well, before I ask my question, I want to make one more 
point, which is, in fact, many other Government agencies do not 
allow regulated industries to pay for travel. For example, the 
Securities and Exchange Commission does not accept host-paid 
travel reimbursements from organizations regulated by the 
agency. The Food and Drug Administration also does not do that, 
and neither does the Federal Communications Commission.
    So my question to you simply is, given the changing mores, 
given what is going on, if Congress gave the agency a budget 
for travel to inspect these important areas, to look at, to go 
to the toy show, to look at these things, if you had an 
independent budget to do that, I assume you would not object to 
us also banning host-paid travel, correct?
    Ms. Nord. Of course.
    Ms. DeGette. Thank you very much. I think that solves that 
situation right there.
    I also want to ask you about these recalls, Chairman Nord. 
Because in my opening statement I am sure you heard me say that 
we had 150 recall notices for children's products and toys this 
year, 90 last year, and 60 going back to 2002. In your opening 
statement you had disputed those numbers. But the way we got 
those numbers was my staff went to the CPSC Web site and 
actually counted the number of recalls. And maybe it is because 
you are defining it more narrowly. You are only defining toys, 
and I am defining children's products and toys. And your staff 
is now nodding in agreement.
    Ms. Nord. I am hearing from them.
    Ms. DeGette. But the basic bottom line is that my point is 
that the recall notices for this category, children's products 
and toys, are going up. I think that it is likely because we 
have so many increasing imports coming in from abroad. Would 
you not agree with that?
    Ms. Nord. No, I don't think I would in this respect. Our 
overall recalls inch up every year, and that is what you would 
expect them to do. And I looked at and stated in my statement 
toys--and we defined that very specifically--where we have seen 
the recalls go up is with respect to the lead paint violations.
    Ms. DeGette. Right.
    Ms. Nord. And that is where we have seen a big increase. 
That is because of what we have been doing.
    Ms. DeGette. Do you think a large part of that is because 
we are getting an increasing percentage of our toys from 
abroad, in particular from China? Your staff--some of them are 
also nodding.
    Ms. Nord. Indeed. The lead paint violations, by and large, 
were for Chinese-manufactured products.
    Ms. DeGette. Right. And that is because the market has 
shifted, right?
    Ms. Nord. Yes.
    Ms. DeGette. So this is another point I'd like to make, 
which is I think that the best way to stop the kids from 
getting these--I like this one. This one just says stop; and 
this one has lead in it, too. This is one of the recalled 
Thomas the Tank Engine toys. The way to stop these toys from 
coming in is to prevent the lead in the first place. Because I 
am sure you will agree all the studies show a tiny fraction of 
recalled toys are actually ever returned. So would you agree 
with me that the way to stop this would be to prevent the toys 
from coming in in the first place, if we could?
    Ms. Nord. Well, that is what we were doing with the recall. 
I mean, we have got a lead paint ban.
    Ms. DeGette. Except for when you do a recall, the toys are 
already out in the market and in the homes. So if you could 
find some way--and I think you testified about this in your 
testimony. If you could find some way to prevent the toys from 
coming into the homes in the first place, then you wouldn't 
still have these toys in actually fairly sophisticated 
consumers' homes.
    Ms. Nord. Well, my concern is that the provision in the 
bill is really not going to change that issue, because the lead 
that was coming in was above what was already violative of the 
law.
    What we need to make sure is a couple of things: First of 
all, the certification authority which I have asked for which 
we do not have now with respect to these kinds of toys would be 
incredibly helpful, because what it would do is force companies 
to really look at these things before they are marketed.
    Ms. DeGette. Right. That is what I am saying.
    Ms. Nord. Then we are saying the same thing.
    Ms. DeGette. Then you agree. OK, great, thank you.
    Mr. Rush. The Chair recognizes the gentleman from Texas, 
Mr. Gonzalez.
    Mr. Gonzalez. Thank you very much, Mr. Chairman.
    Chairwoman Nord, I want to follow up on something that 
Congressman Markey was pointing out. This 30-day requirement, 
unless there is some exigent circumstances, that is mandatory, 
right? The 30-day notice that the manufacturers or whoever is 
responsible for bringing the toy in----
    Ms. Nord. No. Basically what the statute says is that 
before we disclose information that identifies a manufacturer 
and a product specifically, we give the manufacturer 30 days 
notice to make sure--to verify the accuracy of what we are 
going to put out there.
    Mr. Gonzalez. Do you really need 30 days for that?
    Ms. Nord. No, of course you don't.
    Mr. Gonzalez. Do you have discretion to reduce the time 
period?
    Ms. Nord. Yes, we do.
    Mr. Gonzalez. You do?
    Ms. Nord. We do. Your bill changes that from 30 days to 15 
days and then gives us discretion as well.
    Mr. Gonzalez. So you agree with that?
    Ms. Nord. Yes.
    Mr. Gonzalez. So it seems to me that--if they protest or 
whatever, they can actually sue you at that point?
    Ms. Nord. They can seek to stop the release by going to 
court.
    Mr. Gonzalez. So they can sue you prior to determination?
    Ms. Nord. Yes. They would go into court----
    Mr. Gonzalez. If you do make a determination, they can sue 
you after the determination is made?
    Ms. Nord. I am sorry?
    Mr. Gonzalez. I am saying that prior to you making any type 
of determination, the process of arriving at a decision, they 
can come and legally file suit contesting this process, in 
essence, that you are going to identify them as a manufacturer 
wherever it is of potentially dangerous toy--I am trying to get 
it straight as to where--at what point in time can a 
manufacturer come in and sue you? From the start the process?
    Ms. Nord. We would let them know what information we would 
disclose. They would come back and say it is inaccurate. We 
would say, apparently, under your scenario, we are still going 
to release it. At that point, they could then go into court and 
seek a temporary restraining order, or whatever is the 
appropriate legal device to try to stop it.
    Mr. Gonzalez. So they can sue you prior to you making the 
determination public?
    Ms. Nord. Yes, assuming the court is willing to hear the 
case. That is a court procedure, not our procedure.
    Mr. Gonzalez. Let's say they don't file a lawsuit in that 
process but then you make that determination, you issue 
whatever you are going to issue regarding the danger and the 
manufacturer and so on, and they disagree that you should have 
done that. Can they then come back and do anything after the 
fact?
    Ms. Nord. They would be suing--or they would be protesting 
our action in releasing the documents. So at that point I don't 
think there would be any cause of action. But, frankly, I would 
really like my lawyers to respond to these questions.
    Mr. Gonzalez. Well, it leads me up to something that you 
have in your testimony. Legislation also includes a more than 
five-fold increase in the cap on CPSC's civil penalties.
    Ms. Nord. Yes.
    Mr. Gonzalez. So we have increased the exposure in the way 
of dollar penalties to these individuals, these companies.
    Ms. Nord. Yes.
    Mr. Gonzalez. And you have said this is a reasoned approach 
to increasing the agency's civil penalties and strengthening 
the agency's hand.
    Ms. Nord. Yes.
    Mr. Gonzalez. What troubles me is the following: Without 
forcing the CPSC to respond to a flood of litigation--what you 
are saying is that it is a reasonable increase. But, if we went 
beyond it, you would think there would be all this protest from 
the manufacturers and you would have all these lawsuits. Is 
that what you mean?
    Ms. Nord. If could I expand on my answer for just a moment.
    Mr. Gonzalez. Sure.
    Ms. Nord. The agency imposes civil penalties in 99 percent 
of the times for failure to report to us potential problems. 
That is where we use the civil penalty authority. Increasing it 
in the way that the bill does in the way the House has already 
passed it would, I think, give us a tool we need. But what our 
compliance officers are concerned about is that if it were 
increased many, many, many times, that companies would 
basically flood us with data so that the trees would get lost 
in the forest and that way we would not be able to do our job. 
And that is what----
    Mr. Gonzalez. It would flood you with litigation is your 
testimony?
    Ms. Nord. It would flood us with data----
    Mr. Gonzalez. In the context of a lawsuit?
    Ms. Nord. No, no, of course not.
    Mr. Gonzalez. Respond to a flood of new litigation. That is 
what you are saying.
    See, what I am saying is, don't worry so much about a flood 
of new litigation. If you have tools and penalties that get 
people's attention, then that is all right. I am just concerned 
about a flood of new litigation, and I just don't want any 
hesitancy on the part of the Commission to be tough and not be 
fearful of litigation.
    Ms. Nord. Well, what I am concerned about there, sir, is 
that if the exposure is $100 million or more, people are not 
going to sit and work with us. Instead, they are going to fight 
us. So our resources are going to be diverted into court cases, 
as opposed to dealing with companies to try to resolve 
disputes; and I just don't think that would be good----
    Mr. Gonzalez. I am going to disagree with you. Because I 
think when the penalties are out there and they are stiff, it 
gets people's attention. That is the way the system has worked 
in this country for over 200 years.
    Mr. Rush. The gentleman's time has expired.
    The Chair recognizes the gentlelady from Oregon.
    Ms. Hooley. Thank you, Mr. Chairman.
    I just need some clarification from you. I was talking to a 
fairly large chain store, and I asked them about what goes on 
their shelves and how do they make sure that the toys are safe 
and the products safe. And they went on to tell me how they go 
to the manufacturer, wherever the manufacturer is, and ensure 
that they are safe before they even reach our shores and reach 
their shelves. So they have full confidence that what they are 
selling is safe.
    So my question is, if a chain store can do that, can your 
agency do that to test these toys? I mean--and I am, as you 
know, very concerned about the lead in toys for children. Can 
your agency make sure that these toys are tested before they 
leave the country where they were manufactured so we don't even 
have to get into the recalls?
    I mean, as you have heard said today, if a toy is recalled, 
the problem is a parent doesn't really know--it may be sitting, 
you know, in an old box where, if you have a lot of kids, you 
stuff toys over here and save them for the next child. So can 
we stop them from coming into the country in the first place?
    Ms. Nord. Our agency does not have premarket testing and 
certification requirements. I have asked the Congress to 
include legislation that would give us the authority to require 
that companies certify that they are complying with existing 
safety standards. If companies did that, that would then force 
the testing to occur; and I would like to see that authority in 
this legislation.
    Ms. Hooley. Do you think the bill as it is currently 
written has that authority?
    Ms. Nord. No, it does not. I would like to see that 
authority.
    Ms. Hooley. OK. Second question I have--so there is a way 
to do that if we give you the authority to do that?
    Ms. Nord. Certification authority would be very helpful.
    Ms. Hooley. OK. The second question I have is, you have 
testified in the Senate, you have testified before in this 
committee, and I have heard sort of this--well, we don't need 
the money; well, we need the money; well, we don't need--so I 
just need to know, where are you in terms of what do you need 
to do the job to the very best of your ability? I mean, I 
understand that it is difficult to go out and hire 400 people 
or 200 people at a time. But what are we talking about? What is 
the amount of money that it is going to take for to you really 
do your job?
    Ms. Nord. I have said repeatedly, and I will say it again, 
I would welcome more resources. I want more money.
    Now, with respect to the specifics, what we did when this 
committee passed out the previous legislation is our 
administrative staff sat down and priced it out, if you will. 
What we found was, in order to comply with that, we are going 
to need--I believe it was around--someplace between 35 and 38 
additional staff and about $6 million additional. I did the 
same thing with the Senate bill, and that was much higher. We 
will do that with this bill as well, and we will do it very 
quickly.
    Ms. Hooley. OK. And then the last question I have for you 
is, again, when you were testifying in front of the Senate 
committee that you said you opposed the whistleblower 
provision; and you talked about this would drain resources. Do 
you have any economic data on that? And, if so, what is it? And 
is there any whistleblower provisions that you would, in fact, 
be for?
    Ms. Nord. One observation I would make to you, just as an 
aside, is after I sent that letter up to the Senate expressing 
my concerns there, the Senate did amend the provision. So, to a 
certain extent, they attempted to listen. I continued to be 
very concerned about it. And what I would like to do, if I 
might, is submit a memorandum to you that outlines my concerns 
in more detail, including the economic concerns.
    Ms. Hooley. OK. And is there a whistleblower provision that 
you would support?
    Ms. Nord. I would really need to see the language. I mean, 
I can't----
    Ms. Hooley. If you say you don't like what was in the 
Senate, so--and you are going to send me the economic data, 
which I would really appreciate, I guess as just opposing 
something, I would also love to know what you might support.
    Ms. Nord. Again----
    Ms. Hooley. Just send me what--I mean, just send me what 
you think you would support.
    Mr. Rush. The gentlelady's time is up.
    Ms. Hooley. Thank you, Mr. Chair.
    Mr. Rush. The Chair now recognizes the chairman of the full 
committee, Mr. Dingell.
    Mr. Dingell. Mr. Chairman, I thank you.
    Chairman Nord, first, thank you for having made your staff 
available to the committee while we wrote the legislation. They 
have been very helpful.
    I am going to submit to you a letter which I would ask 
unanimous consent, Mr. Chairman, be inserted in the record at 
the appropriate place.
    Mr. Dingell. Madam Chairman, it will be about the adequacy 
of the funds authorized to CPSC in H.R. 4040 and also the 
number of full-time equivalents and whether they would be 
adequate under the legislation and within what time frame you 
could submit those, you could put those people to work to do 
the business that has to be done down there.
    Could you give us your comments about what would be the 
practical effect of having CPSC return to a five-commissioner 
body? As you know, you are now condemned to functioning with 
two. It is my view that this would confer significant benefits 
in additional efficiency, competence and your ability to carry 
out your mission. Am I correct in that?
    Ms. Nord. I don't have any information about the relative 
merits. The Appropriations Committee did look at that in the 
late 1980s, early 1990s and reached an opposite conclusion 
which they expressed pretty strongly in the committee report 
language. So I really can't address that beyond saying that.
    Mr. Dingell. Now, Madam Chairman, would you share with us 
here your thoughts on the provisions in H.R. 4040 that would 
permit the CPSC to share information pursuant to section 6 of 
the Consumer Product Safety Act with foreign governments? Since 
we now live in a world of global commerce, do you agree that it 
makes sense under controlled conditions to share this 
information with other countries so that they and we might work 
better to ensure the public health and safety?
    Ms. Nord. I am pleased to see the provision in this bill. 
It is something I requested back in July.
    Mr. Dingell. Now, Madam Chairman, do you have any concerns 
that certain governments might not keep the information shared 
under this framework confidential?
    Ms. Nord. I think that the committee has addressed this in 
the provision.
    Mr. Dingell. That does constitute a problem, doesn't it?
    Ms. Nord. It could, yes.
    Mr. Dingell. Do you have any specific countries that would 
be of particular concern to you?
    Ms. Nord. I am not----
    Mr. Dingell. You don't think you would like to answer that 
at this time?
    Ms. Nord. Thank you.
    Mr. Dingell. I will respect that. Will it be useful for us 
to negotiate a memorandum of understanding with the European 
Union pertaining to consumer product safety?
    Ms. Nord. We already have one.
    Mr. Dingell. Do you need authority to do that?
    Ms. Nord. No, we have already done that.
    Mr. Dingell. OK. Now is there any reason why a firm should 
not provide CPSC with information concerning contractors and 
subcontractors that it uses to produce a consumer product for 
sale in the United States?
    Ms. Nord. I have not thought that through. I don't see why 
not.
    Mr. Dingell. Let's take a look at China, where we buy all 
kinds of stuff from the Chinese. We don't have the vaguest idea 
of who is producing that. We don't have the vaguest idea of 
what safety steps are being taken. Usually, the stuff is not 
scrutinized by a Chinese Government agency at any level of 
government, nor is it scrutinized indeed here at home. You have 
virtually nobody at the gates to see who is sending what in and 
whether it is safe or not. And so is there any reason why you 
should not be able to compel the importers to provide 
information with regard to contractors and subcontractors that 
are used to produce consumer products for sale in the United 
States?
    Ms. Nord. I think that makes sense. And what I am trying--
why I am hesitating is that I believe that that was part of our 
agreement with the government of China, but I would like to 
confirm that.
    Mr. Dingell. This would help you with regard to recalls, 
and it would probably in that particular alone serve to protect 
the public health and safety, would it not?
    Ms. Nord. Again, traceability is a very key concept; and it 
is something that we are working through.
    Mr. Dingell. Now, Madam Chairman, H.R. 4040 amends section 
15 of the Consumer Product Safety Act to permit CPSC to review 
and improve companies' plans for mandatory consumer product 
recalls.
    Ms. Nord. Yes.
    Mr. Dingell. In your opinion, is this a good idea?
    Ms. Nord. Absolutely.
    Mr. Dingell. Would you tell us why, please?
    Ms. Nord. Because I think it is absolutely imperative that 
we design recalls that address--reach the most consumers in the 
most effective way.
    Mr. Dingell. Could you cite examples of product recall 
plans that might have benefited otherwise from having been 
reviewed by CPSC before? I will let you submit that for the 
record, if that would be your wish.
    Ms. Nord. Thank you very much.
    Mr. Dingell. I would ask that the record remain open for 
that purpose, Mr. Chairman.
    Mr. Rush. So ordered.
    Mr. Dingell. Mr. Chairman, I notice that I am 33 seconds 
over time. Thank you for your courtesy and thank you for being 
here.
    Mr. Rush. The Chair now recognizes the gentleman from 
Arkansas, Mr. Ross.
    Mr. Ross. Thank you, Mr. Chairman; and, Chairwoman Nord, 
thank you for joining us here today.
    I, like most American citizens, believe that we have a 
Consumer Product Safety Commission to ensure the safety of 
products for consumers. It seems to me, based on a number of 
decisions and the types of recalls made, that the Consumer 
Product Safety Commission has become more of a commission to 
protect big business, a commission to protect big corporations, 
many of which are not even located or employing Americans.
    I just want to ask you--and I will give one example. I 
could give many. Just October 25--this is fairly recent. This 
is November 6--October 25, ``Serious head injuries prompt 
recall of Bumbo Baby Sitter seats. New warnings and 
instructions to be provided to consumers.''
    This Bumbo Baby Sitter seat, there is about a million of 
them out there. They are made in South Africa. They are not 
made by American workers. And the hazard, according to your 
agency, if the seat is placed on a table, countertop, chair, or 
other elevated surface, young children can arch their backs, 
flip out of the Bumbo seat and fall onto the floor, posing a 
risk of serious head injuries.
    To date, the Consumer Product Safety Commission has 
received 28 reports of young children falling out of the Bumbo 
Baby Sitter seat, including three skull fractures which 
occurred when children fell out of chairs that had been placed 
on tables.
    I am somewhat familiar with this, because my colleague from 
Arkansas, Congressman Vic Snyder, has a young child, Penn; and 
when Penn was less than a year old, they purchased this Bumbo 
Baby Sitter seat. The picture on the box illustrates that it is 
something you should buy if you want to set your young child on 
the kitchen countertop, the kitchen island, many people refer 
to it as, while you are cooking, while you are working in the 
kitchen. That was the picture depicted on the box to market 
this thing, the Bumbo Baby Sitter seat.
    And Penn fell out of it. Thank God, he didn't fall off the 
kitchen island. Instead, he smushed his face into the towel on 
the kitchen island. He wasn't seriously injured. No telling 
what could have happened had he fallen all the way to the 
floor.
    But Congressman Snyder's concern and my concern is that 
this product was not recalled. They saw it on the news; and, 
like many Americans, they assumed it had been recalled. They 
went back to where they bought it from, and the guy at the 
store was very nice and very courteous, and he explained to 
them, oh, no, the Consumer Product Safety Commission did not 
recall the product. The Consumer Product Safety Commission 
recalled the box.
    Now that is not exactly what you did. But you basically--
here is your remedy. The box is what consumers were buying. 
They were buying it for its intended purpose, and now they are 
told they can't use it in that way. But the product was not 
recalled, which to me was siding with big business instead of 
siding with the consumer.
    When you go out to the store and you buy something, you buy 
it based on what the box tells you it will do. It was bought 
for one thing, and now you are telling folks it can be used for 
another thing.
    Here is the remedy. Consumers should never use the infant 
seat on a table, countertop, chair or other elevated surface. 
Consumers can contact Bumbo to obtain new warning labels, 
stickers and instructions free of charge. The new warning label 
will state, ``Warning: Prevent falls. Never use on any elevated 
surface. Consumers should use the Bumbo seat at ground level 
but never leave a child unattended.''
    Twenty-eight injuries, three skull fractures. There is a 
lot of Penns out there--a million of them--that have one of 
these; and so the Consumer Product Safety Commission is now 
telling parents that when a child is in his Bumbo seat on a 
table, countertop, chair or other elevated surface, the young 
child may very well arch their backs and flip out of the Bumbo 
seat. But apparently if the Bumbo Chair is on the floor, 
something happens to the child where they are no longer able to 
arch their backs and flip out of the Bumbo seat onto the floor.
    We are talking about young children. We are talking about 
infants. And yes, if they fall from a kitchen island it could 
very well kill them--28 injuries, three skull fractures. But 
what about the children that are simply sitting in this on a 
hardwood floor or on a concrete patio? So are you saying that 
if they are sitting on the hardwood or concrete patio, 
something is going to keep them from arching their backs or 
flipping out of the seat?
    I guess what I am getting at is, what type of tests--and I 
am assuming there were enormous testing done by the Consumer 
Product Safety Commission before siding with Bumbo 
International in South Africa. What kind of tests were done to 
ensure that if a child does very well arch their back and flip 
out of the Bumbo seat onto the concrete patio or onto a 
hardwood floor that no injury whatsoever is going to occur?
    Ms. Nord. The issue with the Bumbo baby seat was one 
whereby the instructions that were given for use--and that is 
that the company said in their instructions, do not use this on 
an elevated surface; nevertheless, they put it on the box. And 
that is absolutely wrong, and it needs to be corrected, and 
that is what we were doing.
    The injuries that occurred happened when the parent put the 
child in the seat and the child wiggled or came out of the seat 
and fell off the elevated surface onto the ground. That is the 
injury. And that is why we took the action we did.
    You cannot have a situation where a company says in its 
product instructions, don't use this on an elevated surface, 
but then has packaging that shows that warned-against behavior. 
I mean, we can't allow that; and that is why we took the action 
we did.
    Mr. Ross. Which was simply slapping them on the wrist, 
rather than recalling the product.
    Ms. Nord. That is not correct, sir.
    Mr. Rush. The gentleman's time has expired.
    The Chair and the members of the subcommittee really thank 
the two witnesses for their participation today. You have been 
very, very generous with your time, and we certainly appreciate 
it, and we look forward to working with you into the future.
    The committee now will ask that this panel disassemble and 
that the second panel please assemble.
    We have as a member of the second panel Ms. Kathrin 
Belliveau. She is the director of public safety and regulatory 
affairs for Hasbro Inc., with corporate headquarters in 
Pawtucket, Rhode Island. Hasbro is the No. 2 manufacturer after 
Mattel of toys and games in the world, with annual sales of 
more than $3 billion. Its toys and brands include Playskool, 
Tonka, Super Soaker, Milton Bradley and Parker Brothers.
    Sitting next to Ms. Belliveau is Dr. Dana Best, M.D., 
M.P.H., American Academy of Pediatrics. Dr. Best is on the 
faculty of the George Washington University School of Medicine 
and attends in pediatrics at Children's National Medical Center 
here in our Nation's capital. Her research focuses on lead 
exposure of pregnant women and children living in the District 
of Columbia.
    Sitting next to Dr. Best is Mr. Lane Hallenbeck, the vice 
president, accreditation services, American National Standards 
Institute, ANSI. ANSI is a not-for-profit organization that 
accredits national standards to developing organizations and 
improves American national standards. It brings together 
organizations from both the private and public sector dedicated 
to furthering U.S. and international voluntary consensus 
standards and conforming to assessments.
    Sitting next to Mr. Hallenbeck is Mr. Alan Korn, public 
policy director and general counsel, Safe Kids Worldwide. Safe 
Kids Worldwide is a global network of organizations whose 
mission is to prevent accidental childhood injury, the leading 
killer of children 14 and under. Within the United States, Safe 
Kids USA consists of more than 300 coalitions nationwide, 
implements public outreach and awareness campaigns, conducts 
hands-on grassroots activity and works to make childhood injury 
prevention a public policy priority.
    Sitting next to Mr. Korn is Mr. Joseph M. McGuire, who is 
the president of the Association of Home Appliance 
Manufacturers, AHAM, tested on behalf of the National 
Association of Manufacturers. AHAM is the United States-based 
trade association of the home appliance manufacturing industry. 
Its members include the manufacturers of major portable and 
floor care home appliances and the companies who supply and 
service these manufacturers.
    And next to Mr. McGuire is Ms. Rachel Weintraub. She is the 
director of product safety and senior counsel for the Consumer 
Federation of America. The Consumer Federation of America is a 
not-for-profit organization, association of 300 consumer 
groups, with a combined membership of over 50 million people. 
CFA was founded in 1968 to advance consumer interests through 
advocacy and education.
    We will now recognize Ms. Belliveau for 5 minutes of 
opening statements.

 STATEMENT OF KATHRIN BELLIVEAU, DIRECTOR, PRODUCT SAFETY AND 
                REGULATORY AFFAIRS, HASBRO, INC.

    Ms. Belliveau. Thank you, Mr. Chairman and members of the 
subcommittee. Thank you for giving me the opportunity to 
provide testimony on H.R. 4040, the Consumer Product Safety 
Modernization Act of 2007. On behalf of Hasbro, I would like to 
express our appreciation to the members of the committee and 
your staffs for your bipartisan efforts to address consumer 
product safety issues.
    Hasbro is a worldwide leader in the design and manufacture 
of toys and games that are enjoyed by children and families 
both here in the U.S. and abroad. Our widely recognized brands 
include Playskool, Tonka, Milton Bradley, Transformers, Nerf 
and Parker Brothers.
    As Director of Product Safety and Regulatory Affairs at 
Hasbro and as a mother of two young girls, no issue is more 
important to me than the safety of our toys and of the children 
who enjoy them. Our product safety and quality assurance 
systems are based on a comprehensive and stringent review 
process at every stage of product development and production. 
We require that all of our products meet or exceed all 
applicable national and international standards as well as our 
own internal often more stringent Hasbro standards. And to 
ensure compliance with these standards, Hasbro's testing and 
quality control procedures have always included independent, 
third-party testing of our products.
    While Hasbro has not been impacted by the recent lead paint 
recalls, we have taken additional steps to confirm that our 
products and systems and procedures are being adhered to and 
that we are doing everything possible to make the safest toys 
for our children. We have checked 100 percent of our vendor 
base, and we have carried out over 1,000 additional 
confirmatory product tests over and above all of the tests that 
are routinely carried out by Hasbro, our retailers and third 
parties in accordance with the testing program we have had in 
place for years. We have also stepped up inspections of all 
factories manufacturing Hasbro products, both here in the U.S. 
as well as overseas.
    While nothing is more important to Hasbro than the safety 
of our toys, we recognize that no system is perfect and that, 
when it comes to a child's safety, we must continuously be 
vigilant. We are constantly looking to improve and learn from 
every situation where there is an issue related to a toy's 
safety, and we support congressional efforts to equip 
regulators with the resources and tools to ensure that our 
industry as a whole produces the safest possible products for 
our children.
    H.R. 4040 significantly tightens the regulation of toy 
safety. As you know, it sets a high bar, but by working closely 
with industry and others, the committee has crafted a framework 
that is workable while enhancing toy safety. The heart of that 
framework is a new lead content standard and a mandatory third-
party testing regime.
    This legislation creates a new and significantly lower 
limit on the total amount of lead that can be in any accessible 
part of the toy, and this limit goes down over time. As the 
committee knows, Hasbro supports reducing the current total 
lead content standard, although not to the levels currently 
envisioned in the legislation.
    The legislation also breaks new ground by proposing for the 
first time in Federal law a limit on soluble lead. We believe 
that, when combined with an appropriate total lead standard, 
the soluble limit in the bill will further enhance protection 
for children by limiting the amount of lead that a child can be 
exposed to. Therefore, we would urge the committee to consider 
combining a workable total lead standard with a 90 part per 
million soluble limit.
    Hasbro supports mandatory third-party testing. Working with 
the Toy Industry Association, we have been seeking to develop a 
rigorous third-party testing system. This system will include 
vendor audits, additional process controls and product testing. 
Products will be reviewed for conformity not only with the 
mandatory standards but the voluntary standards as well. In 
Hasbro's view, the proposed legislation strikes the right 
balance by carefully defining independence and by requiring 
that the testing entity be accredited in accordance with an 
accreditation process established or recognized by the CPSC.
    The bill also includes severe civil penalties for failure 
to report on a timely basis a potential product safety hazard 
to the CPSC. In light of these significant penalties, we think 
the law would benefit from more precise definitions covering 
responsibility of manufacturers to provide information to the 
CPSC. We also think that a standard of intent should be 
included in the bill, and we look forward to working with the 
committee on these issues.
    We have had the committee draft for a little over 4 days, 
and we are still completing a review of some of its provisions. 
We do have questions on several other provisions that we hope 
to further explore with you and the staff.
    Finally, let me again say that we at Hasbro take the safety 
of children very seriously; and we look forward to working with 
you on these and other issues as this legislative process 
unfolds. Thank you again for the opportunity to appear today.
    [The prepared statement of Ms. Belliveau follows:]

                     Statement of Kathrin Belliveau

    Mr. Chairman and Members of the subcommittee:
     Thank you for giving me the opportunity to provide 
testimony on H.R. 4040, The Consumer Product Safety 
Modernization Act of 2007. On behalf of Hasbro, I would like to 
express our appreciation to the Members of this Committee and 
your staffs for your bipartisan efforts to address consumer 
product safety issues.
     Hasbro is a worldwide leader in the design and manufacture 
of toys and games that are enjoyed by children and families 
both here in the U.S. and abroad. Our widely recognized brands 
include Playskool, Tonka, Milton Bradley, Nerf and Parker 
Brothers.
     As director of product safety and regulatory affairs at 
Hasbro, and as a parent of two young girls, no issue is more 
important to me than the safety of our toys and of the children 
who enjoy them. Our product safety and quality assurance 
systems are based on a comprehensive and stringent review 
process at every stage of product development. We require that 
all of our products meet--or exceed--all applicable national 
and international standards as well as our own often more 
stringent internal standards. And, to ensure compliance with 
these standards, Hasbro's testing and quality control 
procedures have always included independent, third-party 
testing of our products.
    While Hasbro has not been impacted by the recent lead paint 
recalls, we have taken additional steps to confirm that our 
procedures are being adhered to and that we are doing 
everything possible to make the safest toys for our children. 
We have checked 100% of our vendor base and carried out over 
1000 additional confirmatory product tests, over and above all 
the tests that are routinely carried out by Hasbro, our 
retailers and third parties in accordance with a testing 
program that has been in place for years. We have also stepped 
up inspections of all factories manufacturing Hasbro products, 
both here in the U.S. as well as overseas.
    While nothing is more important to Hasbro than the safety 
of our toys, we recognize that no system is perfect and that 
when it comes to a child's safety, we must continuously be 
vigilant. We are constantly looking to improve and learn from 
every situation where there is an issue related to a toy's 
safety. And we support Congressional efforts to equip 
regulators with the resources and tools to ensure that our 
industry as a whole produces the safest possible products for 
our children.
    Mr. Chairman, H.R. 4040 significantly tightens the 
regulation of toy safety. As you know, it sets a high bar, but 
by working closely with industry and others, the committee has 
crafted a framework that is workable while enhancing toy 
safety. The heart of that framework is a new lead content 
standard and a mandatory third party testing regime.
    This legislation creates a new and significantly lower 
limit on the total amount of lead that can be in any accessible 
part of the toy. This limit goes down over time. As the 
committee knows, Hasbro supports reducing the current total 
lead content standard, although not to the levels currently 
envisioned in the legislation. The legislation also breaks new 
ground by proposing, for the first time in Federal law, a limit 
on ``soluble'' lead. We believe that, when combined with an 
appropriate total lead standard, the soluble limit in the bill 
will further enhance protection for children by limiting the 
amount of lead that a child can be exposed to. Therefore, we 
would urge the Committee to consider combining a workable total 
lead standard with a 90 ppm soluble limit.
    Hasbro supports mandatory third party testing. Working with 
the Toy Industry Association, we have been seeking to develop a 
rigorous third party testing system. This system will include 
vendor audits, additional process controls, and product 
testing. Products will be reviewed for conformity with both 
mandatory as well as voluntary standards. In our view, the 
proposed legislation strikes the right balance by carefully 
defining independence and requiring that the ``testing entity' 
be ``accredited in accordance with an accreditation process 
established or recognized by the Commission.''
     The bill also includes severe civil penalties for failure 
to report on a timely basis a potential product safety hazard 
to the CPSC. In light of these significant penalties, we think 
the law would benefit from more precise definitions covering 
the responsibility of manufacturers to provide information to 
the CPSC. We also think that a standard of intent should be 
included in the bill. We look forward to working with the 
committee on these issues.
    Mr. Chairman, we have had the committee draft for a little 
over 4 days. We are still completing a review of some of its 
provisions. We do have questions on several other provisions 
that we hope to explore further with you and the staff.
     Finally, let me again say that we at Hasbro take the 
safety of children very seriously. We look forward to working 
with you on these and other issues as the legislative process 
unfolds.
    Thank you again for the opportunity to appear today.
                              ----------                              

    Ms. Schakowsky [presiding]. Dr. Best.

  STATEMENT OF DANA BEST, M.D., AMERICAN ACADEMY OF PEDIATRICS

    Dr. Best. Thank you, Madam Chairwoman. Good morning--or 
afternoon now. Thank you for the opportunity to testify today 
on H.R. 4040, the Consumer Product Safety Modernization Act. My 
name is Dr. Dana Best, and I am proud to represent the American 
Academy of Pediatrics.
    H.R. 4040 represents an important step towards reducing 
children's exposure to lead in consumer products. First and 
foremost, it establishes uniform Federal standards for lead 
content where none have existed. H.R. 4040 allows manufacturers 
to choose between satisfying standards either for total lead or 
soluble lead in children's products.
    The legislation also reduces the allowable lead content of 
paint from the current level of 600 parts per million to 90 
parts per million.
    The AAP further appreciates the fact that this legislation 
requires lead testing for products designed or intended for use 
by or with children up to the age of 12 years.
    The AAP congratulates the bill's sponsors on making 
significant strides toward improving the safety of children's 
products. In that cooperative and constructive spirit, the AAP 
would like to recommend 5 changes that would further strengthen 
this proposal:
    Number 1, the standards for lead exposure can and should be 
further reduced to AAP's recommendation of 40 parts per million 
in all parts of children's products.
    Number 2, H.R. 4040 should define a standard test for 
soluble lead. The results of lead tests on products can vary 
considerably depending upon the methodology used to assess 
solubility. In order to ensure that this is a meaningful 
standard that can be enforced consistently, the CPSC should be 
directed to develop a rigorous test protocol with appropriate 
opportunities for public comment. In addition, the lead 
standard that drops from 600 to 100 parts per million should 
state explicitly that it refers to total lead.
    Number 3, some of the timetables in H.R. 4040 should be 
accelerated. The standard of no more than 100 parts per million 
total lead in children's products should go into effect 
earlier, preferably within no more than 2 years. Additionally, 
no timetable is specified for the CPSC to engage in the 
necessary rulemaking to establish the standard of 90 parts per 
million soluble lead. The CPSC should be instructed to engage 
in this rulemaking on a set timetable, such as within 6 months 
to 1 year. In the meantime, the alternative standard for total 
lead should apply to all children's products.
    Number 4, given that there is no compelling reason to 
include lead in children's products, lead content should be 
banned regardless of accessibility.
    Number 5, Children's products should be defined to cover 
those designed or intended for use of children up to age 12 
years not only with regard to lead testing but related to other 
CPSC standards as well. The bill's limitation of other 
standards to products designed or intended for children under 
the age of 6 years fails to protect children age 6 to 12 years 
from hazards such as choking, sharp edges, amputation risk, 
caustic chemicals, and electrical shock. In addition, the 
legislation should not qualify this definition by requiring 
that it apply to products designed ``primarily'' for children 
of a certain age. The word ``primarily'' should be deleted from 
the bill.
    In conclusion, the American Academy of Pediatrics praises 
H.R. 4040, the Consumer Product Safety Modernization Act, as an 
important advance in protecting our Nation's children from the 
pernicious threat to health and development posed by lead. We 
look forward to continuing our dialogue and will work together 
towards our mutual goal of improving the health and well-being 
of all children.
    Thank you.
    Ms. Schakowsky. Thank you.
    [The prepared statement of Dr. Best follows:]

                      Testimony of Dana Best, M.D.

    Good morning. Thank you for the opportunity to testify 
today before the Energy and Commerce Subcommittee on Commerce, 
Trade and Consumer Protection on H.R. 4040, the Consumer 
Product Safety Modernization Act. My name is Dana Best, MD, 
MPH, FAAP, and I am proud to represent the American Academy of 
Pediatrics (AAP), a non-profit professional organization of 
60,000 primary care pediatricians, pediatric medical sub-
specialists, and pediatric surgical specialists dedicated to 
the health, safety, and well-being of infants, children, 
adolescents, and young adults. I am an Assistant Professor of 
Pediatrics at the George Washington University School of 
Medicine and an attending physician at Children's National 
Medical Center in Washington, DC. I also serve on the AAP's 
Committee on Environmental Health, which is the primary body 
within the AAP that handles lead issues.
    On September 20, I had the privilege of testifying before 
this subcommittee to present the AAP's recommendations 
regarding the lead content of toys and other children's 
products. Based upon the overwhelming scientific evidence of 
the serious danger that lead poses to children and the lack of 
a compelling need to include lead in children's products, the 
AAP recommended banning lead above trace amounts in children's 
products. The AAP advised the subcommittee to define a trace 
amount as no more than 40 parts per million. The AAP further 
recommended that a children's product be defined as one used by 
or with children under the age of 12 years in order to provide 
a standard that protects the most children possible throughout 
periods of rapid brain development.
    H.R. 4040 represents an important step toward reducing 
children's exposure to lead in consumer products. First and 
foremost, it establishes uniform federal standards for lead 
content where none have existed. Current regulations permit 
most products to contain unlimited amounts of lead in any 
component other than paint. The proposed legislation will 
ensure that children's products must be tested and conform to 
limits on lead content.
    The legislation reduces the allowable lead content of paint 
from the current level of 600 parts per million to 90 parts per 
million. As members of the subcommittee are undoubtedly aware, 
millions of toys and children's products have been recalled 
this year due to violations of the current lead standard of 600 
parts per million. That standard, established in 1978 and based 
on an outdated understanding of the harms of lead poisoning, 
should be lowered significantly. H.R. 4040 sets a standard of 
lead in paint that is approximately one-seventh of the current 
allowable level. This step will greatly enhance the safety of 
products and homes.
    H.R. 4040 allows manufacturers to choose between satisfying 
one of two standards for lead content in children's products. 
Manufacturers may choose to limit total lead content to a level 
that is initially set at 600 parts per million and is reduced 
to 250 parts per million after two years, then to 100 parts per 
million another two years later. Alternatively, manufacturers 
may choose to limit soluble lead content to 90 parts per 
million. The standards of 90 and 100 parts per million are 
significant goals which, if met, will measurably reduce 
exposure to lead in children's products.
    The Academy commends the bill's authors for establishing a 
single standard for lead in all children's products, rather 
than attempting to establish different classes of products with 
varying standards. It is critically important that all 
children's products be held to the same aggressive standards to 
protect children's health and assure parents that all 
children's products are safe.
    The AAP further appreciates the fact that this legislation 
requires lead testing for products designed or intended for use 
by or with children up to the age of 12 years. Children's 
brains develop rapidly throughout childhood, and significant 
damage can occur from lead exposure at any point during this 
time. This provision represents a vital protection for child 
health.
    The AAP congratulates the bill's sponsors on making 
significant strides toward improving the safety of children's 
products. In that cooperative and constructive spirit, the AAP 
would like to recommend five changes that would further 
strengthen this proposal:
     The standard for lead exposure can and should be further 
reduced to AAP's recommendation of 40 parts per million in all 
parts of children's products. We can reduce or prevent damage 
to children's brains by lowering the lead standard to AAP's 
recommended level.
     H.R. 4040 should define a standard test for ``soluble'' 
lead. The results of lead tests on products can vary 
considerably depending upon the methodology used to assess 
solubility. Further, the relationship of solubility to 
bioavailability and absorption will vary by method used to 
determine solubility. In order to ensure that this is a 
meaningful standard that can be enforced consistently, the 
Consumer Product Safety Commission should be directed to 
develop a rigorous test protocol with appropriate opportunities 
for public comment. In addition, the lead standard that drops 
from 600 to 100 parts per million should state explicitly that 
it refers to total lead.
     Some of the timetables in H.R. 4040 should be accelerated. 
While the standard limiting lead in children's products to 100 
parts per million is laudable, it does not take effect until 
four years after enactment. The standard should go into effect 
earlier, preferably within no more than two years. 
Additionally, no timetable is specified for the Consumer 
Product Safety Commission to engage in the necessary rulemaking 
to establish the standard of 90 parts per million soluble lead. 
The CPSC should be instructed to engage in this rulemaking on a 
set timeframe, such as within six months to one year. In the 
meantime, the alternative standard for total lead should apply 
to all children's products.
     Given that there is no compelling reason to include lead 
in children's products, lead content should be banned 
regardless of accessibility. If an accessibility standard is 
included, it should state explicitly that paint, coating or 
electroplating do not render lead inaccessible. The Commission 
should establish parameters for this exception by rulemaking 
and review them periodically, especially as lead-free 
alternatives become available.
     Children's products should be defined to cover those 
designed or intended for use of children up to age 12 years not 
only with regard to lead testing, but related to other CPSC 
standards as well. The bill's limitation of other standards to 
products designed or intended for children under the age of 6 
years fails to protect children age 6 to 12 years from hazards 
such as choking, sharp edges, amputation risk, caustic 
chemicals, and electrical shock. In addition, the legislation 
should not qualify this definition by requiring that it apply 
to products designed ``primarily'' for children of a certain 
age. The word ``primarily'' should be deleted from the bill.
    In conclusion, the American Academy of Pediatrics praises 
H.R. 4040, the Consumer Product Safety Modernization Act, as an 
important advance in protecting our nation's children from the 
pernicious threat to health and development posed by lead. We 
look forward to continuing our dialogue and our work together 
toward our mutual goal of improving the health and well-being 
of all children.
                              ----------                              

    Ms. Schakowsky. Mr. Hallenbeck.

  STATEMENT OF LANE HALLENBECK, VICE PRESIDENT, ACCREDITATION 
        SERVICES, AMERICAN NATIONAL STANDARDS INSTITUTE

    Mr. Hallenbeck. Thank you, Madam Chair.
    As noted, my name is Lane Hallenbeck; and I am Vice 
President of Accreditation Services for the American National 
Standards Institute, or ANSI. My responsibilities at ANSI 
include directing accreditation programs that assess the 
competence of third-party conforming assessment bodies. In lay 
terms, this means I work with organizations that determine 
whether products, services, systems or people comply with 
requirements found in voluntary standards or mandatory 
regulations.
    ANSI is coordinator of the U.S. private-sector-led and 
public-sector-supported standards and conformity assessment 
system. In this role, we work with a broad range of industries. 
We speak as the U.S. voice in standardization forums around the 
globe; and, through our network of members, we represent the 
interests of more than 125,000 organizations and companies and 
3\1/2\ million professionals worldwide.
    During its 9-year history, the Institute has demonstrated a 
unique ability to bring together diverse stakeholders in a 
spirit of cooperation and collaboration. Among other things, we 
have successfully teamed with the Council of Better Business 
Bureaus to tackle identity theft, partnered with the 9/11 
Commission and the DHS to address some urgency preparedness in 
homeland security, and helped Health and Human Services to 
develop a secure electronic health record for every American. 
In all our efforts, protecting the safety of consumers has been 
of paramount importance. It is a key element of the Institute's 
mission, and we are committed to its implementation.
    Earlier this year, the Toy Industry Association asked ANSI 
to help them design a program of testing inspection and 
education that could be implemented across the industry's 
global supply chain. ANSI responded with a 3-point proposal.
    First, we would help the toy industry analyze existing 
standards, technical regulations and conformity assessment 
programs. Next we would form technical working groups and 
coordinate their efforts to design testing and inspection 
methodologies. And, finally, we would recommend steps to 
improve compliance activities throughout the toy industry's 
global supply chain.
    TIA accepted this proposal, and I along with several ANSI 
colleagues have begun working with the Association and its 
members 2 months ago. Almost immediately we agreed that two 
criteria were necessary for success in the global marketplace: 
common product requirements and harmonized test methods. Our 
solutions will draw from a toolbox of conformity assessment 
resources, not just testing and inspection but also systems 
auditing, accredited certification programs and, of course, 
education and training.
    The program we are developing will be committed to 
improving product safety, not just reducing the number of 
recalls. It will be sustainable and forward looking to 
anticipate and prevent problems yet unknown. It will be 
considerate of all types of suppliers, regardless of size or 
location; and it will support the concept of one standard, one 
test accepted everywhere.
    We are making great progress. There are three groups on 
process control, testing and reporting and design; and they are 
meeting on a weekly basis. During biweekly teleconference, they 
report to a steering committee I Chair that is comprised of 
working group leaders and representatives of consumers, the 
U.S. Government and staff from both ANSI and TIA.
    Recommendations from the working groups and steering 
committee are targeted for broad review and approval, including 
a public comment period and formal review and endorsement by 
TIA before year end. Implementation is expected to begin in 
early 2008.
    Government, industry and consumers need to work at a single 
purpose if we are to restore marketplace confidence in imported 
goods. Regulatory bodies that lead oversight and regulation for 
consumer health and safety issues will not be able to handle 
the workload alone. ANSI is proud to help coordinate the 
public-private partnership.
    Thank you, and I welcome your questions.
    [The prepared statement of Mr. Hallenbeck follows:]

                      Statement of Lane Hallenbeck

    The American National Standards Institute (ANSI) is a 
private non-profit organization whose mission is to enhance 
U.S. global competitiveness and the American quality of life by 
promoting, facilitating, and safeguarding the integrity of the 
voluntary standardization and conformity assessment system. 
ANSI's membership is comprised of businesses, professional 
societies and trade associations, standards developers, 
government agencies, and consumer and labor organizations. 
Through this network of members, the Institute represents the 
diverse interests of more than 125,000 companies and 
organizations and 3.5 million professionals worldwide.
    ANSI is the official U.S. representative to the 
International Organization for Standardization (ISO) and, via 
the U.S. National Committee, the International Electrotechnical 
Commission (IEC), and is a U.S. representative to the 
International Accreditation Forum (IAF). A memorandum of 
agreement between ANSI and the Commerce Department's National 
Institute of Standards and Technology outlines a mutual 
understanding of the roles of each organization. This includes 
ANSI's recognition as the official U.S. member of the 
International Organization for Standardization (ISO) and the 
International Electrotechnical Commission (IEC).
    Since its formation, ANSI has been coordinating the 
development of standards-based solutions to support accident 
prevention and improve worker and consumer safety. Today, 10% 
of the approximately 10,000 approved American National 
Standards (ANS) currently available address issues that help to 
protect the workforce, consumers and the general public.
    Protecting the safety of consumers is of paramount 
importance to ANSI. It is a key element of the Institute's 
mission. ANSI works hard to ensure that there is consumer 
participation at all levels of the total federation--from the 
Board of Directors all the way through the policy and technical 
activities. Sometimes the participation is by consumers 
themselves, at other times representation is through a consumer 
organization. But there is always a need for more consumer 
involvement in standards and conformity assessment activities.
    ANSI's processes give any interested stakeholder the 
opportunity to engage in the development of a standard or the 
approval of a compliance program. The Institute's procedures 
are written to assure that everyone, regardless of ANSI 
membership status, is able to participate in ANSI activities. 
If someone is interested in the subject covered by a standard, 
for example, that individual may participate by applying to 
become a member of the consensus body or submitting a 
contribution during public review and comment.
    American National Standards (ANS) run the entire spectrum, 
from the very first ANS on pipe threads to work that is 
underway today to meet emerging needs in areas ranging from the 
service sectors to the aging populations and those with 
disabilities.
    Standards are important for everyone because they influence 
the design, safety, manufacturing and marketing of many 
products worldwide. Standards are not only developed in 
response to injuries, hazards or other identified safety risks, 
but more often in a proactive manner to prevent injuries from 
known hazards. Some areas that come to mind where voluntary 
standards have especially made a difference in enhancing 
consumer safety include:

     <bullet> the National Electric Code (ANSI/NFPA 70)
     <bullet> Safety for Ground-Fault Circuit Interrupters 
(ANSI/UL 943)
     <bullet> Safety for Gas Water Heaters (ANSI Z21.10.1)
     <bullet> Safety of Corded Window Covering Products (ANSI/
WMCA A100.1)
     <bullet> Accessible and Usable Buildings and Facilities 
(ANSI/ICC A117.1)
     <bullet> Standard Specification for Protective Headgear 
Used in Bicycling or Roller Skating (ASTM F1447-98--Approved as 
an American National Standard)

    Voluntary consensus standards and conformity assessment 
programs are driven by requirements for continuous quality 
improvement--especially as technology changes and evolves. ANSI 
and its hundreds of accredited standards developers and 
conformity assessment bodies are constantly reviewing and 
updating their systems to stay abreast of current and 
anticipated needs.

                ANSI: Responding to National Priorities.

     ANSI's actions are aligned with the United States 
Standards Strategy (USSS), an overarching framework document 
that calls for close cooperation between those who develop the 
nation's standards and conformity assessment programs and those 
who use them. The USSS (excerpted in Annex B of this testimony) 
calls for the consistent use by government of voluntary 
consensus standards. It also calls for the standardization 
community to show leadership in developing responses to 
emerging national priorities.
    ANSI's standards panels are excellent examples of how the 
Institute is addressing the critical needs of the nation. Last 
fall, ANSI partnered with the Council of Better Business 
Bureaus to tackle identity theft prevention and ID management--
an issue that has victimized more than 18 million Americans 
over the past two years.
    The Institute has partnered with the 9-11 Commission and 
the DHS to address homeland security; and with the President's 
Office of Science and Technology Policy to help lead global 
nanotechnology initiatives. ANSI is working with HHS to 
implement the President's vision for every American to have a 
secure electronic health record within the next ten years. And 
the Institute's newest panel is working with a broad spectrum 
of agencies to support the commoditization of viable 
alternatives to fossil fuels and the diversification of the 
global energy infrastructure.
    ANSI has a unique ability to bring together in a neutral 
forum representatives of industry, standards developing 
organizations, trade associations, professional and technical 
societies, government, labor and consumer groups.
    ANSI believes that a strong public-private partnership is 
essential to renew consumer confidence in the safety of toys.

                   ANSI: Acting to Improve Toy Safety

    Earlier this year, the Toy Industry Association asked ANSI 
to help them design a program of testing, inspection and 
education that could be implemented across the industry's 
global supply chain.
    ANSI responded with a three-point proposal:
    First, we would help the toy industry analyze existing 
standards, technical regulations and conformity assessment 
programs.
    Next, we would form technical working groups and coordinate 
their efforts to design testing and inspection methodology 
programs.
    Finally, we would recommend steps to improve compliance 
activities throughout the toy industry's global supply chain.
    TIA accepted this proposal and I, along with several ANSI 
colleagues, began working with the association and its members 
two months ago.
    Almost immediately, we agreed that two criteria were 
necessary for success in the global marketplace: common product 
requirements and harmonized test methods.
    This means the system must be efficient, consistent and 
sustainable. It must focus on improving how products are 
evaluated and assessing who is conducting the evaluations.
    ANSI is focusing its facilitation efforts on the 
development and standardization of compliance procedures that 
can be used industry-wide and throughout the supply chain. . . 
in the past, these activities have been defined by individual 
manufacturers and retailers.
    The Institute is also turning its attention to 
harmonization of the current practices used to evaluate the 
competence of the conformity assessment bodies that are 
evaluating compliance to requirements . . . regardless of 
whether those requirements are defined in a voluntary standard 
or a Federal regulation.
    For both the requirements and the organizations, we are 
working to harmonize these practices for use industry-wide.
    Our solutions will draw from a toolbox of conformity 
assessment resources. Not just testing and inspection, but also 
systems auditing, accredited certification programs, and, of 
course, education and training. These tools are defined in the 
National Conformity Assessment Principles of the United States, 
excerpted in Annex C of this testimony.
    The program we are developing will be committed to 
improving product safety, not just reducing the number of 
recalls. It will be sustainable and forward looking to 
anticipate and prevent problems yet unknown. It will be 
considerate of all types of suppliers--regardless of size or 
location. And it will support the concept of ``One standard . . 
. One test . . . Accepted everywhere.''
    We are making great progress. Three working groups on 
Process Control, Testing and Reporting, and Design are meeting 
on a weekly basis. During bi-weekly teleconferences, they 
report to a Steering Committee comprised of the WG leaders, and 
representatives of consumers, the U.S. government, and staff 
from both ANSI and TIA.
    Recommendations from the Working Groups and Steering 
Committee are targeted for broad review and approval--including 
a public comment period and a formal review and endorsement by 
TIA--before year-end.
    Implementation is expected to begin in early 2008.
    In the meantime, a broad spectrum of stakeholders is 
already taking decisive action to remove unsafe products from 
distribution. In particular, brands and retailers have shared 
with ANSI that they have intensified their conformity 
assessment efforts to ensure the integrity of the import safety 
net.
    There can be no guarantee unless all the stakeholders are 
working together. From producer to government regulator to 
retailer to parent--everyone has a role to play.

                      Building Consumer Confidence

    Just as consumers have the right to expect that the toys 
they buy for their children will be safe, the same expectation 
should hold true for the toothpaste they use, the tires they 
travel on, and the food they eat.
    The emergence of the global marketplace has created both 
consumer benefits and problems. If the public and private 
sectors work together, practicable solutions can be found to 
address the emerging issues of consumer health and safety in a 
global world.
    Steps are already being taken. On September 26, ANSI hosted 
a conference focused on building consumer confidence in the 
products that enter into our marketplace. Presentations and 
discussion sessions engaged participants in identifying 
resources, initiatives, and applicable standards and compliance 
programs that will create a safer consumer environment.
    A follow-up session was held during a joint meeting of the 
ANSI member forums in mid-October. The Institute is committed 
to a process that identifies necessary, practicable and 
immediate actions that can be taken to ensure that only safe 
products enter into the U.S. marketplace.
    ANSI wants to help reassure consumers that the products 
they find on the shelves of their local retailer have been 
tested and found to be safe--regardless of country of origin. 
In order for the Institute to accomplish this objective:

     <bullet> Standards and conformity assessment resources 
that are already in place must be used more efficiently.
     <bullet> Government and industry need to work at a single 
purpose to identify gaps in the current systems of testing and 
inspection of products imported to the United States.
     <bullet> New human and financial resources must be brought 
to bear to strengthen existing systems and fill any identified 
gaps.

    In some cases, it may be necessary to elevate certain 
requirements from voluntary to mandatory status. If this 
happens, the U.S. must also be careful to remain compliant with 
our obligations in the WTO and existing bi-lateral trade 
agreements. Any efforts made to improve the safety of imported 
products should not cause other governments to reciprocate with 
trade barriers on American exports.
    CPSC and the other regulatory bodies that lead oversight 
and regulation for consumer health and safety issues will not 
be able to handle the workload alone--even with additional 
financial resources. Private and public sector resources must 
be utilized in harmony if consumer confidence in imported goods 
is to be restored.
    ANSI stands ready to coordinate that public/private 
partnership. The Institute knows how to leverage voluntary 
consensus standards and the related compliance systems to 
create solutions that engage and support all stakeholders.
    ANSI looks forward to working in partnership with this 
committee, Congress, and other U.S. public sector 
representatives to stem the tide of unsafe products imported 
into our country.

Background on the U.S. Standardization and Conformity Assessment System 
    and the Role of the American National Standards Institute (ANSI)

    The U.S. private sector-led, voluntary standardization and 
conformity assessment system has been in existence for more 
than 100 years. Highly decentralized, the system is naturally 
partitioned into industrial sectors that are supported by 
numerous independent, private sector standards developing 
organizations (SDOs). Marketplace demand drives the system's 
activities, with standards and conformity assessment programs 
typically developed in response to specific concerns and needs 
expressed by industry, government, and consumers.
    Since 1918, this system has been administered and 
coordinated by the American National Standards Institute (ANSI) 
with the cooperation of the private sector and the Federal, 
state and local governments. ANSI does not develop standards or 
conformity assessment programs. Rather, it functions as a 
central clearinghouse and coordinating body for its member 
organizations. The Institute is a unique partnership of 
industry, professional, technical, trade, labor, academic and 
consumer organizations, as well as government agencies. These 
members of the ANSI federation actually develop standards and 
conformity assessment programs, contributing their time and 
expertise in order to make the system work.
    ANSI ensures the integrity of the U.S. standards and 
conformity assessment system by:

    1. Establishing a set of due process-based ``essential 
requirements'' that SDOs may follow in order to manage the 
development of consensus standards and conformity assessment 
programs in a fair and open manner,
    2. Accrediting SDOs who adhere to these requirements,
    3. Approving candidate standards from ANSI-accredited SDOs 
as American National Standards (ANS), and
    4. Conducting regular audits of the ANS activities of ANSI-
accredited SDOs to ensure ongoing compliance with ANSI's 
essential requirements.

    1ANSI has accredited hundreds of SDOs across a range of 
industry sectors. These industries include (but certainly are 
not limited to) telecommunications, medical devices, heavy 
equipment, fire protection, information technology, petroleum, 
banking, and household appliances. There are now approximately 
10,000 ANSI-approved ANS that address topics as diverse as 
dimensions, ratings, terminology and symbols, test methods, 
interoperability criteria, product specifications, and 
performance and safety requirements. These standards 
development efforts serve the public interest and are being 
applied to new critical areas such as the environment, 
healthcare, homeland security, and nanotechnology.
    The Institute's approval of a candidate standard or 
conformity assessment program as an ANS verifies that the 
principles of openness and due process have been followed and 
that a consensus of all interested parties has been reached. 
Due process requires that all proposed ANS be circulated to the 
public at large for comment, that an attempt be made to resolve 
all comments, and that there is a right of appeal. In addition, 
ANSI considers any evidence that a proposed ANS is contrary to 
the public interest, contains unfair provisions or is 
unsuitable for national use. This basic formula has been the 
hallmark of the ANS process for decades, and it has garnered 
worldwide respect and acceptance.
    One of the best indicators of confidence in the U.S. 
voluntary consensus standardization and conformity assessment 
system (as exemplified by the ANS process) is Congress's 1996 
passage of the National Technology Transfer and Advancement Act 
(NTTAA). This law (P.L. 104-113) requires Federal agencies to 
use voluntary consensus standards and conformity assessment 
programs for regulatory purposes wherever feasible and to 
procure equipment and services in accordance with such 
standards. It also requires agencies to increase their 
participation in the development process and directs the 
Commerce Department's National Institute of Standards and 
Technology (NIST) to coordinate Federal, state and local 
voluntary standards and related conformity assessment 
activities.
    ANSI's success is measured by usage and acceptance. From 
the government's perspective, there are two examples of 
confidence in the ANSI process that are worth citing here:
    The first is the Consumer Product Safety Act. This 1972 
legislation mandates that if a voluntary standard exists, CPSC 
may issue a mandatory standard only when the voluntary 
standards will not eliminate or adequately reduce the risk of 
injury or death, or it is unlikely that there will be 
substantial compliance with the voluntary standard.
    The second is Congress' 1996 approval of Public Law 104-
113, also know as the National Technology Transfer and 
Advancement Act (NTTAA). This law requires Federal agencies to 
increase their reliance upon and participation in the voluntary 
consensus standards and conformity assessment systems.
    ANSI also promotes the international use of U.S. standards 
and conformity assessment programs. The Institute serves as the 
U.S. national body representative in two major, non-treaty 
international standards organizations: the International 
Organization for Standardization (ISO) and, through the United 
States National Committee (USNC), the International 
Electrotechnical Commission (IEC). ANSI and the USNC play a 
leadership role in ISO and IEC, respectively, on both policy 
and technical matters.
    Part of ANSI's role as the U.S. member of ISO includes 
accrediting U.S. Technical Advisory Groups (U.S. TAGs) which 
develop and transmit, via ANSI, U.S. consensus positions on the 
activities and ballots of technical committees and 
subcommittees. Similarly, the USNC approves TAGs for IEC 
activities. In many instances, voluntary standards and 
conformity assessment programs developed by U.S. SDOs are taken 
forward, through ANSI or the USNC, where they are approved in 
whole or in part by the ISO and/or IEC as International 
Standards. ANSI also encourages the adoption of international 
standards as national standards where they meet the needs of 
the user community.
    In addition, ANSI advocates U.S. positions in various 
regional standards organizations and regularly meets with 
representatives from standards bodies in other nations. Thus, 
ANSI plays an important role in facilitating the development of 
global standards and related conformity assessment programs 
that support global commerce and which prevent regions from 
using local standards that favor local industries as trade 
barriers.
    Conformity assessment is the term used to describe steps 
taken by both manufacturers and independent third-parties to 
determine fulfillment of standards requirements. ANSI's role in 
the conformity assessment arena includes accreditation of 
organizations that certify that products and personnel meet 
recognized standards. The ANSI-American Society for Quality 
National Accreditation Board (ANAB) serves as the U.S. 
accreditation body for management systems certification, 
primarily in areas such as quality (ISO 9000 family of 
standards) and/or the environment (ISO 14000 family of 
standards). ANSI also is involved in several international and 
regional organizations to promote multilateral recognition of 
conformity assessments across borders to preclude redundant and 
costly barriers to trade.
    In summary, through its various roles and responsibilities, 
ANSI advances its mission to ``enhance both the global 
competitiveness of U.S. business and the U.S. quality of life 
by promoting and facilitating voluntary consensus standards and 
conformity assessment systems and safeguarding their 
integrity.''

           Excerpt from the United States Standards Strategy

    Principles. It is well established in the community of 
nations that standards should meet societal and market needs 
and should not be developed to act as barriers to trade. In 
approving the World Trade Organization Technical Barriers to 
Trade Agreement, WTO members recognized that goal and 
established globally accepted principles as a framework to 
promote cooperation and discourage the use of standards as 
trade barriers. The U.S. standards and conformity assessment 
system is based on the following set of globally accepted 
principles for standards development.

     <bullet> Transparency. Essential information regarding 
standardization and conformity assessment activities is 
accessible to all interested parties.
     <bullet> Openness. Participation is open to all affected 
interests.
     <bullet> Impartiality. No one interest dominates the 
process or is favored over another.
     <bullet> Effectiveness and relevance. Standards and 
related conformity assessment programs are relevant and 
effectively respond to regulatory and market needs, as well as 
scientific and technological developments.
     <bullet> Consensus. Decisions are reached through 
consensus among those affected.
     <bullet> Performance-based. Standards are performance-
based, specifying essential characteristics rather than 
detailed designs where possible.
     <bullet> Coherence. The process encourages coherence to 
avoid overlapping and conflicting standards and conformity 
assessment programs.
     <bullet> Due Process. Standards development accords with 
due process so that all views are considered and appeals are 
possible.
     <bullet> Technical Assistance. Assistance is offered to 
developing countries in the formulation and application of 
standards and related conformity assessment programs.

    In addition, U.S. interests strongly agree that the process 
should be:

     <bullet> Flexible, allowing the use of different 
methodologies to meet the needs of different technology and 
product sectors;
     <bullet> Timely, so that purely administrative matters do 
not slow down the work, but meet market expectations; and
     <bullet> Balanced among competing interests.

   Excerpt from the National Conformity Assessment Principles of the 
                             United States

    The National Conformity Assessment Principles for the 
United States document articulates the principles for U.S. 
conformity assessment activities that will allow consumers, 
buyers, sellers, regulators and other interested parties to 
have confidence in the processes of providing conformity 
assessment, while avoiding the creation of unnecessary barriers 
to trade.
    Conformity assessment includes sampling and testing, 
inspection, supplier's declaration of conformity, 
certification, and management system assessment and 
registration. It also includes accreditation of the competence 
of those activities by a third party and recognition (usually 
by a government agency) of an accreditation program's 
capability.
    While each of these activities is a distinct operation, 
they are closely interrelated. The choice of the most 
appropriate assessment processes, as well as the quality with 
which any one of them is performed, can have a significant 
effect on the confidence in and reliance that can be placed on 
the results of the entire conformity assessment.
    The definitions included in the National Conformity 
Assessment Principles document are based on ISO/IEC 17000:2004, 
Conformity assessment--Vocabulary and general principles. Some 
variances, noted in italics, occur where the term is not in 
ISO/IEC 17000 or has another specific meaning in the United 
States. Definitions are included in this document to preclude 
confusion and to make it more understandable. In different 
contexts, the same term can signify different types of 
activities.
     <bullet> Accreditation Third party attestation related to 
a conformity assessment body conveying a formal demonstration 
of its competence to carry out specific conformity assessment 
tasks. (These tasks include sampling and testing, inspection, 
certification and registration.)
     <bullet> Certification Third party attestation related to 
products, processes, or persons that conveys assurance that 
specified requirements have been demonstrated.
     <bullet> Conformity Assessment Demonstration that 
specified requirements relating to a product, process, system, 
person or body are fulfilled. (This may include any activity 
concerned with determining directly or indirectly that relevant 
requirements are fulfilled.)
     <bullet> First, Second and Third Party The first party is 
generally the person or organization that provides the object, 
such as the supplier. The second party is usually a person or 
organization that has a user interest in the product, such as 
the customer. The third party is a person or body that is 
recognized as being independent of the person or organization 
that provides the object, as well as the user or customer of 
the object.
     <bullet> Inspection Examination of a product design, 
product, process or installation and determination of its 
conformity with specific requirements or, on the basis of 
professional judgment, with general requirements.
     <bullet> Recognition Procedure used to provide formal 
notice that an accreditation body is competent to carry out 
specific tasks. These tasks include accreditation of testing 
laboratories and inspection, certification and registration 
bodies. A governmental recognition system is a set of one or 
more procedures used by a Federal agency to provide 
recognition.
     <bullet> Registration Third party attestation related to 
systems that convey assurance that specified requirements have 
been demonstrated. Such systems include those established for 
the management of product, process or service quality and 
environmental performance.
     <bullet> Sampling. Provision of a sample of the object of 
conformity assessment according to a procedure.
     <bullet> Supplier's Declaration. Procedure by which a 
first party or supplier conveys assurance that the object of 
conformity fulfills specified requirements.
     <bullet> Test. Technical operation that consists of the 
determination of one or more characteristics of a given 
product, material, equipment, organism, person's qualification, 
physical phenomenon, process or service according to a 
specified technical procedure (test method).
     <bullet> Testing. Determination of one or more 
characteristics of an object of conformity according to a 
specified technical procedure (test method). Action of carrying 
out one or more tests.
     <bullet> Test Method. Specified technical procedure for 
performing a test.
                              ----------                              

    Mr. Rush [presiding]. Mr. Korn.

  STATEMENT OF ALAN KORN, DIRECTOR, PUBLIC POLICY AND GENERAL 
                  COUNSEL, SAFE KIDS WORLDWIDE

    Mr. Korn. Thank you, Mr. Chairman.
    Let me say by way of introduction that we have great 
confidence in this committee. We have seen more attention on 
consumer product safety in the past 5 months--you are making my 
life very busy--than we did for many, many years before.
    And, also, I must say that the staff on both sides--the 
ones sitting to your left and to your right and behind you--
have been really stellar. They are always engaging us to find 
out what we think and often agreeing with us, a few times 
disagreeing. But the vast majority we have come to some very 
good conclusions, and I think many of them are contained in 
this piece of legislation. I think that should go said.
    Also by introduction let me say this, that there are many 
who feel that the CPSC is a dead agency and that it is 
failing--and that they are failing to repeatedly serve its 
important mission. I am not one of those people, Mr. Chairman. 
The CPSC is full of committed staff who day in and day out--I 
work with them every single day, every single week--who are 
completely committed to protecting consumers and children from 
unreasonable, dangerous products.
    The CPSC, however, is an agency withering on the vine. It 
is not dead, but it is withering, and it is in immediate need 
of water and fertilizer. We believe your act is a much-needed 
dose of Miracle-Gro.
    Let me, at the risk of my own peril, not read through my 
testimony but just go through a couple of points.
    Number 1, we are particularly pleased that there is a 
budget increase in this bill. Its present budget in no way 
allows the agency to do what it needs to do. It is the single-
handedly most important reform in this legislation. If you do 
anything else, get it the fertilizer and water it needs to get 
the job done. I think we are all in agreement there.
    We are also supportive of the fact--it is a nuanced point 
but important one--that you created a separate authorization 
for the lab. We have been to that lab. They are embarrassingly 
poor. I think staff has been there, also. It is time. I think 
everybody is in agreement with that.
    My third point is this extension to 5 commissioners, and I 
am going to spend a little bit more time on that because I 
think both the acting chairman and the commissioner expressed 
some reservation there.
    We are glad to see it in the bill. The bill's sponsors feel 
that the Commission can function more effectively with a full 
complement of members. We agree. An agency with 5 members makes 
for a much more vibrant institution and will promote active 
discussion, compromise and even dissent when necessary, which 
we think serves the public interest.
    We can see that energy and I believe effectiveness in 
another agency under the subcommittee's jurisdiction, and that 
is the Federal Trade Commission. Due in large part to its full 
complement of commissioners and its adequate budget, the FTC on 
whole effectively serves its mission of protecting consumers 
from deceptive practices and preserving a competitive 
marketplace.
    Another point, the five-member Commission would allow a 
president and Congress to expand the diversity of the expertise 
of the CPSC through the nomination and confirmation process. 
For example, the CPSC panel could include a commissioner with a 
legal background, a commissioner with human factors experience, 
a commissioner with knowledge of children and how they interact 
with products, a commissioner with experience in certain risk 
areas like drowning and fire and burns, which is the leading 
causing killer of kids under the CPSC jurisdiction. It is motor 
vehicle crashes is No. 1. That is NHTSA. Those other two are 
CPSC and, third, a commissioner with a background in product 
design and engineering.
    I am not so egotistical to say that this is a 
recommendation to the President or Senate as to a particular 
candidate for the confirmation process, but your bill does 
capture the diversification.
    I think we can also learn by looking at the NTSB, who each 
has a member with experience in aviation, boating and railway, 
collectively making a very diverse expertise in that 
commission.
    I think--I am using your words here--that you believe that 
the agency is in the minor leagues. This provision in the bill, 
although not the sole provision that will help, will help move 
this to the major leagues, I believe. In fact, your staff--both 
staff--did some great research that I don't think there is 
another agency in this city that has three commissioners. They 
all have five. So I think that is an excellent thing. It is 
something that we should keep in the bill, notwithstanding I 
detected a bit of apprehension from the agency itself.
    My testimony goes into much more detail on several other 
provisions. I will let you work through those and certainly 
offer my help to staff as we go forward on the many other 
technical provisions of the bill that we think are good and a 
few that we think can be modestly improved.
    Thank you, Mr. Chairman.
    Mr. Rush. The Chair thanks the gentleman, and we thank you 
for your gracious commentary.
    [The prepared statement of Mr. Korn follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. The Chair now recognizes Mr. McGuire for 5 
minutes.

  STATEMENT OF JOSEPH MCGUIRE, PRESIDENT, ASSOCIATION OF HOME 
                    APPLIANCE MANUFACTURERS

    Mr. McGuire. Mr. Chairman and members of the subcommittee, 
thank you for providing me the opportunity to testify on behalf 
of the National Association of Manufacturers regarding the 
Consumer Product Safety Modernization Act of 2007.
    We support legislation that reauthorizes CPSC and provides 
it with the resources necessary to carry out its vital mission. 
The subcommittee is to be commended on its bipartisan efforts 
to develop a bill.
    I am president of the Association of Home Appliance 
Manufacturers, which represents the manufacturers of major 
portable and floor care residential appliances and their 
suppliers. I am pleased to provide the views of NAM and its 
coalition of manufacturing associations.
    CPSC is our most important regulatory relationship and 
justifiably so because consumer safety is the most critical 
obligation we have to our customers. We have aggressively 
supported increased appropriations for the Commission in this 
Congress. Although we believe that the American marketplace is 
safer than ever, the perception of a safety problem is 
troubling to U.S. manufacturers because their economic 
viability depends on the confidence of the U.S. public and 
their products.
    H.R. 4040 contains a number of provisions our coalition 
supports, and we applaud you for seeking these improvements. 
However, we also believe H.R. 4040 contain a few provisions 
that need modification.
    We support the significantly increased authorization for 
CPSC funding and recommend that it be focused on the 
Commission's laboratory and its ability to evaluate the 
increasingly voluminous information reported to the Commission 
by manufacturers and retailers. We also believe that the number 
of full-time inspectors, including those at ports, should be 
significantly increased. We support structural reforms so that 
the Commission may continue a temporary quorum with two 
commissioners.
    The Toy Industry Association and the Fashion Jewelry Trade 
Association have strongly advocated national lead standards for 
toys and children's jewelry based on sound science and with 
practical limitations in which to work with the subcommittee on 
this issue.
    The toy industry also supports mandatory testing for 
children's products. They favor the use of accredited 
laboratories and CPSC authority to recognize laboratory 
sanctioning programs, but not to micromanage such programs.
    We support more rapid dissemination of information to the 
public. The reality is that the vast majority of delays and 
responses to Freedom of Information Act requests are due to 
lack of CPSC resources and technology. We understand the bill 
sponsors' intent that there may be circumstances where the 
Section 6(b) disclosures process should be shortened if rapid 
dissemination of data is required by public health and safety, 
but we believe that this exception should be carefully drawn.
    In order to maintain the present environment of voluntary 
industry communications with CPSC, we strongly urge the 
Congress to keep in place the requirement that there be review 
of company submissions and CPSC documents for accuracy and 
fairness before disclosure occurs. We agree to strengthening 
the prohibition on stockpiling provisions.
    We also believe that, in most cases, the Commission's power 
to disseminate information through its press releases and 
electronic messages to a wide variety of media has proven to be 
effective. But we appreciate that in certain narrow 
circumstances it may be necessary to conduct further outreach, 
particularly in languages other than English. We appreciate, 
Mr. Chairman, your interest in this particular provision.
    Certainly manufacturers, importers, retailers and 
distributors should provide, upon request from the Commission, 
any information that they have on others in the supply chain, 
to the extent such information is known. Dangerous products 
should not be exported from the United States to foreign 
countries. However, where foreign countries are protected by 
different standards, U.S. firms should not be banned from 
exporting a product that meets those foreign standards.
    We also support, with slight modification, the bill's 
provision in sharing information with Federal, State, local and 
foreign government agencies.
    In addition, the appliance industry supports Federal action 
to ensure the proper installation of cooking ranges with UL, 
ANC and building-code-mandated anti-tipping products and 
equivalent devices. My industry proposes that it be a violation 
of Federal law for a person to install a range that is not 
compliant with the UL safety standard.
    We believe that, in general, this bill places consumer 
safety first and properly resources the Commission. We look 
forward to working with you and the committee on adopting this 
beneficial and reasonable CPSC reform in this Congress.
    I will be glad to answer any of your questions or follow up 
with requested information. Thank you.
    [The prepared statement of Mr. McGuire follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. Thank you.
    The Chair now recognizes Ms. Weintraub for 5 minutes.

 STATEMENT OF RACHEL WEINTRAUB, DIRECTOR, PRODUCT SAFETY, AND 
         SENIOR COUNSEL, CONSUMER FEDERATION OF AMERICA

    Ms. Weintraub. Thank you, Chairman Rush and Vice Chairman 
Schakowsky and Ranking Member Stearns, as well. I am Rachel 
Weintraub, director of product safety and senior counsel for 
the Consumer Federation of America. Today I am also testifying 
on behalf of Consumers Union, Kids in Danger, Public Citizen, 
U.S. PIRG, and Union of Concerned Scientists.
    Thank you for holding this hearing and for all of your hard 
work on product safety issues.
    It is clear to all of us that something has gone terribly 
wrong with our current safety systems. Your bill, H.R. 4040, 
the Consumer Product Safety Modernization Act, correctly 
recognizes that the Consumer Product Safety Commission, the 
agency responsible for protecting consumers from unsafe and 
dangerous products in the marketplace, is broken. H.R. 4040 
seeks to remedy this critical problem by increasing the 
agency's resources and legal authority necessary to keep unsafe 
products out of the marketplace.
    We applaud you for addressing many of the key areas in need 
of reform. We provide several modest tweaks for strengthening 
several sections of the bill, and we raise additional issues 
that this bill should address to make the legislation truly 
comprehensive.
    We wish to emphasize the importance we place on six issues: 
Section 6(b); independent, third-party testing; the ban on lead 
in children's products; criminal and civil penalties; the need 
to include whistleblower protections; and language clarifying 
the reach of CPSC's authority regarding the preemption of State 
regulatory and common-law claims.
    Section 6(b) of the Consumer Product Safety Act is the 
ultimate secrecy provision. It is unique to the CPSC, and it 
requires CPSC to give a company an opportunity to comment on a 
proposed disclosure of information. If the company has 
concerns, they can object. CPSC must accommodate the company's 
concerns or inform them that they plan to disclose the 
information. The company can then sue the Commission, seeking 
to enjoin them from disclosing this information.
    While H.R. 4040 makes positive modifications to the 
section, it does not remove the ability of the company to 
institute a court proceeding to enjoin release of the 
information. The threat of lengthy and resource-intensive 
litigation could compel CPSC often to maintain the secrecy of 
or delay the disclosure of important product safety 
information, and ultimately keeps consumers in the dark.
    We also support the creation of a searchable adverse-event 
database containing consumer complaints and industry reports of 
safety concerns relating to consumer products.
    Second, independent, third-party testing of final products, 
as well as components, must be required to identify design 
flaws as well as violations of existing regulations. Section 
102 mandatory third-party testing for children's products is a 
meaningful provision that establishes a clear definition of an 
independent third party. Section 104 of this bill that will 
ensure that infant durable products will be tested to what are 
now mandatory, as well, standards is critical as well.
    We also suggest that children's products be defined as 
those intended for children 12 years old and older, as the ban 
on lead provision of this bill currently includes. The 
disparity between these two sections means that hazards not 
including lead, such as those involving sharp edges, 
suffocation and thermal hazards, just to name a few, do not 
have to be tested for in products intended for children between 
the ages of 7 and 12. We support the provision that requires 
CPSC to ensure that testing laboratories meet accreditation 
standards established by the Commission.
    Third, banning lead. We support a bright-line ban on the 
use of lead in children's products to no more than trace 
amounts, because experts confirm that there is no safe level of 
lead. Serious, acute and irreversible harm can come to children 
as a result of exposure to lead, and there is no reason why 
such a dangerous additive should be used in children's 
products. A safer alternative almost always exists.
    Overall, our groups view section 101 as a positive 
improvement over the status quo. We applaud the definition of a 
children's product defined as that for a child 12 and younger 
and support a bright-line test for children's products.
    We have two questions, though. First, we are not clear 
about the standard the phase-in option of the bill is 
requiring. We recommend that language clarify that this lead 
limit shall apply without regard to whether the lead is 
accessible to children. Second, we are concerned that the 
alternative test for 90 ppm soluble lead is ambiguous, as we 
understand there are many measures of solubility which could 
lead to different results.
    Number 4, civil and criminal penalties. We urge that the 
civil penalties be increased, and we urge that the criminal 
penalties be modified to take away the ability of manufacturers 
to first receive a notice of noncompliance from the Commission 
before they can be held accountable.
    Finally, we also support whistleblower protections. We 
oppose preemption and urge the committee to consider language 
clarifying this issue.
    And we also support the inclusion of addressing the 
relationship between CPSC regulators and the regulated 
industry, with new restrictions on industry-paid travel for 
CPSC officials.
    Thank you.
    [The prepared statement of Ms. Weintraub follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. Thank you.
    We want to again thank the panel.
    The Chair recognizes himself for 5 minutes of questioning. 
I will begin with Mr. McGuire.
    Mr. McGuire, NAM is opposed to eliminating section 6(b)(3) 
of the act, which allows manufacturers to go to court to 
exercise a form of prior restraint to prevent a public 
disclosure of information about their products that the CPSC 
wants to release.
    My question is, doesn't this provision hamper the CPSC's 
ability to get vital health and safety information to the 
public? And, ultimately, aren't manufacturers better off if 
this information gets out quickly to protect the public?
    Mr. McGuire. Mr. Chairman, I think the record will show 
that the vast majority of delays in CPSC getting this type of 
information out to the public is due to their own resource 
limitations, both people and technology, to review the 
voluminous amount of information submitted.
    Current law allows manufacturers 30 days to comment on the 
fairness and the accuracy of the data. CPSC does not have to 
accept manufacturers' opinions. But if they do not accept their 
opinions and decide to release the information, manufacturers 
have the right to sue them to stop that.
    This is not in cases where the CPSC determines that the 
product might be an imminent health hazard. If they determine 
that, they can release the information without consulting 
manufacturers, and we have no problem with that. The vast 
majority of these cases we are talking about, in reality, do 
not involve cases where you have an imminent health hazard.
    And so, the provision in current law is a 30-day notice. I 
think your bill reduces it to 15 days. We don't really quarrel 
with that. We just believe that, in fairness, the manufacturers 
ought to be given the opportunity to comment whether something 
actually is accurate and is going to help consumers or confuse 
consumers in cases where it isn't an imminent health hazard.
    Mr. Rush. So you are saying that, where there is a question 
of health and safety to the American people, that the CPSC have 
the full authority, right now, as it stands, to go and to issue 
statements immediately without being sued?
    Mr. McGuire. Yes, sir. If it is an imminent health hazard, 
they have the ability to do that.
    Mr. Rush. Who is to determine whether or not it is an 
imminent health hazard?
    Mr. McGuire. The CPSC.
    Mr. Rush. OK.
    Ms. Weintraub, do you want to comment on Mr. McGuire's 
comments?
    Ms. Weintraub. Sure.
    First of all, in terms of disclosing information to the 
public, it is clear that consumers are in the dark. If a 
consumer wants to do research on any type of consumer product--
let us say a stroller, for example--if they go to the CPSC Web 
site, they are not going to find comparative information, they 
are not going to find any other consumer recommendations or 
complaints from consumers. But they would find information like 
that on other agencies' Web sites, such as NHTSA or FDA.
    Overall, we see section 6(b) as problematic because it 
creates this dynamic where CPSC needs to go with its tail 
between its legs to the industry it regulates and ask 
permission to disclose information that is in the public 
interest.
    While we have urged for the repeal of this section for 
years, we understand that the argument is on the side of 
allowing industry to verify such information. So if 6(b) is 
retained to allow this dynamic to proceed, we still don't 
understand why it is necessary for the industries to be able to 
sue the Commission. There are FOIA protections, which also 
protect the confidentiality, the trademark information of such 
information. And we have never been persuaded or even heard a 
public-policy argument for keeping in this provision that 
allows industries to sue the Commission.
    Mr. Rush. This ability to sue the Commission, it seems to 
me, that has been the single most important--or single greatest 
obstacle to CPSC's quickly notifying the public. Do you have 
any idea about why the CPSC would be afraid to be sued, afraid 
of litigation?
    Ms. Weintraub. Sure. I mean, litigation is expensive and 
resource-intensive. And with a budget which we all establish 
today--a budget that is very small and with vast priorities 
that are growing, the threat of litigation really is a scary 
prospect for the Commission.
    Mr. Rush. So if we give them more resources, then that 
should take care of that particular problem; is that right?
    Ms. Weintraub. I don't think so. I still don't think that 
there are any public-policy reasons for retaining the ability 
of manufacturers and others to sue the Commission. Even with 
increased resources, it provides a lot of leverage for 
manufacturers that other agencies don't provide.
    Mr. Rush. Thank you. My time is up.
    The Chair recognizes the ranking member, Mr. Stearns.
    Mr. Stearns. Thank you, Mr. Chairman.
    Let me just continue that line of questioning, but ask Ms. 
Belliveau.
    We have heard testimony that section 6(b) must be repealed 
in order to improve safety. I guess the question for you is, 
what are the practical effects of this?
    Ms. Belliveau. Hasbro supports section 6(b) currently, and 
we also support the proposed bill and its reduction of the time 
frame for release of the information. We support the provision 
because we do want to preserve the right to verify the accuracy 
of the information proposing to be released by the CPSC.
    We do agree that the information should be readily 
available to consumers and should be released on a timely 
basis. However, we do see instances where information that is 
shared with us is inaccurate or must be corrected or, perhaps, 
contains proprietary business information.
    So we feel that, while the process certainly could be sped 
up, we would like to preserve the right, again, to verify the 
accuracy.
    Mr. Stearns. Mr. McGuire, do you have a comment on this?
    Mr. McGuire. Well, I would agree with that, sir.
    And one of the things that we have been encouraged to do by 
the Commission for many years is to report information to them 
even if we are uncertain of its accuracy or validity. So we do 
that in order to get information to the Commission that they 
can review and deal with as appropriate.
    We are just talking about the ability, if something is 
proven to be inaccurate or unfair, to point that out.
    Mr. Stearns. OK.
    Dr. Best, you state that you would like to see 40 parts per 
million or less in all parts of a child's product. Does that 
include electronic products that use lead to protect a viewer 
from radiation, such as LCD screens? And how would you propose 
to deal with this?
    Dr. Best. For one thing, we should consider if there is a 
substitute. We understand that there are some products that--
right now, the only technology we know that is economically 
feasible is to include lead. And that is where we have a 
concern, is if the product can be made without lead and the 
only barrier to eliminating the lead is economics or the cost 
of the product.
    And if that product is a child's product, then there is no 
reason not to eliminate the lead. When you talk about a cost-
benefit equation, there is no way to define the cost of lead 
poisoning in a child. It is too huge to quantify.
    Mr. Stearns. No, I understand. It is not acceptable, I 
understand that.
    But I note a New York Times story recently reported that a 
mother had a 17-month-old child who played with a toy that had 
excessive lead paint. She had the child tested, and the doctor 
indicated it was an excessive amount. She took the toy away, 
and she had the child retested, and the level dropped 
significantly.
    Is this typical, that blood lead levels in children can 
decrease that quickly?
    Dr. Best. It is typical that lead levels do drop over time, 
even with continued exposure, in some instances. What is hidden 
in that information, though, is that the damage has already 
been done.
    Mr. Stearns. For example, it said the national average is 
now approximately 3 micrograms per deciliter, down from 16 less 
than 20 years ago. Obviously, you don't want any lead, but it 
appears that, over the years, it has gone down dramatically. 
And, in this case, this woman had her child tested after 
removing the lead toy, and it came down significantly.
    Dr. Best. Just because it came down significantly does not 
mean that the damage to that child's nervous system was not 
already done. And, in fact, we know that, by the time you have 
a measurable level of lead in your blood, which is----
    Mr. Stearns. What is that measurable level of blood?
    Dr. Best. The lowest that a typical instrument can measure 
is 2 micrograms per deciliter. And below that, we end up 
dealing with instrument variability.
    Mr. Stearns. The national average is 3, it says here. In my 
notes, it says 3. So the national average is above what it 
should be, in your opinion?
    Dr. Best. Absolutely. It should be below measurable levels.
    Mr. Stearns. Right. And the damage that is above 2 is to 
the nervous system. How can you identify the damage? How is it 
exhibited?
    Dr. Best. In terms of low levels of lead, it is typically 
exhibited in decreased IQ. And so they do it on population 
level samples where they look at children who have been exposed 
and haven't been exposed and compare the means of the IQ.
    Mr. Stearns. Mr. Chairman, I think my time has expired.
    Mr. Rush. The Chair recognizes now the Vice Chair, Ms. 
Schakowsky.
    Ms. Schakowsky. Thank you.
    Is it Ms. Belliveau?
    Ms. Belliveau. Yes.
    Ms. Schakowsky. You mentioned testing prior to the sale of 
your products. Is that true of products for which you license 
your brand?
    Ms. Belliveau. Yes, it is true.
    Ms. Schakowsky. A Chicago family lost their son to the 
Playskool Travel-Lite Crib in 1998, which was made by Kolcraft 
but carrying your Hasbro brand Playskool. And six children have 
died in that model crib. Documents reveal that Hasbro did no 
testing and did not receive any testing reports from Kolcraft 
and yet let their name go on the product.
    What are you doing differently now?
    Ms. Belliveau. Vice Chairman Schakowsky, you are correct. 
Approximately 10 years ago, we did have a situation where we 
licensed our brand to a play-yard manufacturer, and 
unfortunately there were deaths associated with that play-yard.
    We have made changes since those events, including not only 
tightening up our internal licensing procedures and requiring 
testing on all licensed products, as well as having worked with 
the safety standard setting to address portable play-yards.
    Ms. Schakowsky. So all of your products now that you 
license out, you do the same testing as those that you don't 
license out, that are in-house?
    Ms. Belliveau. Our licensed products are subject to a 
testing program and protocol that is appropriate for those 
products, and Hasbro does require that.
    Ms. Schakowsky. The same as those that are for the ones 
that you directly manufacture?
    Ms. Belliveau. Yes. If it were, for example, a toy, it 
would be subject to the same toy testing standards that Hasbro 
subjects its own toys to. If it is a different product, it will 
be subject to the testing protocols appropriate to that 
product.
    Ms. Schakowsky. I wanted to ask Ms. Weintraub a question.
    We have been very concerned with Simplicity Cribs. And 
there were, what, a million recalls? And the CPSC decided to 
approve and Simplicity decided to approve a repair kit that 
immobilizes the drop side of the crib. So, in other words, the 
repair kit goes out; it is fairly complicated in how to 
actually install the repair. But it changes the product itself, 
so the people who may have a disability and need a drop side in 
order to reach the child in the crib can't do that, or someone 
with a bad back or anybody who bought it for that feature.
    What do you think about the appropriateness of approving a 
fix that changes the design of the product, as opposed to what 
I would like--and I sent a letter to Chairman Nord--a refund 
for those consumers who want a different product?
    Ms. Weintraub. Well, first of all, not only is this 
ultimate repair filled with flaws, but it took a month, at 
least a month, between the time that the recall was announced 
and for the remedy to actually be approved and available. So 
there are many, many problems associated with this product and 
this recall.
    We agree with you that this product and this company has 
been subject to numerous recalls, many of which have been 
repairs as opposed to a recall and refund. And we would very 
much support a refund as opposed to repair that could be 
complicated, time-consuming and ultimately change an essential 
aspect of the product.
    Ms. Schakowsky. I hope we can maybe talk about dealing with 
this in our legislation.
    I wanted to ask Dr. Best--and I know Ms. Weintraub came up 
with this as well--the issue of the 7 or 6 years old to 12 
years old and the importance of including them in the 
legislation. I wonder if you could talk a little bit more about 
the hazards for older children.
    Dr. Best. Well, older children, while we think of them as 
being at less risk than the 2-year-old who might be prone to 
run out in the street, still have very similar risks in terms 
of choking. They are a little less likely to choke, but they 
still put things in their mouths and still swallow coins and 
still do some of the same behaviors that a younger child will 
do.
    And one of the other aspects of the 6- to 12-year-old age 
is that those children may have younger siblings, since most 
families try to group their child-bearing years into a fairly 
narrow gap. And so, a toy that is designed primarily for a 10-
year-old may end up in the hands of the 10-year-old's little 
sister. And that is one of the big risks. Those are the kinds 
of children I see in the emergency room. They got ahold of 
their big brother's toy and had a great time and then ended up 
with some untoward event.
    Ms. Schakowsky. Thank you very much.
    I yield back.
    Mr. Rush. The Chair now recognizes the gentlelady from 
Colorado, Ms. DeGette.
    Ms. DeGette. Thank you, Mr. Chairman.
    I want to thank Congresswoman Schakowsky for asking the 
question about the 6 versus 12 years old. Because in 
Congresswoman DeLauro's and my bill, H.R. 3691, we do have the 
age 12, and exactly for the reasons you said, Dr. Best. We 
think that all of the definitions should apply up to age 12. 
And I will probably be doing some kind of amendment or working 
with the chairman on the manager's amendment to increase that 
age in our committee mark.
    I also wanted to ask you, Dr. Best, about another issue 
that Congresswoman DeLauro and I raised in our bill, which is 
what the lead standards should be per million. In your prepared 
testimony, you recommended a lead standard of 40 parts per 
million for all children's products, which is what is in our 
bill. H.R. 4040 has a standard of 90 or 100 parts per million. 
And I am wondering if you can explain to us why 40 parts per 
million would be preferable.
    Dr. Best. We spent a lot of time thinking about this, 
because it is an obviously complex issue. And we understand 
that every time we ratchet down the limit, it costs money for 
manufacturers and for the testers and for all involved. But 
what we decided was that the reference level should be what is 
trace in our environment. We can't get below trace in any of 
our products.
    And so, to look for trace levels, we had to go to the 
scientific literature. And you had to look not at the United 
States on the East Coast, because we have actually contaminated 
our soil so much that it is higher than what we would consider 
trace. So we found an article that looked at the soil on the 
top of one of the mountains in Vermont. And they actually--this 
scientist looked at the levels in the air and in the layer of 
material that is right at the top of the dirt, you know, with 
the little pine cone needles----
    Ms. DeGette. We have those in Colorado too.
    Dr. Best. And then into the lower and lower levels, and 
then actually at the amount of lead that ended up in the 
waters, in the water table.
    And that is one of the ways we arrived at the 40, is that 
that was one of the lowest levels that this scientist found.
    Ms. DeGette. So that determination was actually based on a 
scientific examination?
    Dr. Best. It was. It was.
    Ms. DeGette. Mr. Korn, I wanted to ask you, in your 
testimony you had said that you support increasing the Consumer 
Product Safety Commission's budget. This, of course, has been 
an issue for debate in the press and other places with the 
commissioners of the CPSC about what kind of increase in the 
budget could be effectively used.
    And I am wondering, is there a particular level of funding 
that you think would be necessary? Putting aside what is in 
H.R. 4040 or any other legislation, just in general, how much 
would we be able to increase their budget so that they could 
actually use that money effectively?
    Mr. Korn. Well, we are particularly hypnotized and pleased 
that it is just more money. This has been an agency that has 
not had the appropriate funding for so long. So seeing $10 
million, $15 million increments in a year's time is something 
that we think is a very good way.
    Do I have the expertise to tell you whether or not $20 
million is enough to improve that lab? I don't. To hear that 
the chairman has said that one of the options is to level the 
lab completely and start fresh raised with me the possibility 
that $20 million may not be enough.
    Ms. DeGette. And, in fact--and I think Ms. Weintraub 
pointed this out, too--when the Consumer Product Safety 
Commission started out in the 1970's, the budget was $34.7 
million. So if you took that, just for adjusting for inflation, 
it would be $140 million now.
    Mr. Korn. Which is where your bill gets to eventually.
    Ms. DeGette. Eventually it does.
    Ms. Weintraub, what do you think? Would that be sufficient 
to do the things the Consumer Product Safety Commission needs 
to do?
    Ms. Weintraub. We have been using that as a benchmark. 
Based upon our conversations with experts, we believe that 
money can't be thrown at the Commission. We need smart growth. 
And we believe that about 15 percent increments, which is what 
this bill actually authorizes, is a smart way to go.
    This bill stops at 3 years. We would recommend going to 4 
or 7 years, and ultimately at least getting to $140 million, 
which would put them on par with where they were at their very 
first authorization.
    Ms. DeGette. And then I would think what you would have to 
do, once you got it on par, is take a look, because the markets 
have changed so much, we have so many imports coming in from 
around the world, and say, is that budget going to be 
sufficient with the reorganization over 3 or 5 years to account 
for the current market?
    Ms. Weintraub. I would agree.
    I also agree with Mr. Korn. We are coming from a starving 
mentality, so the idea of $140 million is just pretty 
incredible.
    But, yes, I agree that we constantly have to be doing 
assessments, looking at all of the responsibilities that the 
Commission has, especially with the changing marketplace and 
the increased complexity of products, and determine if, indeed, 
that is adequate.
    Ms. DeGette. Thank you.
    Thank you, Mr. Chairman.
    Mr. Rush. The Chair now recognizes the gentleman from 
Texas, Mr. Gonzalez.
    Mr. Gonzalez. Thank you.
    My first question will be to--is it Ms. Belliveau?
    Ms. Belliveau. Yes.
    Mr. Gonzalez. In your testimony, you state, ``We have also 
stepped up inspections of all factories manufacturing Hasbro 
products, both here in the United States as well as overseas.''
    What percentage of your toys are manufactured domestically, 
in the United States?
    Ms. Belliveau. We have a game and puzzle manufacturing 
facility located in East Longmeadow, Massachusetts.
    Mr. Gonzalez. But if you had a hundred toys--I just want to 
get the percentage. I am just assuming that the bulk is 
overseas?
    Ms. Belliveau. The bulk is indeed overseas.
    We have a manufacturing facility that we own in Europe, in 
Waterford, Ireland, that is also a game and puzzle 
manufacturer. It is actually the largest game and puzzle 
manufacturer in Europe. It produces----
    Mr. Gonzalez. What country manufacturers the greatest 
percentage?
    Ms. Belliveau. The greatest percentage of our manufacturing 
is done in southern China.
    Mr. Gonzalez. So what I am getting at is, how do you 
perform your quality testing? Do you have Hasbro domestic 
personnel, United States, go to China and review the process 
there?
    Ms. Belliveau. We have a U.S.-based quality assurance and 
product safety team. We are headquartered in Pawtucket, Rhode 
Island. And those are our corporate headquarters, where our QA 
function is based. We also have headquarters in the United 
Kingdom.
    Mr. Gonzalez. What about China?
    Ms. Belliveau. In China we have operations not only in Hong 
Kong but also in southern China.
    Mr. Gonzalez. Do you have personnel in the major 
manufacturing sites themselves?
    Ms. Belliveau. Yes, sir. We have an on-the-ground presence 
in China, where we have engineers, inspectors and product 
safety experts who are full-time Hasbro employees whose 
responsibility it is to ensure that our systems are being----
    Mr. Gonzalez. Are these United States-trained United States 
citizens that obviously are assigned overseas duties, or are 
these outsourced?
    Ms. Belliveau. We have United States citizens who are 
running our global operations as well as heading up our quality 
assurance function based in China.
    Mr. Gonzalez. Are the inspectors, the inspectors that are 
on the ground viewing the process, testing the product, trained 
in the United States, certified in the United States if that is 
what is required, but basically are in-house?
    Do you know what I am saying? People just contract 
everything out. I assume that happens with even inspection 
facilities in personnel.
    Now, once that process is taken care of, what do you do 
with the shipment of toys once they hit the American shores? Do 
you then conduct another sampling? Every hundred box of toys or 
something, do you take them out, test them, look at them?
    Ms. Belliveau. Products that are produced in China for 
direct import into the United States are tested in China. We do 
our own in-house testing, and they are also tested by 
independent third parties.
    Mr. Gonzalez. All right.
    And real quick, Mr. Korn, there are many things in this 
bill that are actually, well, are not in this bill at the 
present time, and one of them is going to be Federal preemption 
of State laws or allowing State attorneys general to enforce 
Federal law. Do you have any view on that? Because that is 
still being debated.
    Mr. Korn. It is not in my testimony, although it does seem 
to me to be a concept that is worthy of pursuing, whereby a 
State has got a product-safety piece of legislation that has 
been vetted through the State democratic process, whatever that 
may look like, that ends up stronger than the Federal 
legislation, that the Federal legislation does not preempt that 
process. That does make sense to me.
    My testimony, we haven't formally had an opinion on it, but 
it is, my gut tells me, something that this committee could 
explore.
    Mr. Gonzalez. Thank you.
    My last question--I only have a few questions, but I am 
hoping the chairman will indulge me and allow Mr. McGuire to 
respond.
    In your testimony you state, ``We need to weigh whether we 
are actually achieving significant enhancements to product 
safety or whether we are imposing new nontariff barriers.'' and 
then you continue and you expand on that: ``dangerous products 
should not be exported from the United States to foreign 
countries. Therefore, we support the concept of expert 
provision in Section 211. However, where foreign countries are 
protected by different standards, U.S. firms should not be 
banned from exporting a product that meets those foreign 
standards''--I am assuming standards that don't really compared 
to United States standards.
    What 211 does--and really, do we have a moral obligation to 
other countries not to export those products that we wouldn't 
want our citizens or our children on this side of the ocean to 
play with or be exposed to?
    211 simply states, ``Section 211 permits the CPSC to 
prohibit the export of consumer products that cannot be sold in 
the United States. A manufacturer may not export products that 
are not in conformity with consumer product safety rules or 
subject to mandatory or voluntary recalls or designated an 
imminent hazard to public health and safety or designated as a 
banned or hazardous substance, unless the importing country is 
first notified.''
    So I assume that if we tell the country it is a dangerous 
product, we wouldn't sell it over here, that they would simply 
say, well, that is fine, and----
    Mr. Rush. The gentleman's time is expired, but we will 
allow the witness to answer the question.
    Mr. McGuire. Well, thank you.
    Our views on that provision are that there are some cases 
where another country that has safety standards may have a 
different standard than the U.S. In the case of Europe, their 
flame-retardant standards are much different than ours, yet 
they are protective.
    Our views on the bill are that, while it is proper to 
inform the Consumer Product Safety Commission that a company 
wants to export a product to another country that has a 
standard but maybe different than the U.S., we are concerned 
about needing to obtain permission from the company where the 
product is going to be sent, for fear of creating a nontariff 
trade barrier, where that country, perhaps in consort with its 
own domestic industry, might want to prevent the importation of 
the product for nonsafety reasons but business reasons.
    So I think that provision needs to be carefully crafted so 
we are not creating another problem in the area of trade.
    We understand your intent with the safety provisions of the 
bill, and I think having the CPSC notified and given the 
opportunity to prevent the export would be the provision that 
would get at safety.
    Mr. Gonzalez. Thank you.
    Mr. Rush. The Chairman now recognizes the chairman of the 
full committee, Mr. Dingell.
    Mr. Dingell. Mr. Chairman, thank you for your courtesy. 
And, again, I commend you for the hearing.
    Starting with Ms. Weintraub, going across the committee 
table from her right on down, ladies and gentlemen, in three 
words or less, how do we fund H.R. 4040's increased 
authorization of CPSC? Appropriations, user fees, what?
    Ms. Weintraub. Appropriations.
    Mr. McGuire. Authorization and appropriations.
    Mr. Korn. I agree, Mr. Chairman. In fact, the appropriators 
have already committed, I believe, to this in part; some of 
them have.
    Mr. Hallenbeck. Congressman, I will have to demur. I am 
here to talk about the toy safety coordination initiatives, so 
I----
    Mr. Dingell. All right.
    Ma'am?
    Dr. Best. And I also will have to say that is not in the 
purview of the pediatricians.
    Mr. Dingell. And the last of our panel?
    Ms. Belliveau. We would support authorization and 
appropriation, as well.
    Mr. Dingell. Is there anybody there that will tell me that 
we have done a good job of getting appropriations to fund CPSC?
    As a matter of fact, we have done a very poor job, have we 
not?
    Now, Mr. McGuire you stated that there should be 
recognition that it is not practical for certain small products 
to contain tracking labels on each tiny component. However, 
section 103 of 4040 mandates tracking labels for a product and 
its packaging only to the extent that it is feasible.
    Is this condition, requirement compatible with your 
statement, yes or no?
    Mr. McGuire. Yes.
    Mr. Dingell. Very good.
    Now, Mr. McGuire, can you tell us why you maintain that it 
is unrealistic to expect firms to know every possible and 
changing subcontractor or fabricator used to produce a consumer 
product for sale in the United States?
    Mr. McGuire. Mr. Chairman, manufacturers are the ones that 
are responsible for the safety of the product, as are major 
retailers or any retailer that is importing a product. In a 
foreign country, even in the United States, there are times 
when a manufacturer may not know the identity of a sub-
subcontractor in the supply chain. They need to have systems in 
place where they are monitoring and auditing the safety of 
their suppliers. But it could be an incidence where something 
has changed.
    Mr. Dingell. Now, we have to understand that that is an 
essential component of knowing those things if you are 
anticipating the possibility of a product liability suit, isn't 
it?
    Mr. McGuire. Our position is simply that----
    Mr. Dingell. In other words, if you are a manufacturer and 
you say, ``Well, I am manufacturing this, and if I make a 
mistake I am going to be sued.'' so you are going to know who 
your suppliers are, are you not?
    Mr. McGuire. Manufacturers need to know who their suppliers 
are and, to the best of their ability, try to know that. But 
there may be instances where someone further down the supply 
chain who is making a material that was going into a part----
    Mr. Dingell. That should be dealt with by putting in the 
contract to say that you will notify us in the event of changes 
in suppliers, isn't that so? That is easily learned in the 
contract, is it not?
    Mr. McGuire. I think if the provision related to an 
ultimate product manufacturer having actual knowledge, it would 
be preferable.
    Mr. Dingell. All right. It would be particularly true in 
the case, say, of a country like China, where we haven't got 
any idea who manufactures what, where or how or why, and we 
don't have the vaguest idea of what the controls or protections 
for consumers might be; isn't that so?
    Mr. McGuire. Well, Mr. Chairman, I don't think that is 
necessarily true across the board.
    Mr. Dingell. You are comfortable with all Chinese imports, 
is that right? And you are here to tell us what a great job 
they are doing about setting safe foods, drugs, cosmetics, 
appliance, toys?
    Mr. McGuire. Well, with respect to appliances, a large 
percentage of appliances are manufactured in China, and they 
are all tested by independent labs for safety to meet U.S. 
safety standards. And it is up to the product manufacturer and 
the retailer to enforce that, as well as CPSC, in terms of----
    Mr. Dingell. Now, let us go to the next question.
    Mr. McGuire, you stated you wish the committee to amend 
section 211 of H.R. 4040, which relates to a recall and 
nonconforming products to permit U.S. manufacturers to export a 
product to a foreign country if the manufacturer can show that 
the product meets the country's safety standards.
    What if the country does not have applicable safety 
standards for certain products?
    Mr. McGuire. Then I think that would be an exception to 
that, Mr. Chairman.
    Mr. Dingell. So that would be acted on accordingly. All 
right.
    Now, Mr. McGuire, H.R. 4040 keeps all the restrictions, or 
virtually all the restrictions, on section 6(b) of the Consumer 
Product Safety Act intact for public disclosure of information 
related to consumer products, except in the case that such 
information would be vital to protecting the public health and 
safety.
    Do you feel that this amendment is reasonable?
    Mr. McGuire. I do, sir.
    Mr. Dingell. Now, Mr. Korn, H.R. 4040 amends section 15 to 
the Consumer Product Safety Act to permit CPSC to review and to 
approve a company's plans for mandatory consumer product 
recalls. In your view, is this a good idea?
    Mr. Korn. Absolutely.
    Mr. Dingell. Would you tell us, briefly, why?
    Mr. Korn. Right now, under the law, it is the manufacturer 
can elect a remedy amongst three.
    Sometimes there may be toasters in the marketplace and the 
manufacturer may elect to refund minus an allowance, which for 
a toaster is about $5. I don't think that is enough of a 
motivating factor for an owner of that particular product to 
move to get the dangerous product that could start a house on 
fire, just to make up a situation, out of their homes.
    Instead, I believe it is important for the CPSC compliance 
staff to have a check on that election. I think it is OK to 
have the manufacturer at least pro-offer what they think is 
best, but let's give the Consumer Product Safety Commission 
compliance staff the opportunity to police that selection to 
make sure the public interest is preserved.
    Mr. Dingell. Thank you.
    Now, Mr. Korn, you have indicated your position supports 
independent, third-party testing throughout the manufacturing 
process and on several lots. In light of such a testing's 
potential to protect consumers' health and safety, do you think 
such a requirement would place an undue financial burden on 
manufacturers?
    Mr. Korn. I don't. I think we have seen in the amount of 
recalls that have happened, because of lead in particular, the 
minimal cost for an extra lot testing is very small, de 
minimis, compared to the cost of recalling iconic brands out of 
the marketplace.
    Mr. Dingell. Thank you.
    Mr. Chairman, I have noticed I have used over my time. I 
thank you for your courtesy, and I yield back the balance of my 
time, such that it might be.
    Mr. Rush. The Chair thanks the chairman of the full 
committee.
    I didn't want to exercise the distasteful burden of telling 
the chairman that his time was up, so I just let him go on and 
on and on.
    And the Chair would now want to inform the committee that 
the record will remain open for 30 days for any additional 
questions that you might have for the witnesses.
    And we would ask the witnesses, if there are questions 
submitted to you, would you please respond promptly in writing.
    This subcommittee hearing is now adjourned. And we want to 
thank the witnesses for your time and for your patience, and 
thank you so much for your participation. Thank you very much.
    The meeting stands adjourned.
    [Whereupon, at 1:58 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
